<html>
<title> - HEARING ON H.R. 3963, H.R. 2125, H.R. 3950, H.R. 4144, H.R. 4211, H.R. 4230, AND H.R. 4287</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON H.R. 3963, H.R. 2125, H.R. 3950, H.R. 4144, H.R. 4211, H.R. 
                          4230, AND H.R. 4287

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

H.R. 3963: TO ESTABLISH TERMS AND CONDITIONS UNDER WHICH THE SECRETARY 
OF THE INTERIOR SHALL CONVEY LEASEHOLDS IN CERTAIN PROPERTIES AROUND 
CANYON FERRY RESERVOIR, MONTANA

H.R. 2125: TO AUTHORIZE APPROPRIATIONS FOR THE COASTAL HERITAGE TRAIL 
ROUTE IN NEW JERSEY, AND FOR OTHER PURPOSES

H.R. 3950: TO DESIGNATE A PORTION OF THE OTAY MOUNTAIN REGION OF 
CALIFORNIA AS WILDERNESS

H.R. 4144: TO ENSURE THE PROTECTION OF NATURAL, CULTURAL, AND 
HISTORICAL RESOURCES IN CUMBERLAND ISLAND NATIONAL SEASHORE AND 
CUMBERLAND ISLAND WILDERNESS IN THE STATE OF GEORGIA

H.R. 4211: TO ESTABLISH THE TUSKEGEE AIRMEN NATIONAL HISTORIC SITE, IN 
ASSOCIATION WITH THE TUSKEGEE UNIVERSITY, IN THE STATE OF ALABAMA, AND 
FOR OTHER PURPOSES

H.R. 4230: TO PROVIDE FOR A LAND EXCHANGE INVOLVING THE EL PORTAL 
ADMINISTRATIVE SITE OF THE DEPARTMENT OF THE INTERIOR IN THE STATE OF 
CALIFORNIA

H.R. 4287: TO MAKE TECHNICAL CORRECTIONS AND MINOR ADJUSTMENTS TO THE 
BOUNDARIES OF THE GRAND STAIRCASE-ESCALANTE NATIONAL MONUMENT IN THE 
STATE OF UTAH

                               __________

                     JULY 28, 1998, WASHINGTON, DC
                               __________

                           Serial No. 105-104
                               __________

           Printed for the use of the Committee on Resources
 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources

                      U.S. GOVERNMENT PRINTING OFFICE
 50-836 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho
                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 28, 1998.......................................     1

Statements of Members:
    Bilbray, Hon. Brian, a Representative in Congress from the 
      State of California........................................     8
        Prepared statement of....................................     9
    Faleomavaega, Hon. Eni F. H., a Delegate in Congress from 
      American Samoa.............................................     4
    Hansen, Hon. James V. a Representative in Congress from the 
      State of Utah..............................................     2
        Prepared statement of....................................     3
    Hill, Hon. Rick, a Representative in Congress from the State 
      of Montana.................................................    53
    Kingston, Hon. Jack, a Representative in Congress from the 
      State of Georgia...........................................    15
        Prepared statement of....................................    18
        Additional material submitted for the record by..........   173
    LoBiondo, Hon. Frank, a Representative in Congress from the 
      State of New Jersey........................................     5
        Prepared statement of....................................     7
        Additional material submitted for the record by..........   170
    Radanovich, Hon. George, a Representative in Congress from 
      the State of California....................................    11
        Prepared statement of....................................    12
    Riley, Hon. Bob, a Representative in Congress from the State 
      of Alabama.................................................    12
        Prepared statement of....................................    14

Statements of witnesses:
    Barger, Don, Southeast Regional Director, National Parks and 
      Conservation Association...................................    79
        Prepared statement of....................................   206
    Binkley, Virgil, President, Broadwater Rod and Gun Club, 
      Board Member, Canyon Ferry Fishing Association, Member, 
      Broadwater Stream and Lake Committee.......................    68
        Prepared statement of....................................   111
    Budewitz, Thomas, Attorney, representing the Board of 
      Commissioners, Broadwater County, Montana..................    66
        Prepared statement of....................................   107
    Fischer, Jerry, President/CEO, Yosemite Motels...............    72
        Prepared statement of....................................   215
    Fry, Tom, Deputy Director, Bureau of Land Management.........    55
        Prepared statement of....................................    96
    Galetto, Jane Morton, President, Citizens United to Protect 
      the Maurice River and its Tributaries, Inc.................    81
        Prepared statement of....................................   212
    Knuffke, Darrell, Vice President of Regional Conservation, 
      The Wilderness Society.....................................    70
        Prepared statement of....................................   118
    Martinez, Eluid, Commissioner, Bureau of Reclamation, United 
      States Department of the Interior; accompanied by Larry 
      Todd, Acting Regional Director, Great Plains Region, Bureau 
      of Reclamation, United States Department of the Interior...    54
        Prepared statement of....................................    94
    Paxton, Gregory, President/CEO, Georgia Trust for Historic 
      Preservation...............................................    76
    Payton, Benjamin, Office of the President, Tuskegee 
      University.................................................    74
        Prepared statement of....................................   124
    Robinson, Bob, President, Canyon Ferry Recreation Association 
      Cabin Site Acquisition Subcommittee........................    69
        Prepared statement of....................................   112
    Sautter, Jack, Chairperson, Broadwater Lake and Stream 
      Committee, Townsend, Montana, prepared statement of........   111
    Stevenson, Katherine, Associate Director, Cultural Resources 
      Stewardship and Partnerships, National Park Service, 
      Department of the Interior.................................    56
        Prepared statement of....................................   106

Additional material supplied:
    Burns, Hon. Conrad, a Senator in Congress from the State of 
      Montana....................................................   192
    Durrett, James F., III, Chief Operating Officer, The Georgia 
      Conservancy, prepared statement of.........................   189
    Georgia Trust for Historic Preservation, Fact Sheet..........   201
    Prickly Pear Sportsmen's Association, prepared statement of..   194
    Racicot, Hon. Marc, Governor, State of Montana, prepared 
      statement of...............................................   193
    Text of H.R. 3963............................................   129
    Text of H.R. 2125............................................   137
    Text of H.R. 3950............................................   138
    Text of H.R. 4144............................................   144
    Text of H.R. 4211............................................   151
    Text of H.R. 4230............................................   163
    Text of H.R. 4287............................................   166



 HEARING ON: H.R. 3963, TO ESTABLISH TERMS AND CONDITIONS UNDER WHICH 
   THE SECRETARY OF THE INTERIOR SHALL CONVEY LEASEHOLDS IN CERTAIN 
           PROPERTIES AROUND CANYON FERRY RESERVOIR, MONTANA

 H.R. 2125, TO AUTHORIZE APPROPRIATIONS FOR THE COASTAL HERITAGE TRAIL 
              ROUTE IN NEW JERSEY, AND FOR OTHER PURPOSES

   H.R. 3950, TO DESIGNATE A PORTION OF THE OTAY MOUNTAIN REGION OF 
                        CALIFORNIA AS WILDERNESS

     H.R. 4144, TO ENSURE THE PROTECTION OF NATURAL, CULTURAL, AND 
    HISTORICAL RESOURCES IN CUMBERLAND ISLAND NATIONAL SEASHORE AND 
          CUMBERLAND ISLAND WILDERNESS IN THE STATE OF GEORGIA

H.R. 4211, TO ESTABLISH THE TUSKEGEE AIRMEN NATIONAL HISTORIC SITE, IN 
ASSOCIATION WITH THE TUSKEGEE UNIVERSITY, IN THE STATE OF ALABAMA, AND 
                           FOR OTHER PURPOSES

   H.R. 4230, TO PROVIDE FOR A LAND EXCHANGE INVOLVING THE EL PORTAL 
 ADMINISTRATIVE SITE OF THE DEPARTMENT OF THE INTERIOR IN THE STATE OF 
                               CALIFORNIA

 H.R. 4287, TO MAKE TECHNICAL CORRECTIONS AND MINOR ADJUSTMENTS TO THE 
 BOUNDARIES OF THE GRAND STAIRCASE-ESCALANTE NATIONAL MONUMENT IN THE 
                             STATE OF UTAH

                              ----------                              


                         TUESDAY, JULY 28, 1998

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on the 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1324, Longworth House Office Building, Hon. James Hansen 
(chairman of the Subcommittee) presiding.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. [presiding] The committee will come to order.
    Good morning, everyone, and welcome to the hearing. Today 
we will hear testimony on seven bills--H.R. 3963, H.R. 2125, 
H.R. 3950, H.R. 4144, H.R. 4211, H.R. 4230, and H.R. 4287.
    Mr. Hansen. The first bill for consideration is H.R. 3963, 
introduced by Congressman Hill, to establish terms and 
conditions under which the Secretary of the Interior shall 
convey leaseholds in certain properties around Canyon Ferry 
Reservoir, Montana. This bill would lead to the private 
ownership of 265 cabin sites that are presently owned by the 
Bureau of Reclamation.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. The next bill we will hear is H.R. 2125, 
introduced by Congressman LoBiondo of New Jersey, would 
authorize appropriations for the Coastal Heritage Trail Route 
in New Jersey. The bill would also extend the authorities 
provided to the Secretary of the Interior when the route was 
established in 1988.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. The next bill, H.R. 3950, introduced by 
Congressman Bilbray of California, would create the Otay 
Mountain Wilderness Area in southern California. We realize 
that concerns have been expressed, and there have been ongoing 
negotiations over language in the bill that would allow the 
Border Patrol and the DEA to continue to conduct their 
operations in this area. This Subcommittee intends to work with 
the concerned parties, and I hope we can find an appropriate 
solution.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. The next bill is H.R. 4144, introduced by 
Congressman Kingston of Georgia, would ensure protection of the 
natural, cultural, and historical resources of Cumberland 
Island National Seashore and Cumberland Island Wilderness Area 
in Georgia. This bill would enable a land exchange to occur 
between the Federal Government and private entities of 
Cumberland Island. This bill also directs the restoration of 
the Plum Orchard Mansion by using public and private funds. 
Additionally, H.R. 4144 directs the Secretary of the Interior 
to identify, document, and protect archaeological sites located 
within the Seashore, as well as prepare and implement a plan to 
preserve designated national historic sites within the Seashore 
and also to designate the southern tip of the island as 
wilderness.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. The next bill, H.R. 4211, introduced by 
Congressman Riley of Alabama, would establish the Tuskegee 
Airmen Na-

tional Historic Site as a unit of the National Park Service, in 
association with the Tuskegee University, in the State of 
Alabama. This site will help commemorate and interpret the 
historic efforts made by the Tuskegee Airmen during World War 
II.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. The next bill, H.R. 4230, introduced by 
Congressman Radanovich, would provide for a land exchange 
involving the El Portal Administrative Site to allow Yosemite 
National Park to replace the Arch Rock Entrance Station with a 
much safer and larger entrance. Yosemite National Park would 
acquire the needed parcel from a private company known as 
Yosemite Motels, who would receive in exchange a parcel of land 
elsewhere.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. The final bill, H.R. 4287, introduced by 
Congressman Cannon of Utah, would make technical corrections 
and minor adjustments to the boundary of the Grand Staircase-
Escalante National Monument in the State of Utah. As many of 
you know, the monument was created and its boundaries were 
drawn in the dark, in the secret of the night, without any 
public input. As a result, the monument included certain areas 
that should have been excluded, including a pending school 
site.
    [Laughter.]
    I don't know who wrote this.
    [Laughter.]
    I'm merely reading it.
    [Laughter.]
    This bill makes changes to the boundaries to correct some 
of these heinous problems that were created.
    [Laughter.]
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. We are very pleased to have the sponsors of 
these bills here with us today. I also thank all of the 
witnesses here today and look forward to their testimony.
    As you can see, we are hearing several bills and have 
several witnesses. I would ask our witnesses to please keep 
their testimonies to the allotted 5 minutes. And today, I 
really have to say that because, as you know, a tragedy 
occurred in the Capitol on Friday, and Members of Congress are 
supposed to be over in the House at 11:45, so because of this 
very unusual and tragic thing that occurred, we want to get out 
of here as soon as we can.
    How that thing works for you--the members all know--but you 
folks, when you come up, we'll give you all 5 minutes. It's 
just like a green light; when you see that the light's green, 
go ahead; yellow, wrap it up, and red, I'll have to bang the 
gavel. So, talk fast, and we'll read all your stuff. All these 
bills look good to us, and I think we can handle it.
    [The statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the hearing. Today we 
will hear testimony on seven bills, H.R. 3963, H.R. 2125, H.R 
3950, H.R. 4144, H.R. 4211, H.R. 4230 and H.R. 4287.
    The first bill for consideration is H.R. 4141, introduced 
by Congressman Hill, to establish terms and conditions under 
which the Secretary of the Interior shall con-

vey leaseholds in certain properties around Canyon Ferry 
Reservoir, Montana. This bill would lead to the private 
ownership of 265 cabin sites that are presently owned by the 
Bureau of Reclamation.
    The next bill we will hear is H.R. 2125, introduced by 
Congressman LoBiondo of New Jersey, would authorize 
appropriations for the Coastal Heritage Trail Route in New 
Jersey. The bill would also extend the authorities provided to 
the Secretary of the Interior when the route was initially 
established in 1988.
    The next bill, H.R. 4109, introduced by Congressman Bilbray 
of California, would create the Otay (O Tie) Mountain 
Wilderness Area in southern California. We realize that 
concerns have been expressed, and that there have been ongoing 
negotiations over language in the bill that would allow the 
Border Patrol and the DEA to continue to conduct their 
operations in this area. This Subcommittee intends to work with 
the concerned parties and I hope we can find an appropriate 
solution.
    The next bill is H.R. 4144, introduced by Congressman 
Kingston of Georgia would ensure protection of the natural, 
cultural and historical resources on Cumberland Island National 
Seashore and Cumberland Island Wilderness Area in Georgia. This 
bill would enable a land exchange to occur between the Federal 
Government and private entities on Cumberland Island. This bill 
also directs the restoration of the Plum Orchard Mansion by 
using public and private funds. Additionally, H.R. 4144 directs 
the Secretary of the Interior to identify, document, and 
protect archaeological sites located within the Seashore, as 
well as prepare and implement a plan to preserve designated 
national historic sites within the Seashore and also to 
designate the southern tip of the island as wilderness.
    The next bill is H.R. 4211, introduced by Congressman Riley 
of Alabama, would establish the Tuskegee Airmen National 
Historic Site as a unit of the National Park System, in 
association with the Tuskegee University, in the State of 
Alabama. The site will help commemorate and interpret the 
heroic efforts made by the Tuskegee Airmen during World War II.
    The next bill, H.R. 4230, introduced by Congressman 
Radanovich, would provide for a land exchange involving the El 
Portal Administrative Site to allow Yosemite National Park to 
replace the Arch Rock Entrance Station with a much safer and 
larger entrance. Yosemite National Park would acquire the 
needed parcel from a private company known as Yosemite Motels 
who would receive, in exchange, a parcel of land elsewhere.
    The final bill, H.R. 4287, introduced by Congressman Cannon 
of Utah, would make technical corrections and minor adjustments 
to the boundaries of the Grand Staircase-Escalante National 
Monument in the State of Utah. As many of you know, the 
monument was created, and its boundaries were drawn, in secret, 
without any public input as a result, the monument included 
certain areas that should have been excluded, including a 
pending school site. This bill makes changes to the boundaries 
to correct some of these problems.
    We are very pleased to have the sponsors of these bills 
here with us today. I also thank all the other witnesses here 
today and look forward to their testimony. As you can see, we 
are hearing several bills and have several witnesses. I would 
ask our witnesses to please keep their testimonies to the 
allotted 5 minutes. When the light you see on the table turns 
yellow you should start wrapping your testimony up. When it 
turns red you should end.

    Mr. Hansen. The gentleman from American Samoa, Mr. 
Faleomavaega.

    STATEMENT OF HON. ENI F. H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, I want to thank you for 
calling this hearing this morning. I had hoped that, at least 
out of the seven pieces of legislation, that maybe one or two 
would be representative of this side of aisle. But I notice 
that all pieces of legislation do represent the majority party.
    Quite a variety of issues that we're going to be discussing 
through these pieces of legislation. Some do have the support 
of the administration, and some have the complete opposition or 
objection by the administration. Mr. Chairman, we're getting to 
the last moment of the hour on the eve of the 24th hour before 
adjournment this year in October, and I sincerely hope that we 
will do justice to these pieces of legislation in examining 
them closely and making sure that, not only they protect the 
public interest, but certainly that our friends who are 
sponsors of this legislations will have an understanding and 
certainly our purpose and consideration the provisions of each 
of these pieces of legislation.
    I want to offer my personal welcome to our colleagues who 
are sponsors of these pieces of legislation and look forward to 
their testimonies this morning.
    Mr. Hansen. Thank you.
    We'll start with Frank LoBiondo of New Jersey. We'll go to 
Brian Bilbray and then George Radanovich, in that order. But, 
Frank, we'll start with you.

STATEMENT OF HON. FRANK LOBIONDO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. LoBiondo. Thank you very much, Mr. Chairman, for 
agreeing to schedule this hearing today. I have a New Jersey 
State Senate Resolution which I'd like to submit for the 
record, if that's OK with you, Mr. Chairman.
    Mr. Hansen. Without objection.
    [The information referred to may be found at end of 
hearing.]
    Mr. LoBiondo. It's supporting this legislation. And also 
further into proceedings, I'd like to thank Jane Galetto from 
my district, 2nd District of New Jersey, for being here today 
to give the citizens' testimony on this bill.
    Today I'll be saying a few words about H.R. 2125, the bill 
I've introduced along with Senator Frank Lautenberg, to extend 
the authorization of the New Jersey Coastal Heritage Trail. I'd 
like to explain to you briefly why this legislation is 
deserving of Congress' attention by describing the many 
benefits the trail has and will continue to have in southern 
New Jersey.
    H.R. 2125 would extend the authorization of the Coastal 
Heritage Trail until 2004 and provide an additional $2.75 
million to complete work begun with its establishment in 1988. 
This extension is needed to complete a number of projects such 
as interpretive exhibits, wayside signs, related onsite 
information, and other services. Simply put, inaction of H.R. 
2125 will prevent the trail from being caught in an unfinished 
work-in-progress condition.
    First, let me provide a short history. The legislation 
establishing the New Jersey Coastal Heritage Trail was passed 
by Congress in 1988, thanks to the leadership of Senator Bill 
Bradley. Its original intent was to unify New Jersey's many 
scenic points of interest along the State's Atlantic Ocean, 
Delaware River, and Delaware Bay shorelines. By using the term, 
``scenic points of interests,'' I'm referring to the wealth of 
environmental, historical, maritime, and recreational sites 
that can be found along New Jersey's coastlines. These sites 
range from Perth Amboy to the north, Deepwater to the west, 
Cape May to the extreme southern tip of the State. The trail's 
areas include two national wildlife refuges, four tributaries 
of wild and scenic river system, a Civil War fort and national 
cemetery, several lighthouses, historic homes, and several 
other sites tied to southern New Jersey's maritime history.
    In short, the Coastal Heritage Trail incorporates the best 
of what New Jersey has to offer to the rest of the Nation. In 
highlighting the scenic points of interest mentioned above, it 
is important to emphasize that the completed trail will 
stimulate the local economy in southern New Jersey by 
attracting tourists from northern New Jersey and the entire 
Delaware Valley region.
    Although the 2nd Congressional District is known for its 
resort communities along the Atlantic coast, there are a number 
of treasures that the Coastal Heritage Trail will bring to the 
attention of the public. It is no exaggeration to say the 
potential for tourism in the counties along the Delaware Bay--
Salem, Cumberland, and Cape May--has only begun to be tapped.
    One exciting aspect of the Coastal Heritage Trail is the 
focus on maritime history. There's a rich history to be told 
about the industries once sustained by the Delaware Bay, such 
as whaling, sea-borne trade, shipbuilding, oystering, crabbing, 
and the harvest of caviar and menhaden. While we often define 
our Nation's history through military or political milestones, 
the Trail will serve to remind visitors to the Delaware Bay 
coast that maritime-dependent commerce was, and at one time, a 
major factor in the growth of the United States.
    Similarly, eco-tourism along the Coastal Heritage Trail has 
proved to be a big success. There is an abundant variety of 
natural habitat and species to be found on the coast. During 
the springtime, for instance, visitors can watch the annual 
spectacle of thousands of horseshoe crabs returning to lay 
their eggs on the beach. Whale and dolphin watching have become 
extremely popular. In addition, bird lovers from out of the 
State and around the world are realizing what southern New 
Jersey residents have known for a long time, that the region is 
unmatched for observing migratory birds, ospreys, bald eagles, 
and shore birds. Mr. Chairman, having recently traveled up the 
Maurice River, a central feature of the Coastal Heritage Trail 
route, in an oyster boat, I can proudly attest to what an 
inspiration it is to see ospreys thriving in their natural 
habitat.
    Let me also tell the members of the Subcommittee that if 
you ever have the opportunity to take a drive along the Trail 
route, open the car window and take a deep breath of the air 
specially flavored by the salt marshes and wetlands. It is an 
aroma of tidal region made up in equal parts of plant, fish, 
insect, and bird life that make it distinctive.
    Finally, let me point out to the members of the 
Subcommittee that the New Jersey Coastal Heritage Trail is a 
partnership between the Federal Government and several sources 
that works. The Trail has been supported by the State of New 
Jersey, Division of Travel and Tourism, local community groups, 
several nonprofit societies, and corporate sources. Far from 
any costly government project, the Coastal Heritage Trail 
represents the kind of program we should be encouraging--
preservation-minded, with a potential for positive economic 
impact on the local community.
    Mr. Chairman, thank you again for allowing me to come 
before your Subcommittee and testify on this bill, H.R. 2125. 
This is simple legislation that, if enacted, is sure to have a 
resounding and long-lasting influence on southern New Jersey 
for many years to come.
    Thank you very much.
    [The prepared statement of Mr. LoBiondo follows:]

Statement of Hon. Frank A. LoBiondo, a Representative in Congress from 
                        the State of New Jersey

    Mr. Chairman and members of the Subcommittee, I would like 
to thank you for scheduling this hearing. Today I will be 
saying a few words about H.R. 2125, a bill I have introduced 
along with Senator Frank Lautenberg, to extend the 
authorization of the New Jersey Coastal Heritage Trail. I would 
like to explain to you why this legislation is deserving of 
Congress' attention by describing the many benefits the Trail 
has, and will continue to have, in Southern New Jersey.
    H.R. 2125 would extend the authorization of the Coastal 
Heritage Trail until 2004, and provide an additional $2.75 
million to complete work begun with its establishment in 1988. 
This extension is needed to complete a number of projects, such 
to interpretive exhibits, wayside signs and related on-site 
information, and other services. Simply put, enaction of H.R. 
2125 will prevent the Trail from being caught in an unfinished, 
``work in progress'' condition.
    First, let me provide a short history. The legislation 
establishing the New Jersey Coastal Heritage Trail was passed 
by Congress in 1988, thanks to the leadership of Senator Bill 
Bradley. Its original intent was to unify New Jersey's many 
scenic points of interest along the state's Atlantic Ocean, 
Delaware River, and Delaware Bay shorelines.
    By using the term ``scenic points of interest,'' I am 
referring to the wealth of environmental, historic, maritime, 
and recreational sites that can be found along New Jersey's 
coastlines. These sites range from Perth Amboy to the north, 
Deepwater to the west, and Cape May in the extreme southern tip 
of the state. The Trail's area includes two National Wildlife 
Refuges, four tributaries of a Wild and Scenic River system, a 
Civil War fort and National Cemetery, several lighthouses, 
historic homes, and several other sites tied to Southern New 
Jersey's maritime history.
    In short, the Coastal Heritage Trail incorporates the best 
of what New Jersey has to offer to the rest of the nation. In 
highlighting the scenic points of interest mentioned above, it 
is important to emphasize that the completed Trail will 
stimulate the local economy in Southern New Jersey by 
attracting tourists from Northern New Jersey and the entire 
Delaware Valley region.
    Although the Second Congressional District is known for its 
resort communities along the Atlantic coast, there are a number 
of treasures that the Coastal Heritage Trail will bring to the 
attention of the public. It is no exaggeration to say the 
potential for tourism in the counties along the Delaware Bay--
Salem, Cumberland, and Cape May--has only begun to be tapped.
    One exciting aspect of the Coastal Heritage Trail is the 
focus on maritime history. There is a rich story to be told 
about the industries once sustained by the Delaware Bay--such 
as whaling, seaborne trade, shipbuilding, oystering, crabbing, 
and the harvest of caviar and menhaden. While we often define 
our nation's history through military or political milestones, 
the Trail will serve to remind visitors to the Delaware Bay 
coast that maritime-dependent commerce was, at one time, a 
major factor in the growth of the United States.
    Similarly, ``eco-tourism'' along the Coastal Heritage Trail 
route has proved to be a big success. There is an abundant 
variety of natural habitats and species to be found on the 
coast. During the springtime, for instance, visitors can watch 
the annual spectacle of thousands of horseshoe crabs returning 
to lay their eggs on the beach. Whale and dolphin watching have 
become extremely popular. In addition, bird lovers from out of 
the state are realizing what Southern New Jersey residents have 
known for a while: that the region is unmatched for observing 
migratory birds, ospreys, bald eagles, and shore birds.
    Mr. Chairman, having recently traveled up the Maurice 
River--a central feature of the Coastal Heritage Trail route--
in an oyster boat, I can proudly attest what an inspiration it 
is to see ospreys thriving in their natural habitat.
    Let me also tell the members of the Subcommittee that if 
you ever have the opportunity to take a drive along the Trail 
route, open the car window and take a deep breath of the air 
specially flavored by the salt marshes and wetlands. It is the 
aroma of a tidal region--made up in equal parts of the plant, 
fish, insect, and bird life that make it distinctive.
    Finally, let me point out to the members of the 
Subcommittee that the New Jersey Coastal Heritage Trail is a 
partnership between the Federal Government and several sources 
that works. The Trail has been supported by the State of New 
Jersey Division of Travel and Tourism, local community groups, 
several non-profit societies, and corporate sources. Far from 
any costly government project, the Coastal Heritage Trail 
represents the kind of program we should be encouraging: 
preservation-minded with a potential for positive economic 
impact on the local community.
    Mr. Chairman, thank you again for allowing me to come 
before your Subcommittee to testify on H.R. 2125. This is 
simple legislation that, if enacted, is sure to have a 
resounding and long-lasting influence on Southern New Jersey 
for many years to come.

    Mr. Hansen. Thank you.
    Mr. Bilbray.

 STATEMENT OF HON. BRIAN BILBRAY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Chairman, I want 
to thank you for holding this hearing, and I'll try to brief. I 
understand that our circumstances are, regretfully, quite 
unusual, but I appreciate you allowing us to address our items.
    Mr. Chairman, I do not serve on this Committee, but I have 
served for 20 years at working on environmental preservation 
strategies along the border. One thing that's become obvious to 
those of us that worked along the frontier is that there is a 
unique situation there that doesn't always fit within existing 
policy parameters as we originally conceived them. But on this 
item, H.R. 3950, which is the bill to preserve Otay Mountain as 
wilderness--Otay being a local Indian name referring to the 
abundance of water in an area that does not necessarily have an 
abundance of fresh water. This bill has actually been able to 
develop an unusually high degree of consensus. I think you're 
aware that past wilderness designations in other areas have 
been a little controversial, to say the least. But we really 
believe that on this bill, we're developing the ability to take 
honest differences and approaches, put them together, and build 
a consensus that actually fulfills the intentions of the 
Wilderness Act.
    Now, I think that we've tried to be sensitive to the 
concerns expressed by all parties involved. And, in fact, let 
me just say that I think that we've worked out some very unique 
and effective terminology to be able to satisfy all 
stakeholders that the real intent of the Act is going to be 
executed, without setting unnecessary and unforeseen and 
unwanted precedents. I think the precedent issue is a 
legitimate concern, but for those of us that have long worked 
on environmental issues along our Nation's borders, we find 
that we need to look at the big picture and be outcome-based, 
in order to really be able to fulfill the intention of the 
Wilderness Act or any of our other environmental strategies. 
The fact is we have worked out the ability with this bill to 
have not only the Wilderness Act served, and not only the 
Border Patrol and the Customs mission<plus-minus>s served, but 
actually both of them to be enhanced because of the cooperation 
between the two.
    Now, I'm not implying that this bill is supported 
universally and embraced by everyone. But let me just say that 
I think that we've seen that when you can have the Justice 
Department, when you can have this Administration, when you can 
have the local environmental community, when you can have the 
local county and State, when you can see the kind of consensus 
that we have here, this is one of the unique opportunities for 
us to move forward in a bipartisan and a multi-agency approach.
    Now, one of the things on which I think that we will all 
agree is that this very rugged, unique area along the border 
needs to be preserved and needs to be enhanced. And one of the 
things that we've really tried to see is understanding that 
border security is not a threat to wildlife preservation in the 
border region, but rather it's an essential part of that 
strategy. We've seen areas where we've worked at habitat 
preservation, but where the lack of border security has caused 
the destruction of the habitat because of the illegal activity 
in the area--massive burn-offs, set to create diversions for 
Immigration and Custom agents; massive destruction and trashing 
of the area resulting from illegal immigration and the activity 
of drug smuggling; even the existence of ``meth'' labs in areas 
that were supposed to be wildlife preserve areas, basically, 
because there was not sufficient control in the area.
    Now, I'd like to say that there are some precedents I'd 
like to set with this bill, Mr. Chairman. I'd like to set the 
precedent that diverse groups can work together to build a 
consensus for preservation; that the local community can take a 
lead and have the Federal Government come in under their 
request to participate with the local community in the 
formation of a wilderness strategy.
    I also would like to set the precedent that law enforcement 
does not have be at odds with habitat preservation, that the 
two can be essentially dovetailed together to benefit both.
    I'd like to set the precedent set that Democrats and 
Republicans, Brian Bilbray and Bob Filner, can actually work 
for the betterment of not only our constituency but also the 
habitats of the entire United States.
    This bill gives us that opportunity, Mr. Chairman. It's a 
strategy that is consistent in environmental law and law 
enforcement overall, and it's consistent with our stated 
purpose of the Wilderness Act and the stated purpose of your 
chairmanship in this new term.
    Thank you, Mr. Chairman. I'll look forward to working with 
you on this bill.
    [The prepared statement of Mr. Bilbray follows:]

 Statement of Hon. Brian P. Bilbray, a Representative in Congress from 
                        the State of California

    Mr. Chairman, thank you very much for holding this hearing 
today. I understand how busy the Subcommittee's schedule is, 
especially in such a somber time for this Congress, and greatly 
appreciate this opportunity to testify, and to hear the 
testimony of the other witnesses on H.R. 3950, the Otay 
Mountain Wilderness Act of 1998. I will be as brief as 
possible, and would ask that my full statement appear in the 
record, along with supporting documents.
    Mr. Chairman, as a lifelong resident of San Diego, I am 
very aware of the unique natural resource assets of Otay 
Mountain, much of which is currently managed as a wilderness 
study area (WSA). This management has in large part focused on 
conservation of the area's wildlife and plant life, as well as 
cultural, geologic, and scenic values, in addition to the 
wilderness values it possesses, as outlined in the 1964 
Wilderness Act. Otay Mountain's proximity to our border with 
Mexico has also made it a flashpoint for the ongoing 
immigration control and drug interdiction efforts of the Border 
Patrol and Drug Enforcement Administration (DEA).
    My motive for introducing this legislation in the first 
place was very simple--it was clear that an unusually high 
degree of consensus existed among involved stakeholders in 
favor of wilderness designation and that this window of 
opportunity needed to be pursued in a relatively expeditious 
fashion. Mr. Chairman, while I do not serve on the Resources 
Committee, I am aware that it is rare to find a wilderness 
designation proposal which is supported by the public, 
environmental community, and local, state and Federal agencies 
of jurisdiction. I am not implying that we have total consensus 
on H.R. 3950 in its entirety; as recently as yesterday 
afternoon, stakeholders were meeting to continue their good 
faith discussions on compromise language for one particular 
section of the bill. However, in the case of Otay Mountain, 
there is agreement that wilderness designation would be the 
most effective land management tool for the area, from both a 
natural resource and a law enforcement perspective. Let me just 
clarify for the record that H.R. 3950 as introduced is a 
product of much detailed dialogue and careful consultation with 
legislative counsel, as it was and is my intent to narrowly 
craft this bill to reflect the unique resource and management 
needs of Otay Mountain, while remaining true to and consistent 
with the underlying Wilderness Act. H.R. 3950 is a reflection 
of this effort, and of my desire to try and capitalize on this 
consensus that exists, recognizing that continued discussion 
and consultation on the bill would be necessary, and I am 
pleased that this dialogue has continued in good faith.
    Members of my staff toured the Otay Mountain area on April 
14 of this year with one of BLM's regional foresters (Jim 
Francis), who I might add provided an excellent tour of the 
area's resources. Based on the understanding of the general 
consensus which existed at the time among the BLM, the Border 
Patrol, and local and national environmentalists, and on 
information derived from this field outing, I decided to pursue 
legislation and consulted with you on this process. Your 
counsel, given the limited number of days left in this 
legislative session, was to introduce a narrowly drafted bill 
which reflected that consensus, and continue to dialogue with 
your Subcommittee, the environmental community, the Border 
Patrol, the CDF and BLM to finetune a final legislative product 
to properly designate Otay Mountain as wilderness.
    As I stated previously, while that dialogue continues in 
good faith with other interested stakeholders, this has proven 
to be sound advice, as we are here today to discuss H.R. 3950 
and how to best proceed with it, and are near an understanding 
as to the mechanics of legislative language which will maintain 
the integrity of the original 1964 Wilderness Act, while 
providing needed assurances to the Border Patrol and the 
Department of Justice that their essential missions of 
immigration control and drug interdiction at our borders will 
continue unhampered.
    I'd like to expand on this last point. Most of my 
colleagues, particularly those from California, have heard me 
speak on any number of occasions about the law enforcement 
challenges we face at the border, whether they be environmental 
and criminal. As I've told you, Mr. Chairman, I would not be 
pursuing this legislation in the first place if I did not have 
faith that we would be able, at the end of the day, to protect 
this wonderful and rugged place for future generations of San 
Diegans to enjoy as wilderness, while maintaining the 
uncompromised interdiction capabilities of the Border Patrol 
which are absolutely critical to our national security.
    Interestingly, Mr. Chairman, and I might ask you or other 
members of the Subcommittee to ask for further elaboration on 
this at the appropriate point in this hearing, or perhaps for 
the record, the Border Patrol believes that wilderness 
designation for Otay Mountain will not only be compatible with, 
but will actually improve its ability to deter illegal 
immigration, and apprehend the smugglers of narcotics and 
humans that still taint our border regions. I am sure that the 
Administration will elaborate on this further in BLM Deputy 
Director Fry's testimony. The Border Patrol had previously 
expressed concerns about the potential designation of Otay 
Mountain as wilderness, due to its rugged terrain and general 
inaccessibility, which had served as a magnet for smuggling and 
illegal immigration activity. However, by working with the BLM 
and CDF to create new access roads to the area, and repair and 
improve existing roads, the Border Patrol has improved its 
ability to operate in the region, with noticeable reductions in 
illegal immigration and drug traffic as a direct result.
    It is my understanding now that due to this increased 
access, the Border Patrol believes that wilderness designation 
for Otay Mountain will not interfere with its ability to 
operate in the region, so long as it retains the explicit 
authority to carry out its mission in the area. It is my 
further understanding that the BLM believes that compromise 
language to Section 6(b) of H.R. 3950, which it has discussed 
with other stakeholders as a part of our ongoing dialogue, can 
give the Border Patrol the discretion and authority it needs 
while ensuring consistency with the landmark Wilderness Act of 
1964, which is the foundation of this effort.
    BLM has further indicated that this consensus language will 
be compatible with the flexibility already contained within 
Section 4(c) of the Wilderness Act, which will help to further 
ensure that the interdiction operations of the Border Patrol 
and other agencies in the Otay region will be unhampered.
    Mr. Chairman, I appreciate the Administration's willingness 
to work with me, this Subcommittee, and the other 
stakeholdersto develop compromise language which will 
satisfactorily address these important concerns. Let me again 
clarify that I share the concerns expressed about ``setting 
precedent'' which might be detrimental to the Wilderness Act, 
and I am confident that we will be able to identify and agree 
on language which will address these legitimate concerns. We 
all want the same thing--we want to protect the natural 
resource of Otay Mountain, we want to maintain vigilant border 
security, and we want to maintain sound wildfire management 
practices.
    I would like to conclude by talking about the kind of 
precedent which I am interested in setting with this bill--too 
often, discussion of wilderness proposals consist largely of 
conflict between different stakeholders. I am appreciative of 
the fact that while there have been differences of opinion as 
to how to best refine H.R. 3950 to achieve the result which we 
all want, they have been expressed openly and in good faith, 
and the results are in the kind of consensus which is being 
discussed today. I think that the best legacy we could leave 
with this bill, H.R. 3950, is beyond that of a simple 
wilderness designation, as important as that is.
    I have to believe that there are other areas of 
extraordinary beauty and majesty elsewhere in our country, 
perhaps even in other border regions, where the important 
missions of other agencies or departments have been perceived 
to be at cross-purposes with resource conservation, or 
environmental protection. We have already seen the positive 
environmental results of the Border Patrol's increased access 
to Otay Mountain and adjoining areas, in that less illegal 
immigration and drug smuggling there has translated to less 
impact on Otay itself--fewer illicit trails beaten through 
delicate and fragile habitat, less trash and human waste, and, 
elsewhere in the vicinity, fewer sensitive animal and bird 
species or their eggs being consumed for food, and less toxic 
chemical residue from makeshift drug labs, to name but a few 
benefits. It would be my hope that if we continue to be 
successful in our efforts to designate wilderness at Otay 
Mountain, we will further shore up this precedent that 
wilderness designation, or other land and resource management 
practices, are not incompatible with the critical work being 
done in the same region by other agencies.
    We should emphasize and support these opportunities where 
Federal operating strategies can and should complement one 
another, rather than be allowed to run completely independent 
of one another, and at cross purposes. In this instance, there 
is clear benefit to be derived to both our natural environment 
and to our law enforcement strategies. Because both of these 
assets are of such significant importance to us, and to the 
people whom we represent and who benefit from them, I hope we 
will be able to see this project through to completion, and use 
it to build future successes in which we can all share and 
benefit.
    Thank you for your consideration of H.R. 3950, Mr. 
Chairman. I look forward to working with you and your staff to 
refine the compromise language we've discussed here today. I 
and my own staff are at your disposal should you have any 
questions or require additional information about Otay 
Mountain.

    Mr. Hansen. Thank you; we appreciate your testimony.
    Mr. Radanovich.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman, for holding the 
hearing on H.R. 4230, which exchanges Federal land with private 
land to allow Yosemite National Park to place an entrance 
station at El Portal, at the most desirable location.
    Over one million visitors enter through the current 
administrative site at the Arch Rock entrance, and this 
exchange would be done in the interest of safety and efficiency 
to both the park and its visitors.
    The current site of the station is on a small curving road 
that becomes incredibly congested with traffic during peak 
visitor months, and also floods during spring runoff, I might 
add. The new site would give the park the ability to better 
manage bus and car traffic entering through highway 140.
    Officials at Yosemite National Park have been working with 
Mr. Jerry Fischer, who will be testifying a little bit later 
this morning, who also owns a parcel of private land to 
accomplish this exchange. However, congressional approval is 
necessary to achieve the minor adjustments to the lands.
    All parties involved are seeking an exchange that is in 
full compliance with NEPA standards, the Department of Interior 
guidelines, and all other Federal statutes.
    I look forward to working with the Park Service to 
successfully exchange these lands, and I am willing to address 
any issues or concerns that are brought to my attention.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Radanovich follows:]

 Statement of Hon. George P. Radanovich, a Representative in Congress 
                      from the State of California

    Thank you, Mr. Chairman, for holding this hearing on H.R. 
4230, which exchanges Federal land with private land to allow 
Yosemite National Park to place an entrance station in a more 
desirable location. Over one million visitors enter through 
this administrative site at Arch Rock and this exchange would 
be done in the interest of safety and efficiency to both the 
Park and its visitors.
    The current site of the station is on a small curving road 
that becomes incredibly congested with traffic during the peak 
visitor months. The new site would give the Park the ability to 
better manage bus and car traffic entering through Highway 140. 
Officials at Yosemite National Park has been working with Mr. 
Jerry Fischer, who owns the parcel of private land, to 
accomplish this exchange. However, Congressional approval is 
necessary to achieve the minor adjustments to the lands.
    All parties involved are seeking an exchange that is in 
full compliance with National Environmental Policy Act (NEPA) 
standards, Department of Interior guidelines and all other 
Federal statutes.
    I look forward to working with the Park Service to 
successfully exchange these lands, and I am willing to address 
any issues or concerns that are brought to my attention.
    Thank you, again, Mr. Chairman.

    Mr. Hansen. Thank you.
    Mr. Riley.

STATEMENT OF HON. BOB RILEY, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALABAMA

    Mr. Riley. Thank you, Mr. Chairman, and members of the 
Subcommittee, for inviting me here today to testify on behalf 
on H.R. 4211, a bill to designate the Tuskegee Airmen National 
Historic Site.
    I have with me today, Dr. Benjamin F. Payton, Jr., 
president of Tuskegee University, who will also speak on the 
merits of this project and the role that Tuskegee University 
will play. I'd like to specifically thank him and his staff for 
all the hard work that they've put into this project.
    First, Mr. Chairman, let me begin by saying, by any 
standard, the Tuskegee Airmen were and are American heroes. 
Despite a widespread belief that they, as African-Americans, 
did not possess the abilities to be effective war fighters, the 
famed Tuskegee Airmen of World War II proved that they were 
among the best pilots in the North African, Sicilian, and 
European campaigns.
    Affectionately known as the ``Red Tails,'' for the red 
paint on the tails of their aircraft--by the bomber crews they 
protected, the pilots of Tuskegee did not lose a single bomber 
in their care to enemy fighters--not one. Because of their 
heroic service, the Tuskegee Airmen were one of America's most 
highly decorated fighter groups of World War II. Upon returning 
home, the Tuskegee Airmen had won 150 Distinguished Flying 
Crosses, 1 Legion of Merit, 1 Silver Star, 14 Bronze Stars, and 
744 Air Medals. But the price was high. Of the 450 pilots that 
saw combat during World War II, 66 were killed in action, and 
another 32 were taken prisoner of war.
    However, Mr. Chairman, the contributions of the Tuskegee 
Airmen didn't end with the war. Because of their demonstrated 
ability as an effective fighting force and their individual 
heroism, the Tuskegee Airmen gave President Harry S. Truman all 
the proof he needed to justify his decision in 1948 to 
desegregate the United States military.
    And in the following decades, the Airmen's accomplishments 
during the war served as an inspiration for the civil rights 
movement as a whole.
    Last August, I asked the National Park Service to conduct a 
feasibility study for developing Moton Field at Tuskegee 
University, Alabama, as a National Historic Site. Mr. Chairman, 
I want to commend the Park Service for their fine work on this 
undertaking, and it is because of this study that I decided to 
move forward with H.R. 4211.
    This legislation will allow the National Park Service to 
tell the American people the most accurate and comprehensive 
story of the Tuskegee Airmen--a story about individuals who 
overcame racism and intolerance in their own country, so they 
could fight racism and intolerance in Europe.
    The Tuskegee Airman National Historic Site will focus on 
life at Moton Field and the accomplishments of the Airmen, 
themselves. Specifically, the park will highlight the impact of 
the Tuskegee Airmen during World War II; the training process 
for the Tuskegee Airmen and the strategic role that Tuskegee 
Institute, now Tuskegee University, played in that training. It 
will also focus on the American-African struggle for greater 
participation in the U.S. military and more significant roles 
in defending their country; the significance of success of the 
Tuskegee Airmen in leading to the desegregation of the U.S. 
military shortly after World War II; and the impact of Tuskegee 
Airmen's accomplishments on subsequent civil rights advances of 
the 1950's and the 1960's.
    Mr. Chairman, we should neither discount nor forget the 
influence of the Tuskegee Airmen on the ``American 
experience.'' The Tuskegee Airmen, in my view, should be 
immortalized, honored, and thanked for their courageous and 
selfless efforts to preserve and protect the freedoms that 
every American enjoys today. I believe that the Tuskegee Airmen 
National Historic Site will be a fitting and worthy tribute to 
these American heroes.
    Unfortunately, time has begun to take its toll on the 
Tuskegee Airmen; many are no longer with us. That is why I 
would like to move forward with this legislation as quickly as 
possible so that the remaining Airmen will have the opportunity 
to see their legacy enshrined at the Tuskegee Airmen National 
Historic Site.
    Mr. Chairman, I look forward to working with the 
Subcommittee, the National Park Service, Tuskegee University, 
and the Airmen themselves, to make this project a reality. 
Again, the story of the Tuskegee Airmen is one that I believe 
must be told. Passage of this legislation this year will be an 
important first step in telling this historic story.
    Thank you.
    [The prepared statement of Mr. Riley follows:]

  Statement of Hon. Bob Riley, a Representative in Congress from the 
                            State of Alabama

    Thank you, Mr. Chairman and members of the Subcommittee for 
inviting me here today to testify on behalf H.R. 4211, a bill 
to designate the Tuskegee Airmen National Historic Site.
    I have with me today, Dr. Benjamin F. Payton, Jr., 
President of Tuskegee University, who will also speak on the 
merits of this project and the role that Tuskegee University 
will play. I would like to specifically thank him and his staff 
for all of their hard work on this project.
    First, Mr. Chairman, let me begin by saying: By any 
standard, the Tuskegee Airmen were and are American heroes.
    Despite a widespread belief that they, as African-
Americans, did not possess the abilities to be effective war 
fighters, the famed Tuskegee Airmen of World War II proved that 
they were among the best pilots in the North African, Sicilian, 
and European Campaigns.
    Affectionately known as the ``Red Tails'' (for the red 
paint on the tails of their aircraft) by the bomber crews they 
protected, the pilots of Tuskegee did not lose a single bomber 
in their care to enemy fighters. Because of the heroic service, 
the Tuskegee Airmen were one of America's most highly decorated 
fighter groups of World War II. Upon returning home, the 
Tuskegee Airmen had won 150 Distinguished Flying Crosses, one 
Legion of Merit, one Silver Star, 14 Bronze Stars, and 744 Air 
Medals. But the price was high. Of the 450 pilots that saw 
combat during World War II, 66 were killed in action and 
another 32 were taken prisoners of war.
    However, Mr. Chairman, the contributions of the Tuskegee 
Airmen did not end with the war. Because of their demonstrated 
ability as an effective fighting force and their individual 
heroism, the Tuskegee Airmen gave President Harry S. Truman all 
the proof he needed to justify his decision in 1948 to 
desegregate the United States military.
    And in the following decades, the Airmen's accomplishments 
during the war served as an inspiration for the civil rights 
movement as a whole.
    Last August, I asked the National Park Service to conduct a 
feasibility study for developing Moton Field at Tuskegee 
University, Alabama, as a National Historic Site. Mr. Chairman, 
I want to commend the Park Service for their fine work on this 
undertaking. It is because of this study that I decided to move 
forward with H.R. 4211.
    This legislation will allow the National Park Service to 
tell the American people the most accurate and comprehensive 
story of Tuskegee Airmen--a story about individuals who 
overcame racism and intolerance in their own country, so that 
they could fight racism and intolerance in Europe.
    The Tuskegee Airmen National Historic Site will focus on 
life at Moton Field and the accomplishments of the Airmen 
themselves. Specifically, the park will highlight:

        1. the impact of the Tuskegee Airmen during World War II;
        2. the training process for the Tuskegee Airmen and the 
        strategic role that Tuskegee Institute (now Tuskegee 
        University) played in that training;
        3. the African-American struggle for greater participation in 
        the U.S. military and more significant roles in defending their 
        country;
        4. the significance of successes of the Tuskegee Airmen in 
        leading to desegregation of the U.S. military shortly after 
        World War II;
        5. and the impact of Tuskegee Airmen accomplishments on 
        subsequent civil rights advances of the 1950s and 1960s.
    Mr. Chairman, we should neither discount nor forget the influence 
of the Tuskegee Airmen on the ``American Experience.'' The Tuskegee 
Airmen, in my view, should be immortalized, honored and thanked for 
their courageous and selfless efforts to preserve and protect the 
freedom that every American enjoys today. I believe that the Tuskegee 
Airmen National Historic Site will be a fitting and worthy tribute to 
these American heroes.
    Unfortunately, time has begun to take its toll on the Tuskegee 
Airmen. Many are no longer with us. That is why I would like to move 
forward with this legislation as quickly as possible so that the 
remaining Airmen will have the opportunity to see their legacy 
enshrined in the Tuskegee Airmen National Historic Site.
    Mr. Chairman, my staff and I look forward to working with the 
Subcommittee, the National Park Service, Tuskegee University, and the 
Airmen themselves to make this project a reality. Again, the story of 
the Tuskegee Airmen is one that I believe must be told. Passage of this 
legislation, this year, will be an important first step to telling this 
important story.
    Thank you.

    Mr. Hansen. Thank you.
    Mr. Kingston.

 STATEMENT OF HON. JACK KINGSTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Kingston. Thank you, Mr. Chairman. I'm here to testify 
on H.R. 4144, the Cumberland Island Preservation Act.
    Just a quick word on the Act itself: What it does is seek 
to preserve the history of this island. It's an island that 
dates back to pre-Revolutionary War. It was owned partially by 
General Nathanael Greene, and Eli Whitney had worked there. 
``Lighthorse'' Harry Lee was originally buried there. Thomas 
Carnegie, who was, of course, part of the U.S. Steel 
Corporation, actually lived on it and developed it, and his 
heirs still do. It has the settlements of freed slaves; there 
is very rich African-American history, a rich Spanish and 
American history, and we want to preserve that history and open 
it up to the public who is actually locked out of it now 
because of certain wilderness laws and regulations.
    We, in this Act, enable a land swap which will actually add 
to the acreage of the wilderness. And we try to protect and 
preserve the environment through it.
    The legislation has four basic parts. First, it authorizes 
funds for historic preservation. Cumberland Island contains 
five historic districts and many other historic sites, 
structures, and archaeological districts cited on the National 
Register of Historic Places. Unfortunately, several of these 
sites have not been properly maintained. Some have already been 
lost due to the lack of needed maintenance. Others, though, 
while in serious need of stabilization and restoration, are 
certainly not beyond the point where preservation is no longer 
feasible.
    Plum Orchard is one such site. This house has deteriorated 
badly since the Park Service took responsibility for its 
maintenance. The pictures in your packets show the mansion's 
decline over the last four decades. As you can see, the 
structure has deteriorated significantly. The inside of the 
house is equally alarming in many places. And I believe, Mr. 
Chairman, you do have these pictures in your packet that I will 
submit for the record.
    [The information referred to follows:]
    Mr. Kingston. I've seen the problems--the water damage, the 
growing fissures through the floor in the east wing, the 
separation of the floor is being monitoring with sensor 
devices. This bill authorizes the appropriation of funds to 
repair this important historic structure.
    The second main provision of the bill deals with the 
treatment of the Main Road, also known as Grand Avenue. The 
length of the Main Road, as it is specified on the National 
Register of Historic Places, was designated partially as 
wilderness and partly as potential wilderness by the 1982 Act 
which established wilderness on Cumberland Island. H.R. 4144 
would cherry stem or remove from the wilderness overlay, the 
main road.
    Designating the main road as wilderness created several 
problems on Cumberland. For one, besides the fact that a road 
itself is not usually considered wilderness, it sets up a 
conflict in directive on the National Park Service to, on one 
hand, preserve it as a historic resource, but on the other 
hand, to manage it as a wilderness area which should revert 
back to the natural state. These competing mandates were 
recognized and criticized at the time by both the Department of 
Interior and President Reagan. The problem, however, was not 
resolved in the legislation.
    Secondly, the continued existence and use of the main road 
is certainly important, if not vital, to the administration of 
the island, particularly for the purpose of repairing and 
maintaining the historic sites along the road.
    Finally, this provision gives the National Park Service the 
flexibility to allow greater public access to the historic 
sites on the road, such as Plum Orchard, Rayfield, and Half 
Moon Bluff.
    The bill does include a specific provision which retains 
the Parks Service's authority to place reasonable restrictions 
on the road's use in recognition of the adjacent wilderness. 
Nonetheless, I believe it is entirely reasonable that the 
public be able to use some type of unobtrusive people-mover, 
tram, bicycles, or whatever to see sites that they have 
purchased.
    Currently, Plum Orchard and these historic sites are really 
only accessible to 18-year-olds with backpacks, and not to 
seniors and not to parents with young children in tow, since 
you have to walk to get to them. Historic sites lose their 
value, as you know, if they cannot be viewed and studied and 
enjoyed by the general public.
    This kind of access was clearly part of the original intent 
for the island, both when it was established as a national 
seashore and a decade later when wilderness was added. In fact, 
page 38, of the Park's General Management Plan, written in 1984 
after the wilderness designation, states that, ``transportation 
will be needed to carry visitors between Sea Camp Dock and Plum 
Orchard Mansion. A motorized vehicle with a capacity of 12 
persons will be adequate.'' which is in the submission.
    It is unfortunate that the settlements at Rayfield and Half 
Moon Bluff, which include the African-American settlements, 
were not similarly provided for. In all, the cherry stem of the 
main road amounts to a deletion of about 34 acres from the 
wilderness or potential wilderness.
    Also at this point, Mr. Chairman, I would like to recognize 
the presence of former Representative Bill Stuckey of Georgia. 
He is the sponsor of the original Cumberland Island legislation 
and has presented a letter today which addresses the original 
Congressional intent for the island. I'll submit that for the 
record.
    The third major provision adds approximately 200 acres to 
the Cumberland Island Wilderness Area. The proposed addition 
located on the high grounds south of Dungeness would extend the 
protection of the Wilderness Act to an important habitat for 
migratory birds and other wildlifes. We are unaware of any 
significant, non-conforming uses of the area. It excludes the 
Army Corps of Engineers dredge spoil areas, recognizes 
primitive wilderness character and its particular value as 
wildlife habitat, and believe it is appropriate to be added to 
the wilderness area.
    Finally, the bill enables another expansion of the 
wilderness on the island via a potential land exchange. About 
1,100 acres of private land across the center of the island 
known as the Greyfield Tract is being sold. A private family 
which currently lives on the north end of Cumberland has 
offered to purchase the Greyfield Tract, then donate it to the 
Federal Government in order to add it to the wilderness area. 
In return, they want to regain ownership of a smaller piece of 
land at the north end, a part of the High Point Historic 
District. Their houses are located here, and the family has 
resided in this location since 1929. It is partly due to their 
good stewardship, generosity, and vision that a part of 
Cumberland Island at High Point was included in the Seashore to 
begin with.
    The exact terms of this purchase have been under 
negotiation between the purchasers and the Park Service for 
several months. This bill does not order an agreement; it does 
not even encourage it. It simply says that if the purchasers 
and the Park Service come to a written agreement, then it may 
be executed under the terms of the agreement. It is certain 
that the agreement would contain clear restrictions on the use 
of the land at the north end.
    For example, they would not be able to develop it or harm 
the environment in any way, or sell it to somebody who might do 
the same. The public gains the assurance that the Greyfield 
Tract will not be bought by individuals seeking to develop it. 
The High Point Historic Area would enter into a kind of public-
private partnership, ensuring its preservation at no cost to 
the taxpayers, and the government would assume ownership of the 
tract and would add it to the wilderness area, and save in the 
process over $17 million to the taxpayers.
    I have been very pleased over the last year or so that a 
productive dialogue has been developed by all parties 
interested in Cumberland Island. Because of this, much of this 
dialogue has been focused on making recommendations to the 
National Parks Service as it begins to draft its Wilderness 
Management Plan for the island. But it has become apparent that 
some of the administrative challenges and problems are beyond 
the scope and the authority of the Wilderness Management Plan 
to fix. In fact, I would venture to say that these problems 
were among the biggest reasons for the 16-year delay in 
beginning the Wilderness Management Plan.
    Most of the ideas embodied in this bill were inspired by 
these meetings. I've visited the island three different times 
and talked to countless groups. Our door has been wide open to 
try to get a consensus on this. Unfortunately, it's very 
difficult with so many dynamic people with so many strong 
opinions on what should happen.
    The Wilderness Designation of 1982 forced wilderness beyond 
the areas where it was appropriate on the island. The first 
page of the Senate report to Senate Bill 2569 in 1982, admits 
that Congress did not even have a copy of the National Park 
Service study or report to determine which areas were 
appropriate for wilderness.
    Mr. Hansen. Would the gentleman wind this up pretty fast, 
if you would, please? We're really under tight----
    Mr. Kingston. Excuse me?
    Mr. Hansen. [continuing] time constraints this morning.
    Mr. Kingston. Mr. Chairman, I'm about finished.
    Mr. Hansen. Thank you very much.
    [Laughter.]
    Mr. Kingston. If the chairman says the time is expired, 
then I notice, with coincidence, that that is the end of my 
testimony----
    [Laughter.]
    [continuing] at this point.
    [The prepared statement of Mr. Kingston follows:]

Statement of Hon. Jack Kingston, a Representative in Congress from the 
                            State of Georgia

    I would like to thank Chairman Hansen, Ranking Minority 
Member Faleomavaega, and all the members of the Subcommittee 
for inviting me to testify today on the Cumberland Island 
Preservation Act.
    The legislation has four main parts. First, it authorizes 
funds for historic preservation. Cumberland Island contains 
five historic districts and many other historic sites, 
structures, and archeological districts cited on the National 
Register of Historic Places. Unfortunately, several of these 
sites have no been properly maintained. Some have already been 
lost due to lack of needed maintenance. Others, though, while 
in serious need of stabilization and restoration, are certainly 
not beyond the point where preservation is no longer feasible. 
Plum Orchard is one such site. This house has deteriorated 
badly since the Park Service took responsibility for its 
maintenance. The pictures in your packets show the mansion's 
decline over the last four decades. As you can see, the 
structure has deteriorated significantly. This inside of the 
house is equally alarming in places. I have seen problems such 
as substantial water damage and growing fissures through the 
floor in the east wing. The separation of the floor here is 
being monitored with sensor devices. This bill authorizes the 
appropriation of funds to repair this house.
    The second main provision of the bill deals with the 
treatment of the Main Road, also known as ``Grand Avenue.'' The 
length of the Main Road as it is specified on the National 
Register of Historic Places was designated partly as wilderness 
and partly as ``potential wilderness'' by the 1982 Act which 
established wilderness on Cumberland. H.R. 4144 would ``cherry 
stem'' (or remove the wilderness overlay from) the Main Road.
    Designating the Main Road as wilderness created several 
problems on Cumberland. For one--besides the fact that a road 
itself is not usually considered a site where the imprint of 
man's work is substantially unnoticeable (wilderness)--it sets 
up a conflicting directive on the National Park Service (NPS) 
to, on one hand, presence it as a historic resource but on the 
other hand manage it as a wilderness area which should revert 
back to a natural state. These competing mandates were 
recognized and criticized at the time by both the Department of 
Interior and President Reagan. The problem, however, was not 
resolved in the legislation. Secondly, the continued existence 
and use of the Main Road is certainly important if not vital to 
the administration of the island--particularly for the purposes 
of repairing and maintaining the historic sites along the road. 
Finally, this provision gives the NPS the flexibility to allow 
greater public access to the historic sites along the road, 
such as Plum Orchard, Rayfield, and Half Moon Bluff. The bill 
does include a specific provision which retains the Park 
Service's authority to place reasonable restrictions on the 
road's use in recognition of the adjacent wilderness. 
Nonetheless, I believe it is entirely reasonable that the 
public be able to use some type of unobtrusive people-mover, 
tram, bicycles, etc. to see these sites that they have 
purchased. Historic sites lose some of their value if they 
cannot be viewed, studied, and enjoyed.
    This kind of access was clearly a part of the original 
intent for the island both when it was established as a 
National Seashore and a decade later when wilderness was added. 
In fact, page 38 of the park's General Management Plan (written 
in 1984 after the designation of wilderness) states that, 
``Transportation will be needed to carry visitors between Sea 
Camp dock and Plum Orchard Mansion. . . . a motorized vehicle 
with a capacity of 12 persons will be adequate.'' It is 
unfortunate that the settlements at Rayfield and Half Moon 
Bluff were not similarly provided for. In all, the cherry stem 
of the ain Road amounts to a deletion of about 34 acres from 
wilderness or potential wilderness.
    The third major provision adds approximately 200 acres to 
the Cumberland Island Wilderness Area. The proposed addition, 
located on the high ground south of Dungeness, would extend the 
protection of the Wilderness Act to an important habitat for 
migratory birds and other wildlife. We are unaware of any 
significant, non-conforming uses of the area (it excludes the 
Army Corps of Engineers dredge spoils areas), recognize its 
primitive wilderness character and its particular value as 
wildlife habi-

tat, and believe it is appropriate to add the protection of the 
Wilderness Act to this area.
    Finally, the bill enables another expansion of wilderness 
on the island via a potential land exchange. About 1100 acres 
of private land across the center of the island, known as the 
Greyfield Tract, is being sold. A second private family, which 
currently lives on the north end of Cumberland, has offered to 
purchase the Greyfield Tract and then donate it to the Federal 
Government in order to add it to the Wilderness Area. In 
return, they want to regain ownership of the smaller piece of 
land at the north end, a part of the High Point historic 
district. Their houses are located here, and the family has 
resided in this location since the 1920's. It is partly due to 
their good stewardship, generosity, and vision of a protected 
Cumberland Island that High Point was included in the Seashore 
to begin with.
    The exact terms of this purchase have been under 
negotiation between the purchasers and the Park Service for 
several months. This bill does not order an agreement; it does 
not even encourage it. It simply says that if the purchasers 
and the Park Service come to a written agreement, then it may 
be executed per the terms of the agreement. It is certain that 
the agreement would contain clear restrictions of the use of 
the land at the north end. It is also my understanding that the 
purchasing family has a significant charitable intent, meaning 
that they are willing to receive less than the value of the 
money they put toward the purchase of the Greyfield Tract. The 
public gains the assurance that Greyfield will not be bought by 
individuals seeking to develop it (presuming that were 
possible), the High Point historic area would enter into a kind 
of private-public partnership ensuring its preservation at no 
cost to the taxpayers, the government would assume ownership of 
the tract and would add it to the wilderness area, and over $17 
million tax dollars would be saved.
    I have been very pleased over the last year or so as a 
productive dialogue has developed among all of the parties 
interested in Cumberland Island. Because much of this dialogue 
has been focused on making recommendations to the NPS as it 
begins to draft its Wilderness Management Plan (WMP) for the 
island, it has become apparent that some of the administrative 
challenges and problems are beyond the scope or authority of 
the WMP to fix. In fact, I would venture to say that these 
problems were among the biggest reasons for the 16 year delay 
in beginning a WMP for the island. Most of the ideas embodied 
in this bill were inspired by the meetings, the forums, and the 
conversations I have taken part in with these groups as an 
effort to ``clean up the stage'' so to speak for the WMP. The 
wilderness legislation of 1982 forced wilderness beyond the 
areas where it was appropriate on the island. The first page of 
Senate report to accompany S. 2569 in 1982 admits that Congress 
did not even yet have a copy of the National Park Service's 
study and report which was to determine what areas were 
appropriate for wilderness designation when the wilderness 
legislation was written. As it stands, the NPS is faced with 
daunting administrative challenges.
    Cumberland Island is full of important resources: 
wilderness, national historic sites, cultural resources, 
wildlife habitat, prehistoric sites, and educational and 
recreational opportunity. The protection and enjoyment of the 
various types of resources do not have to be at odds with one 
another. Unfortunately, as I have explained, current law 
directly pits these resources and values against each other. 
This has been the root of much of the controversy on Cumberland 
Island over the years. This bill is intended to restore a 
balance--to recognize that environmental protection, historic 
preservation, and public appreciation can coexist if the law 
does not so directly encourage their competition.

[GRAPHIC] [TIFF OMITTED] T0836.001

[GRAPHIC] [TIFF OMITTED] T0836.002

[GRAPHIC] [TIFF OMITTED] T0836.003

[GRAPHIC] [TIFF OMITTED] T0836.004

[GRAPHIC] [TIFF OMITTED] T0836.005

[GRAPHIC] [TIFF OMITTED] T0836.006

[GRAPHIC] [TIFF OMITTED] T0836.007

[GRAPHIC] [TIFF OMITTED] T0836.008

[GRAPHIC] [TIFF OMITTED] T0836.009

[GRAPHIC] [TIFF OMITTED] T0836.010

[GRAPHIC] [TIFF OMITTED] T0836.011

[GRAPHIC] [TIFF OMITTED] T0836.012

[GRAPHIC] [TIFF OMITTED] T0836.013

[GRAPHIC] [TIFF OMITTED] T0836.014

[GRAPHIC] [TIFF OMITTED] T0836.015

[GRAPHIC] [TIFF OMITTED] T0836.016

[GRAPHIC] [TIFF OMITTED] T0836.017

[GRAPHIC] [TIFF OMITTED] T0836.018

[GRAPHIC] [TIFF OMITTED] T0836.019

[GRAPHIC] [TIFF OMITTED] T0836.020

[GRAPHIC] [TIFF OMITTED] T0836.021

[GRAPHIC] [TIFF OMITTED] T0836.022

[GRAPHIC] [TIFF OMITTED] T0836.023

[GRAPHIC] [TIFF OMITTED] T0836.024

[GRAPHIC] [TIFF OMITTED] T0836.025

[GRAPHIC] [TIFF OMITTED] T0836.026

[GRAPHIC] [TIFF OMITTED] T0836.027

[GRAPHIC] [TIFF OMITTED] T0836.028

[GRAPHIC] [TIFF OMITTED] T0836.029

[GRAPHIC] [TIFF OMITTED] T0836.030

[GRAPHIC] [TIFF OMITTED] T0836.031

[GRAPHIC] [TIFF OMITTED] T0836.032

[GRAPHIC] [TIFF OMITTED] T0836.033

    Mr. Hansen. This is one of those days when we've got some 
very important bills, and we've only got a few more days left 
in legislation. And we'd like to act on every bill that's 
before us today and get them out if we could.
    So, Mr. Hill, we'll recognize you for 5 minutes; please 
don't take it all.
    [Laughter.]

STATEMENT OF HON. RICK HILL, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF MONTANA

    Mr. Hill. Thank you, Mr. Chairman, and I also want to thank 
the panelists that will be appearing here on my bill.
    The purpose of the hearing on my bill, which is--whatever 
the number of it is here--is for the purpose of examining the 
process of selling 265 cabin sites at Canyon Ferry Reservoir; 
and also to examine what the potential benefits from the sale 
of those cabin sites would be; and also to have a discussion of 
what the appropriate use of the proceeds from the sale of those 
cabin sites would be.
    There is great consensus in Montana about the need to move 
forward with this. Governor Marc Racicot has written to the 
Committee and publicly urged support for the sale of these 
cabin sites. All members of the Montana congressional 
delegation--Senator Baucus, Senator Burns, and myself--have 
reached consensus about the need to move forward to offer these 
cabin owners the opportunity to buy these sites.
    Also, I think there's general belief that we need to expand 
the opportunities for recreation and for conservation, both at 
Canyon Ferry Reservoir, as well as upstream along the Missouri 
River and the tributaries of the Missouri River which are very 
valuable habitat for spawning purposes.
    Also, it's time for us to address the broken promises. When 
Canyon Ferry Reservoir was created, there were promises to the 
people of Broadwater County, on the south end of the reservoir 
that they would have enhanced recreation and also enhanced 
economic opportunities as a consequence of the creation of the 
reservoir. Those promises have largely gone unbroken, Mr. 
Chairman, and we need to address those in the legislation.
    Further, there are issues with regard to life safety at the 
south end of the lake which is very exposed to some very 
dramatic weather conditions at times has created a serious 
problem for those who would like to recreate at that end of the 
lake.
    So, Mr. Chairman, I appreciate the opportunity for us to 
have a hearing, and I hope I have not consumed more than 5 
minutes.
    Thank you.
    [The prepared statement of Mr. Hill follows:]
    Mr. Hansen. Thank you.
    Do any of the members of the Committee have any questions 
for our colleagues? If you have, keep them brief, would you?
    [No response.]
    Thank you. We appreciate the statements of our colleagues. 
And you're more than welcome to come up on the dais, if you 
would like to be here while your panel speaks.
    Mr. Kingston. Mr. Chairman?
    Mr. Hansen. Thank you--Mr. Kingston.
    Mr. Kingston. Could I have unanimous consent to revise and 
extend my remarks?
    Mr. Hansen. Without objection, so ordered. And all of your 
full statements will be included in the record. And thank you 
for your excellent testimony.
    [The information referred to follows:]
    Mr. Hansen. Our first panel, if they would come up: Eluid 
Martinez, Commissioner, Bureau of Reclamation; Tom Fry, Deputy 
Director, Bureau of Land Management; and Katherine Stevenson, 
Associate Director at Stewardship and Partnerships, National 
Park Service--if they'd all come up, please.
    I know all these bills are important, and I know your 
testimony is very important, but let me just say, without 
objection, your full testimony will be included in the record. 
We want to move on as many of these bills as possible and get 
them through, so we would like to hear the testimony from the 
administration.
    Mr. Martinez, it's always a pleasure to have you with us. 
We'll turn the time to you, sir.

     STATEMENT OF ELUID MARTINEZ, COMMISSIONER, BUREAU OF 
    RECLAMATION, UNITED STATES DEPARTMENT OF THE INTERIOR; 
  ACCOMPANIED BY LARRY TODD, ACTING REGIONAL DIRECTOR, GREAT 
PLAINS REGION, BUREAU OF RECLAMATION, UNITED STATES DEPARTMENT 
                        OF THE INTERIOR

    Mr. Martinez. Mr. Chairman, and members of the 
Subcommittee, good morning.
    I'm pleased to provide the administration's views on H.R. 
3963. My testimony, in detail, has been submitted for the 
record. I will summarize my statements.
    Mr. Chairman, the Bureau of Reclamation supports efforts to 
improve public access to rivers and lakes throughout its 
projects at Westwide. However, H.R. 3963 would grant exclusive 
private use of lakefront property at Canyon Ferry Reservoir to 
a few beneficiaries. It could foreclose future use of land for 
project or other purposes, and could lead to the loss of future 
Federal receipts.
    This bill also would make management of the facilities and 
land at Canyon Ferry more difficult for the Bureau of 
Reclamation and without reducing the need for future 
appropriations to Bureau of Reclamation for management of this 
project.
    In addition, Mr. Chairman, H.R. 3963 is unclear on several 
political questions of intent and procedure.
    And finally, Mr. Chairman, given that Reclamation and the 
Canyon Ferry Recreation Association recently agreed on a key 
controversial issue concerning rental fees, the administration 
does not believe that there is a need for this legislation at 
this time.
    I am aware of Congressman Hill's concerns, and I believe 
that most of those concerns can be addressed upon completion of 
a Resource Management Plan that the Bureau of Reclamation is 
undertaking at Canyon Ferry.
    For these reasons, the administration strongly opposes H.R. 
3963.
    This concludes my statement. I will be pleased to answer 
any questions, Mr. Chairman.
    [The prepared statement of Mr. Martinez may be found at end 
of hearing.]
    Mr. Hansen. Commissioner, does that do it?
    Mr. Martinez. That's it--quick and short.
    Mr. Hansen. Well, thank you. I appreciate that.
    [Laughter.]
    Mr. Fry.

     STATEMENT OF TOM FRY, DEPUTY DIRECTOR, BUREAU OF LAND 
                           MANAGEMENT

    Mr. Fry. I'll accept the Commissioner's challenge.
    [Laughter.]
    I'm here to testify today on two bills, Mr. Chairman, the 
first being the Otay Wilderness bill, H.R. 3950. First off, I'd 
like to acknowledge the efforts of the many organizations in 
the San Diego area, and Congressman Bilbray for their fine 
effort in bringing this bill forward. The area is an 
outstanding area of wilderness. The flora, the fauna, and the 
geologic and biological resources there are extraordinary.
    We are also, though, aware of the many unique management 
challenges that are presented in the Otay Mountains. There is 
drug interdiction, border patrol, fire problems, and numerous 
undocumented immigrants.
    And even based on these concerns, the administration, along 
with the Justice Department, still supports this bill if the 
bill will remove section 6(b) which allows for certain 
exclusions to the wilderness designation.
    We believe that the current 1964 Wilderness Act allows for 
emergencies to protect public health and safety, and we would 
like to further acknowledge that we are already managing this 
area as a wilderness study area.
    We will be more than happy, though, to work with the 
Committee if the Committee feels that additional border 
enforcement, drug interdiction and wildland fire protection 
language is necessary in order to recognize the unique nature 
of this area and can develop language with the Committee that 
we think will be acceptable to both the Committee, Congressman 
Bilbray, and the administration.
    Very briefly, because of the unique nature of this area, we 
would also like for the Committee to consider designating the 
Otay Mountains as part of a national conservation area. The 
advantages of a national conservation area over wilderness, 
provide for a more flexible management of the tract. It might 
mean that we would have portions of the Otay mountains that 
would be wilderness and others areas where we could make sure 
that all the law enforcement and fire needs were accommodated.
    I would like to point out that one of the things that we're 
most pleased about the bill--and we have a map right up here--
is that it does exclude from the proposed wilderness area those 
areas that are now currently being used by fire and law 
enforcement people for drug interdiction and law enforcement. 
So, we're pleased about that portion of the bill, and we do 
support this bill, Mr. Chairman.
    [The prepared statement of Mr. Fry may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Fry.
    Katherine Stevenson.
    Do you have additional testimony?
    Mr. Fry. I have one other bill if----
    Mr. Hansen. Excuse me, I'm sorry. Go right ahead.
    Mr. Fry. That's OK.
    Mr. Hansen. I apologize.
    Mr. Fry. The second bill I'd like to testify on is the 
Grand Staircase-Escalante National Monument Boundary bill. 
Let's see if we can take care of some of these heinous 
problems, Mr. Chairman.
    This year has begun a new era of cooperation on lands in 
Utah. In a recent hearing here with you, Mr. Chairman, the 
Secretary agreed to consider technical boundary changes and 
adjustments to the Grand Staircase-Escalante National Monument.
    While we don't believe these changes are needed, in the 
spirit of cooperation, we are pledged to support the changes 
that are recommended in this bill.
    I want to commend the Committee and the Committee staff, 
and the BLM staff for working together to come to an agreement 
on these possible technical changes. And I commend their 
efforts. These technical changes will benefit local 
communities, schools, and transfer Federal land to the 
Kodachrome State Park.
    We do have one suggested change to H.R. 4287. We have 
noticed that the utility corridor proposed in the bill probably 
extends much farther than the BLM land, and would ask that the 
language be changed to make sure that it is clear that the 
utility corridor suggested in the bill will only apply to BLM 
land.
    We are most pleased that the Upper Valley Oil Field will 
still be in the Grand Staircase-Escalante National Monument. 
This helps us fulfill the President's commitment to continuing 
and to supporting existing rights within the monument.
    Again, I thank you, Mr. Chairman, for setting the tone of 
cooperation that's made it possible for us all to support H.R. 
4287.
    [The prepared statement of Mr. Fry may be found at end of 
hearing.]
    Mr. Hansen. Well, the Committee thanks the BLM for the 
cooperation they've shown on that legislation. We appreciate 
it.
    Mr. Fry. Thank you, Mr. Chairman.
    Mr. Hansen. Katherine Stevenson.

STATEMENT OF KATHERINE STEVENSON, ASSOCIATE DIRECTOR, CULTURAL 
RESOURCES STEWARDSHIP AND PARTNERSHIPS, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Ms. Stevenson. Thank you, Mr. Chairman.
    We appreciate the opportunity to present testimony on four 
bills this morning. The first one is H.R. 2125, New Jersey 
Coastal Heritage Trail. The bill, as you know, has two 
purposes--to increase the authorization for appropriations for 
the New Jersey Coastal Heritage Trail, and to extend the NPS 
authority to participate in the trail for an additional 5 
years.
    We support enactment in the bill. Since 1988, with the 
passage of the law authorizing this site, the NPS has been 
working cooperatively with the State of New Jersey, the 
Pinelands Commission, and other partners to design and 
implement a comprehensive plan for this reticular tour route. 
There are five interpretive themes that link natural and 
cultural resources over 300 miles of coastal New Jersey. This 
legislation would allow the NPS to continue the implementation 
of the plan in cooperation with our State partners.
    [The prepared statement of Ms. Stevenson may be found at 
end of hearing.]
    Ms. Stevenson. H.R. 4144, Cumberland Island National 
Historic Site--the Department opposes this bill because it 
would undermine the progress already being made to develop a 
consensus on the Wilderness Management Plan. For the last 15 
months, the Park Service has been engaged in a collaborative 
effort to gain a consensus with the retained rights holders, 
landowners, visitors, and others interested in the natural and 
cultural resources of the island. Much progress has been made, 
and we commend the commitment of all those groups to the 
process and to the island's preservation. And we want to 
continue that very successful process.
    First, we oppose the provisions of the bill that remove any 
land or roads designated as wilderness or potential wilderness. 
Second, we believe that the deeds negotiated with the retained 
rights owners were drawn in good faith by both parties and 
should continue to be respected. Further, we recognize the 
challenges to visitor access and use at Plum Orchard within the 
wilderness designation. However, the Act establishing the 
Cumberland Island wilderness explicitly directed the Secretary 
to develop guidelines within these restrictions. We are 
preparing these guidelines and are hopeful that the Wilderness 
Management Plan will define some manageable solutions.
    When the plan is complete, we will again explore historic 
property leasing for Plum Orchard within the new Wilderness 
Management Plan, and we anticipate a felicitous conclusion.
    Mr. Chairman, we are making progress in these matters. We 
would like to continue the collaborative effort prior to any 
legislative solution.
    [The prepared statement of Ms. Stevenson may be found at 
end of hearing.]
    Ms. Stevenson. H.R. 4211, which is a bill to establish the 
Tuskegee Airmen National Historic Site--we support the concept 
of establishing the site. We have some suggested changes to 
improve the language and will be pleased to work with the 
Committee to that end.
    As you have heard, at the request of Congressman Bob Riley 
and the university, with funds graciously made available by the 
State of Alabama, the Park Service conducted a special resource 
study. Extensive public input was sought, received, and 
incorporated into the study, as were the views of the Tuskegee 
University and many representatives of the Tuskegee Airmen. We 
have completed a draft and summary of the study and expect to 
transmit those to the Committee soon.
    Our findings indicate that the Tuskegee Airmen site at 
Moton Field and Tuskegee meets the criteria for inclusion into 
the system, and we recommend its designation.
    [The prepared statement of Ms. Stevenson may be found at 
end of hearing.]
    Ms. Stevenson. Finally, the Department supports H.R. 4230, 
which would allow the El Portal Administrative Site to transfer 
a Federal site to a private individual, approximately eight 
acres of land within El Portal Administrative Site.
    The NPS would, thus, be able to establish an entrance 
station here in El Portal and close the Arch Rock entrance 
station, currently part of a traffic nightmare.
    Our concern with this bill is that the government should 
receive actual equal value for the land it exchanges rather 
than a statutory declaration of equal value. We understand that 
the owner is willing to work with the NPS to assure an equal 
value exchange. We would like to pursue that, and we'd be happy 
to work with the Committee on this language change.
    This concludes our statements, and I'd be happy to answer 
any questions.
    [The prepared statement of Ms. Stevenson may be found at 
end of hearing.]
    Mr. Hansen. Thank you.
    Do members of the Committee or our two guests, Mr. Bilbray 
or Mr. Riley, have any questions for this panel?
    The gentleman from American Samoa?
    Mr. Faleomavaega. Mr. Chairman, with seven pieces of 
legislation, you get to wonder where to start.
    [Laughter.]
    Mr. Faleomavaega. But I would like to commend our 
colleagues for their testimony, and I think it's quite clear 
some of the suggestions that have been offered by the 
representatives of the administration--and I'm sure that we can 
work some of these pieces of legislation out for markup and for 
consideration by the full Committee.
    My only suggestion to the gentleman from Montana, 
concerning the Canyon Ferry Reservoir, I just wanted to ask him 
if he could elaborate a little further, and maybe even from our 
friend from the Bureau of Land Management. There was a promise 
given to these people about the reservoir, and I just wanted to 
ask our friend from the administration, can you respond to that 
statement made by my friend from Montana? A promise was given 
about the use of this reservoir, and apparently that has not 
been kept? Can you elaborate on this, Mr. Martinez?
    Mr. Martinez. Mr. Chairman, Representative, I'm not aware 
of a promise, but if I may, the issue of recreation on leased 
sites on Bureau of Reclamation of Westwide is an issue that 
we're turning our attention to.
    In this particular situation, we've got 265 cabin lease 
sites. We are now doing a resource management study that I 
understand is to be completed in 1999, that has on the table 
whether the administration should or should not divest itself 
of these lease lots.
    My recommendation is to await that study to come to 
completion, because our issues that have to be resolved is to 
who is going to maintain the facilities? Where is the money 
going to go to? How are the operations of the project going to 
be after conveyance, if that takes place?
    Some of these issues need to be addressed; I think this 
bill is premature.
    Mr. Faleomavaega. Mr. Martinez, I hope this study is not 
going to last another 100 years. You said that the study is 
going to be completed by next year?
    Mr. Martinez. I'm advised by the end of 1999.
    Mr. Faleomavaega. OK. Was the understanding that the 
promise to be used for this reservoir was to be for public use 
and not for private use?
    Mr. Martinez. The project, as I understand, has multiple 
purposes including recreation. Now the Bureau of Reclamation--
from my perspective, we should maintain public use. However, we 
have leased lots, and in some cases it might make in the best 
interests to divest ourselves of those lots. And this study 
will indicate which lots, and under what conditions.
    Mr. Faleomavaega. And the land in question is federally 
owned?
    Mr. Martinez. It is federally owned.
    Mr. Faleomavaega. OK.
    I have no further questions, Mr. Chairman.
    Mr. Hansen. Any other members of the Committee? Mr. Hill.
    Mr. Hill. Thank you, Mr. Chairman.
    Mr. Martinez, you've indicated in your testimony, of 
course, that this legislation is not necessary. Obviously, for 
all these organizations that are here testifying on the other 
side, I don't think they would agree with you about that.
    They maintain that there's an overcrowding at the lake, and 
the Bureau has done little to alleviate that. They will allege 
that the Bureau does not work in good faith with the cabin 
owners; that it has failed to work in good faith with the local 
government. In fact, the Canyon Ferry Recreation Association 
began their efforts with regard to these lots in 1968, with 
then Senator Mansfield.
    Can you detail for me the relationship the Bureau has had 
over the life of these cabin sites and with the cabin owners?
    Mr. Martinez. I'll be glad to provide that for the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Martinez. But let me give you from my perspective. I 
have read some of the material on that, and as I understand 
there's been one or two incidents where congressional efforts 
have been made to transfer these lease lots to private 
ownership.
    Where I became involved in this was when I became 
Commissioner of Reclamation a couple of years ago. This land 
had been managed by the State of Montana under agreement with 
the Bureau of Reclamation. They turned it back over to the 
Bureau of Reclamation, and the Bureau of Reclamation is 
required by law----
    Mr. Hill. When did they turn those back, Mr. Martinez?
    Mr. Martinez. 1993.
    Mr. Hill. 1993, and now we're suggesting that we're going 
to do a management plan by 1999?
    Mr. Martinez. Well----
    Mr. Hill. What's happened since 1993 with regard to the 
development of a management plan?
    Mr. Martinez. If I may, I have Larry Todd here, which is 
the Regional Director, that I think is more familiar with those 
issues. Assistant Acting Regional Director--I might have him 
respond to that particular question for me.
    Mr. Hansen. Would you identify yourself for the record, 
please?
    Mr. Todd. Larry Todd.
    The State of Montana turned the area back for management in 
about 1993. Since then, the Bureau of Reclamation has put a lot 
of money into refurbishing the recreation areas in and around 
the lake--changing well sites, replacing restrooms, painting, 
upgrading the facilities, those types of things.
    Mr. Hill. But has there been any effort to upgrade the 
management plan? To do a new management plan?
    Mr. Todd. The State had drafted a management plan, and we 
had worked with them on that----
    Mr. Hill. My point, though, is, and what I'm leading up to 
is that the suggested testimony is that we should wait until 
the management plan is going to be completed in 1999. I believe 
that now the interest in developing a management plan is 
substantially a consequence of the fact that the congressional 
delegation has said, ``We want to move forward with selling 
these lots and pressing forward with some improvements at the 
lake.''
    I guess my point simply is that this project has been here 
for 50 years or there about, and there's been little done on 
the part of BOR to develop a long-term plan to create 
recreational opportunities at the south end of the lake.
    Eighty percent of this facility rests in Broadwater County. 
If you've read the testimony of the people from Broadwater 
County, they gave up almost all the land that went under this 
lake, and they were made promises about economic benefits and 
offsetting economic benefits. I've seen little or nothing from 
the BOR to indicate that they have any commitment, or at least 
to date of any commitment, to follow through on that 
commitment.
    Let me just ask you another question. What's the primary 
mission of the Canyon Ferry Reservoir? What is its primary 
mission?
    Mr. Todd. There's six functions--power generation, 
irrigation, municipal and industrial water use, recreation, 
fish and wildlife, flood control.
    Mr. Hill. Have the cabin owners ever interfered with that 
mission, accomplishment of that mission?
    Mr. Todd. They certainly have influence, as the rest of the 
public does, in the operation of those----
    Mr. Hill. But have they ever interfered with accomplishment 
of that mission to your knowledge?
    Mr. Todd. Not to my knowledge.
    Mr. Hill. How many acres of shoreline does the Bureau 
manage at Canyon Ferry Lake?
    Mr. Todd. I'm not sure about the full miles of the 
shoreline. Certainly, the cabins areas are about nine miles of 
shoreline.
    Mr. Hill. But how many acres do they represent?
    Mr. Todd. Probably less than 300.
    Mr. Hill. And how many acres of shoreline does the public 
have access to now? Can you tell me?
    Mr. Todd. No I can't, but it's certainly many more that 
nine.
    Mr. Hill. Do you know that my bill doesn't convey one inch 
of shoreline to private use? Did you know that?
    Mr. Todd. Yes, yes.
    Mr. Hill. So this bill, if it passed, wouldn't deny public 
access to one inch of shoreline on Canyon Ferry Reservoir; is 
that correct?
    Mr. Todd. Yes, that's true.
    Mr. Hill. And would you agree that public access will not 
be decreased, then, as a consequence of my legislation?
    Mr. Todd. Well, your legislation does give permit for docks 
and other access to the shoreline, and that is where we will 
have some problem, potentially, in the future for public 
access.
    Mr. Hill. But it doesn't deny public use of any of the 
shoreline, does it?
    Mr. Todd. The bill, itself, does not; no.
    Mr. Hill. OK. And in the testimony of BOR, you indicated 
that there's overcrowded recreational facilities at Canyon 
Ferry, and that's certainly true. Campgrounds are overcrowded 
in some of the areas, particularly at the north end. Do you 
charge overnight camping fees on those site, do you know?
    Mr. Todd. There is camping fees charged in some of these 
campgrounds.
    Mr. Hill. And are those used for any of the overhead of the 
operation of the facility or any facility improvement today?
    Mr. Todd. When the State of Montana managed it, they did 
use it for some of their management, but the Bureau of 
Reclamation does not----
    Mr. Hill. But you do not?
    Mr. Todd. That goes back to the Treasury.
    Mr. Hill. What has the Bureau done since it took over in 
1993 to reduce overcrowding at the lake?
    Mr. Todd. Well, as I've said, we've focused on upgrading 
the campground facilities, and we have basically put the 
Resource Management Plan on hold so that we could get those 
things upgraded. Now we're focused back on the Resource 
Management Plan since we have upgraded the facilities.
    Mr. Hill. One last question, if I could?
    Mr. Hansen. Last question.
    Mr. Hill. Would you agree, just in general, that it would 
be wise for us to try to improve the safety and disperse the 
people that are using the lake? And enhance visitor enjoyment 
by improving the facilities at the south end of the lake? Would 
you agree with that statement in general?
    Mr. Todd. Yes, I would.
    Mr. Hill. Thank you, Mr. Chairman.
    Thank you.
    Mr. Martinez. Mr. Chairman?
    Mr. Hansen. Mr. Martinez.
    Mr. Martinez. If I may, in just closing, there's two issues 
that have been raised here. An issue on how the Bureau of 
Reclamation manages recreation at Canyon Ferry. And it's 
interesting the Bureau of Reclamation is getting more and more 
involved in recre-

ation in these issues. But I think the point I want to leave 
with you is that this bill, as drafted, has some problems. One, 
is to whether in the fact it is really the intent of this 
Committee to provide a select a few beneficiaries to benefit of 
acquisition of those sites. And if it does, the bill has some 
questions that need to be answered as to who is going to pay or 
maintenance of roads. Who is going to--what the Federal 
involvement will be once it divests of these lots.
    My recommendation to the Committee is that this bill is 
premature right now. I'm not closed to conveying selected lots, 
but let us finish this Resource Management Plan. I commit to 
you that this will be finished by 1999. We will engage with the 
delegation; we will engage with the State, and with the Canyon 
Ferry Reservoirs Association to bring this to closure.
    Thank you.
    Mr. Faleomavaega. Will the gentleman yield? Will the 
gentleman yield?
    Mr. Hansen. You're recognized your own time.
    Mr. Faleomavaega. Oh. Just a quick question to Mr. 
Martinez. The concerns raised earlier by the gentleman from 
Montana, will those issues be addressed at this ongoing 
management study done by the Bureau of Reclamation for next 
year?
    Mr. Martinez. I commit that they will.
    Mr. Faleomavaega. OK; thank you.
    Mr. Hansen. You know, this panel has got a lot of 
interesting questions we could ask. It's unfortunate today we 
can't do that.
    But Mr. Fry, I've just got to ask you something about this 
bill of Mr. Bilbray's. I know that BLM doesn't like section 
6(b), and because you like to keep a pure wilderness approach 
to things. But the way Mr. Bilbray has this drafted, what kind 
of heartburn would it give you with leaving it as is, when you 
know you're going to have helicopters interdicting people with 
drug or illegal aliens coming in? You would rather, if I read 
your testimony right, you would rather go to the point of 
turning it in to a conservation area, is that right?
    Mr. Fry. I'm sorry, but the last part of your question--we 
didn't what?
    Mr. Hill. Well, on page 4 of your testimony, you notice the 
potential conflict between wilderness in the conservation area 
and the problem that the bill would present, because this is a 
place where you have drug runners and you have illegal aliens 
coming across there. Put it in wilderness, it's kind of like 
the California Protection Bill. What do we do to keep adequate 
protection from these illegal activities when we stick 
something in wilderness which they don't observe, but you have 
to observe?
    And I'm sure that there may be a simple answer to this, but 
I'm glad to see the BLM believes that conservation areas are 
another designation and wilderness isn't a big catch-all that 
answers everybody's question. It's kind of am ambiguous 
question to you, but I would hope you'd give it some thought.
    Mr. Martinez. We will give it some thought and very quickly 
respond and say that it is important that the Congressman's 
bill does exclude those areas where current law enforcement 
activities are taking place, where sensing devices and those 
kinds of things take place.
    We are concerned, as the Congressman mentioned, about the 
precedence setting nature. We do think that there is some 
language that both this Committee and the administration could 
live with, which would recognize the unique challenges in that 
area.
    Mr. Hansen. Using the reverse logic, as on Mr. Cannon's 
bill of San Raphael Swell, in this area, Mr. Cannon has agreed 
with the environmentalists on every issue but one; it's called 
Sids Mountain, and because the people of the west feel that the 
bighorn sheep population is very important. They want to allow 
helicopters to come in their roads to be there.
    I would hope the administration would not just in a trivial 
manner pass that off, because basically the compromise has all 
been on the part of Mr. Cannon. He's agreed maybe 90 percent 
with everything the environmental community wants.
    I would hope that you would come up here with resounding 
support for it, realizing that there's no reason why you 
couldn't take care of a bighorn sheep population----
    Mr. Fry. Well something like that----
    Mr. Hansen. [continuing] and that a conservation area does 
have some worthy components to it, also.
    Mr. Fry. Absolutely. We will give a very serious 
considerations of those suggestions.
    Mr. Hansen. Mr. Bilbray, did you want to comment on that?
    Mr. BilBray. Mr. Chairman, what my concern is, is that we 
do not sort of write off the entire border region from the 
potential opportunity to be able to take advantage of the 
wilderness designation.
    Now the problem is, is that we do have in parts of this 
country, areas where dishonest people will look for the lack of 
Federal law enforcement activity as an opportunity to move in 
and fill the vacuum. And even--you know, I don't know if people 
understand this, but even with the way we drove through this 
with the cherry stems. The fact that that trail at the bottom 
is actually one that's been cut through for horse trails for 
enforcement along our borders is a good example, that it's 
gotten to this point.
    What we don't want to create is a strong, open signal to 
certain elements of our society that, look, see the areas in 
between those red boundaries or cherry stems? That's open 
season for you; nothing at all will be put there. There will be 
no detection; they'll be no interdiction. Don't worry, this is 
a safe zone.
    And I think that that's what I'm trying to do with my 
legislation is say, for preservation and for protection, we'll 
have this enforcement. But, we want to send a strong message to 
those people that would take advantage of this type of 
legislation--don't think it's a safe zone for you. There will 
always be the ability to step in and bust you if you try to do 
certain illegal activities in these wilderness areas. That's 
what we're trying to do. If we don't, we would just in effect 
say the entire border area from Brownsville through Big Bend, 
all the way through New Mexico and Arizona, is totally devoid 
of being able to take advantage of the wilderness option. This 
shouldn't automatically be the case, so that's, I think, what 
we can work out with H.R. 3950.
    Mr. Hansen. That would be the redeeming feature of your 
bill, if I may say.
    The gentlelady from Virgin Islands is next.
    Ms. Christian-Green. Yes; thank you, Mr. Chairman.
    I just have one question, but I've heard a lot about the 
Grand Staircase-Escalante National Monument since coming here, 
and I'm glad to see that that issue is resolved. That I'm sure 
that if we could resolve that issue, we can resolve some of the 
other ones. But I'm glad to see that we've been able to resolve 
it.
    The question that I have is for Associate Director 
Stevenson. There's an article that appeared in yesterday's 
Atlanta Journal Constitution, written by Mr. Gregory Paxton, of 
the Georgia Trust for Historic Preservation, who will be 
testifying later, at which it suggested that the Dungeness 
Guest House that we have pictures of in our packet is in ruins 
because it's in a wilderness area. And, also, it claims that 
the Plum Orchard is falling into despair because it's in a 
wilderness area, and they can't get to it to provide 
maintenance. And I wanted you to have an opportunity to respond 
to that.
    Ms. Stevenson. The National Park Service realizes that we 
have a commitment to preserve our historic structures. In fact, 
I'm the Associate Director for Cultural Resources, in addition 
to Partnerships. The wilderness designation causes us to have 
to work very closely with other groups in order to figure out 
solutions for being able to meet our dual-responsibilities to 
wilderness and to resource preservation, in terms of cultural 
resources.
    At Plum Orchard, as soon as the Wilderness Management Plan 
is finished, we are hopeful that we'll be able to go out with 
an historic property lease. And that--assuming that we get some 
good responses to that, and we hope we will--we feel that we'll 
be able to do work on that property that will bring it back up 
to a maintainable standard.
    Ms. Christian-Green. OK, thank you. But the Dungeness House 
is in a wilderness area?
    Ms. Stevenson. No, it's not.
    Ms. Christian-Green. OK; thank you.
    Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from California, Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman, just a couple of 
brief--well, one brief comment and one brief question.
    First, on my bill, as discussed by Ms. Stevenson, regarding 
transfer station or an entrance station at El Portal, and a 
land exchange for that, the issue was mentioned that the land 
exchange would occur at fair value, and just for the sake of 
the record, the appraisals are in process right now. It is the 
intent of the private property owner who is here--where Mr. 
Fischer will later testify the desire for equal value depending 
on the outcome of the appraisal, so I just wanted to mention 
that for the record.
    But I also had a statement regarding Mr. Bilbray's bill 
regarding--and I thought it was Otay--excuse me, but I thought 
maybe Eddie Murphy would be here testifying on behalf of this 
wilderness.
    [Laughter.]
    But it's Otay, and I was a little bit disappointed. Mr. 
Fry, I don't have the map here, and thank you.
    My question is, given the nature of the area, its proximity 
to the border, the problems of fire protection, drug 
interdiction, and border patrol concerns, is it your desire to 
maybe have this in wilderness with no access whatsoever to 
resolve these issues in the problem?
    Mr. Fry. No, sir. Congressman, we think that the Wilderness 
Act allows for emergency situations. And certainly, we think 
that a fire is an emergency situation. We have lots of times 
when we go into wilderness areas to deal with fire. Certainly, 
public safety can be another emergency situation, and if there 
are activities that are going on in the land that are illegal, 
we think those constitute emergencies, and we think the 
Wilderness Act allows for those kinds of things to take place.
    Mr. Radanovich. Well, then, Mr. Fry, can you elaborate, 
then, on what the administration is willing to compromise in 
order to make this thing happen? Because it seems to me that 
the choice is the lack of wilderness designation for the area, 
and that's something that nobody wants, I don't think.
    Mr. Fry. Because of this concern, that's why we suggested 
the possibility of a national conservation area. You could take 
an area that is a little bit larger than this area moving to 
the east and to the north. You might have--if you look at the 
map over there, you'll see what I'll call three different 
sections.
    In the southern section that's closest to the border, might 
possibly be an area that's not designated as wilderness, but 
have some special management features. You then might include 
those two top sections as areas that are wilderness. So, it 
would look like to us that may be a solution to this concern 
about how the land would be used and what would go on on the 
land. We could solve that with a national conservation area.
    We did, though, come here today in support of the bill as a 
wilderness bill.
    Mr. Radanovich. OK, thank you.
    Mr. Hansen. One further question for the administration 
panel, and that is Mr. Hill from Montana.
    Mr. Hill. Thank you, Mr. Chairman.
    Mr. Martinez, as you know, there's a Senate bill that's 
been introduced on turn over of these cabin sites, Senate bill 
1913. Does the administration support that bill? Could you 
advise me?
    Mr. Martinez. It's my understanding we do not support that 
bill.
    Mr. Hill. And one last point, are there any features in 
that--and I would just ask you to submit this for the record--
any features of that bill as of contrasted with the House 
version that you prefer? I would appreciate having your 
comments about that.
    Mr. Martinez. We will provide that for the record, and 
we'll get in touch with you.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Thank you very much, Mr. Martinez.
    Thank you, Mr. Chairman.
    Mr. Hansen. We thank the panel. We look forward to sending 
you some written questions. We would hope you could answer them 
for us.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hansen. Our second panel is Thomas A. Budewitz--if I'm 
saying that right--Bob Robinson, Virgil Binkley, Darrell 
Knuffke, and Jerry Fischer.
    Mr. Faleomavaega. Will the chairman yield?
    Mr. Hansen. The gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I ask unanimous consent 
that the letter from James Durrett, the chief operating officer 
of the Georgia Conservancy, be made part of the record with 
reference to H.R. 4144.
    Mr. Hansen. Without objection.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. Mr. Chairman?
    Mr. Hansen. The gentleman from Montana.
    Mr. Hill. I would just ask unanimous consent that letters 
from Governor Marc Racicot and Senator Conrad Burns, as well as 
testimony from Jim Posowitts of the Prickly Pear Sportsmen's 
Association be entered into the record with regard to my bill.
    Mr. Hansen. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    [The prepared statement of the Prickly Pear Sportsmen's 
Association may be found at end of hearing.]
    Mr. Hill. Thank you.
    Mr. Hansen. We appreciate you gentlemen being with us. I 
know you've come a long way, and your testimony is very 
important to us, and you know we have a few little problems 
there.
    And we'll start with the gentleman from Montana. How do you 
pronounce that?

STATEMENT OF THOMAS BUDEWITZ, ATTORNEY, REPRESENTING THE BOARD 
          OF COMMISSIONERS, BROADWATER COUNTY, MONTANA

    Mr. Budewitz. Budewitz.
    Mr. Hansen. Budewitz; pretty close. We'll start with you, 
sir. If you want to pull that mike over close to you so we can 
pick up everything you say, we'd appreciate it. And you know 
the rules.
    Mr. Budewitz. Thank you, Mr. Chairman, members of the 
Subcommittee.
    My name is Tom Budewitz; I'm here representing Broadwater 
County, and particularly the Broadwater County commissioners. 
The commissioners support the concept of making the cabin sites 
available for purchase. Our interest is in the allocation of 
the proceeds of the cabin site sales and the make-up of any 
entity formed to control the expenditure of those funds.
    The creation of Canyon Ferry Reservoir in the early 1950's 
resulted in the loss of 36 family farms. They're now covered 
with as much as 75 feet of water. The loss of those farms 
displaced 36 productive families, destroyed thousands of acres 
of the richest soil in the county, and permanently removed all 
of those acres from the county tax rolls.
    For many years, the creation of the reservoir resulted in a 
literal dust bowl near the south entrance to the lake and made 
the city of Townsend the dustiest city in the State. That 
problem was finally mitigated approximately 20 years ago with a 
dust abatement project and creation of a wildlife management 
area just outside the city of Townsend, at the south end of the 
lake.
    Despite repeated promises, beginning even before 
construction of the dam and reservoir, that Broadwater County 
would be provided financial and other economic assistance to 
replace its losses. There has been virtually no help from the 
Federal Government to mitigate the adverse economic impacts 
resulting from the loss of those farms.
    A quick glance at a map of the area is instructive. Nearly 
80 percent of the lake lies within Broadwater County, yet less 
than 20 percent of the camping, boating, and other recreational 
areas at the lake are in the county. The other 80 percent are 
at the north end in Lewis and Clark County. A Townsend 
resident--Townsend being the county seat of Broadwater county 
and lying less than a mile from the south end of the lake--has 
to drive 30 miles to the nearest marina to tie up his boat, 
even though he can see the lake out his back window.
    All 262 of these cabin sites are on the north end in Lewis 
and Clark County. If they are sold, they will return to the 
Lewis and Clark County tax base, and reduce the PILT funds 
expended annually by the Federal Government. There will be no 
such impact in Broadwater county. There will be no increased 
tax revenue, and the PILT money intended to replace property 
tax revenues for Federal land pays only approximately 55 
percent of the revenue that would be generated by taxes if the 
land were privately owned.
    The Montana Wildlife Federation has opposed this bill and 
the accompanying Senate bill at several meetings that have been 
held in Montana. They insist that the money be used for the 
acquisition of other public property and to replace riparian 
wildlife area lost when the cabin sites become privately owned. 
The fact is that these cabin sites occupy a total of less than 
150 acres. None of the cabin sites are actually waterfront 
property, and all of the waterfront--all of the shoreline, as 
Congressman Hill has pointed out--would remain available for 
use by the public. The money generated by these sales will be 
far more than necessary to replace these 150 acres with other 
public land.
    Furthermore, the creation of the wildlife management area 
at the south end of the lake, a number of years ago, contains 
more created and contains more wildlife habitat than presently 
exists on the cabin sites--far more.
    The Wildlife Federation has indicated no willingness to 
compromise and believe that their goals are the only properly 
recognized public goal; they're wrong. The public has a 
legitimate and recognizable interest in more than the 
acquisition of additional public land and access. In truth, as 
has been demonstrated historically, not only the government in 
general, but the particular agencies that are involved in the 
Canyon Ferry, have enough trouble managing the lands they have. 
The problem has always been that the government agencies 
involved at Canyon Ferry don't have enough money or are 
unwilling to spend enough money to properly maintain, improve, 
or operate existing facilities.
    As Commissioner Martinez' statement reflects, the Canyon 
Ferry area is at times overcrowded. In fact, the Broadwater 
County plan, which would be to spend most of the money for 
improvement of ac-

cess at the southern end of the lake, would relieve and 
mitigate the overcrowding problem at the north end.
    One of the issues that's been alluded to earlier, and 
specifically mentioned, Bureau of Reclamation now proposes that 
they want to do a study, a management plan, for the entire 
lake, I gather. In 1993, there was, in fact, a draft management 
plan--draft management and environmental assessment that was 
prepared at the instance of Bureau of Reclamation, Bureau of 
Land Management, and the State of Montana Department of Fish, 
Wildlife, and Parks. That plan died. Congressman Williams' bill 
in 1993, which called for a joint management by the State and 
the two interior agencies, died. Nothing has been able to be 
done in the past; we don't have any great confidence that 
anything will happen in the future. And we hope that the 
Committee will recommend the approval and passage of 
Congressman Hill's bill.
    Thank you very much.
    [The prepared statement of Mr. Budewitz may be found at end 
of hearing.]
    Mr. Hansen. Thank you.
    Mr. Binkley.
    Can we get a mike over in front of you, sir?

STATEMENT OF VIRGIL BINKLEY, PRESIDENT, BROADWATER ROD AND GUN 
 CLUB, BOARD MEMBER, CANYON FERRY FISHING ASSOCIATION, MEMBER, 
              BROADWATER STREAM AND LAKE COMMITTEE

    Mr. Binkley. I'm Virgil Binkley; I represent the Canyon 
Ferry Fishing Association, the Broadwater Lake and Stream 
Committee, and the Broadwater Rod and Gun Club. We're out of 
Townsend, Montana.
    Our membership is in agreement with the sale of the cabin 
sites at the north end of the lake. We very much would like to 
have a portion of that money spent developing safe harbors for 
boating--particularly boating activity--and some habitat 
restoration in the local streams.
    At present, the amount of boater recreation in Canyon 
Ferry, particularly on the north end, is going up quite 
rapidly. Of the places where you can get into on the north end 
of the lake, is Goose Bay, which is about 20 miles south, and 
we have a small place at Silos, which is probably 8 or 10 miles 
north. And if the wind comes up and we have violent weather, 
it's extremely difficult to get boats in and out, mainly 
because of dock space. You can only get two in at each time. 
And that gets to be a real struggle. People had their boats up 
on the beach, the waves going over the transoms, filling them 
with water, and it really presents a public safety issue. And 
we really would like to see, either through the sale of this 
land, some of the moneys being channeled in for that type of 
development, or some other means of financing places to 
excavate in the south end of the lake so we do have some safe 
places to take boats in and out of the water.
    And with that, that's our position, as far as Congressman 
Hill's bill.
    [The prepared statement of Mr. Binkley may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Binkley; appreciate your 
testimony.
    Mr. Robinson.

 STATEMENT OF BOB ROBINSON, PRESIDENT, CANYON FERRY RECREATION 
        ASSOCIATION CABIN SITE ACQUISITION SUBCOMMITTEE

    Mr. Robinson. Mr. Chairman, thank you for the opportunity 
to speak before you today. We'd like to especially thank 
Congressman Hill for his attention to this issue and his work 
over the last few months, and literally over the last year, 
trying to find a solution that all of us in Montana can live 
with, with this particular issue.
    This bill attempts to address a longtime problem that's 
been festering with the Canyon Ferry Recreation Association and 
the Bureau of Reclamation. In fact, our records go back to 
1968, when the Canyon Ferry Recreation Association went to 
Senator Mansfield trying to get him to work with us to acquire 
these sites because of the difficulties in dealing with the 
Bureau of Reclamation at that time.
    To capsulize, I can tell you that the Bureau of 
Reclamation's policy initially was to promote these cabin sites 
so that they could defend the construction of Canyon Ferry 
Reservoir as a multiple-use facility. It wasn't very long after 
those cabin sites were leased that the Bureau of Reclamation, 
then, took a policy of maybe we ought to eliminate those cabin 
sites. That's the time when the Canyon Ferry Recreation 
Association went to Senator Mansfield.
    Subsequent to that, Montana's Fish, Wildlife, and Parks 
Department managed the property, and there was kind of a hands-
off approach by the Bureau of Reclamation. Since the Bureau of 
Reclamation has taken over here in the last few years, and 
especially since the Inspector General's report became public 
in 1995, when it reflected that--or asked the question, why 
hasn't the Bureau of Reclamation initiated its policy of 
removing the cabin sites from the lake, has this issue come to 
the surface again.
    We think the Bureau of Reclamation has initiated that 
policy by forcing a significantly higher lease rate. Now back 
in the 1960's, lease rates were $25 a year, which was literally 
nothing, and that was done to meet the needs of Bureau of 
Reclamation. Those lease rates, on an annual basis, work their 
way up to $500, $600, $700. In the last couple of years, those 
lease rates have jumped up $2,500 to nearly $4,000 per year on 
an individual cabin site.
    Basically, what's happening is that the people who own 
those cabins and lease those sites are being forced off the 
land, being forced to sell the cabin to somebody else who can 
afford it.
    Canyon Ferry is unique in Montana in that those who own 
those cabins out there are generally from the southwestern 
Montana. They're not wealthy individuals; they are family 
members who have had those cabin sites for nearly 40 years. 
They're smelter workers; they're union electrical workers. 
There's teachers, there's government employees, there's a 
doctor, at least there's a few doctors around there. They're 
retired individuals, but the cross-section of the population in 
southwestern Montana is who owns those cabin sites. We have 
other lakes in Montana that are recreation facilities that you 
have wealthy, out-of-state owners buying up those sites and 
running up the prices, and running up the taxes. That's not 
happening at Canyon Ferry Reservoir. It is still a literally a 
neighborhood lake.
    We have, we think, unanimous support amongst the Montana 
congressional delegation for the sale of these properties. We 
have unanimous support amongst local and State government, the 
recreation groups in the communities, the property owners 
themselves, for the sale.
    The only dispute that arises related to this bill is the 
allocation of the proceeds from the sale, and that's where the 
rub comes between the Wilderness Federation and the various 
other interests--Broadwater County, Bureau of Reclamation, 
anybody else who has an interest in this.
    Let me tell you a little bit about the lessees. There's 265 
lessees and is characterized as giving a bill to benefit a few 
people. Well, these 265 leases have grandparents, children, 
grandchildren, and great-grandchildren now on these sites. In 
the case of our family, from my parents down to my grandchild, 
we're going to have 40 people that have an interest in this 
particular cabin site, and that's the same way with cabin sites 
all around the lake.
    In terms of a recreation facility, each one of those cabins 
becomes a recreation facility, in and of itself, where we 
entertain guests, we have office parties, we have weddings out 
there, we have christenings, all kinds of recreation 
opportunities. And I'd hazard to guess that on any weekend the 
cabin sites serve as a greater recreation resource than do the 
public campgrounds at the lake. I bet you we could prove that 
by the numbers at any time we want to verify that.
    Mr. Chairman, this bill is desperately needed by these 
cabin site owners. We will shortly be forced off the land, and 
we think this bill would provide an opportunity to have a 
benefit to all the people in southwestern Montana, not only the 
cabin site lessees, but also the recreationists who use the 
Canyon Ferry Basin and all the rest of Montana, in terms of the 
utilization of the proceeds from the sale.
    Thank you for your attention.
    [The prepared statement of Mr. Robinson may be found at end 
of hearing.]
    Mr. Hill. [presiding] Thank you, Mr. Robinson.
    The next panelist will be Darrell Knuffke.

   STATEMENT OF DARRELL KNUFFKE, VICE PRESIDENT OF REGIONAL 
              CONSERVATION, THE WILDERNESS SOCIETY

    Mr. Knuffke. Thank you, Mr. Chairman. My name is Darrell 
Knuffke; I'm the vice president of regional conservation for 
the Wilderness Society.
    My statement today represents the views of the Natural 
Resources Defense Council, the Endangered Habitats League, and 
the Sierra Club, as well as my own organization. We appreciate 
the opportunity to provide the Committee with our views on H.R. 
3950, the Otay Mountain Wilderness Act of 1998. And we also 
want to thank Representative Bilbray, the bill sponsor, for his 
interest in wilderness in the Otay, and the chairman for 
affording the measure a hearing.
    Because of the unique mix of desert and coastal influence, 
Otay Mountain is internationally renowned for its diversity of 
unique plant species. It holds the world's largest stand of 
Tecate cypress, a species otherwise found only in small, 
isolated populations in California and Mexico. The area over 
time has been designated a national cooperative land and 
wildfire management area, and area of critical and 
environmental concern, a wilderness study area, and more 
recently, a crucial element in San Diego's Multiple Species 
Conservation Program. The later is a comprehensive plan to 
protect sensitive plants and animals in a way that eases 
constraints to the region's development.
    Otay Mountain merits and needs the strong protection that 
the Wilderness Act of 1964 extends. It's because we support 
those protections, and because Otay Mountain deserves them, 
that we must oppose H.R. 3950. And we oppose it specifically 
because of its section 6(b). That section, in our view, 
essentially exempts Federal, State, and local agencies from the 
requirements of the Wilderness Act while they are conducting 
activities related to border and fire control.
    Mr. Chairman, I want to make sure that the Committee 
understands that we strongly support border and wildfire 
control. We also support giving those agencies the tools they 
need to do their jobs. Indeed, unless they succeed in their 
missions, many of Otay Mountain's irreplaceable values may be 
lost whether the area is designated wilderness or is not.
    It is also our clear understanding that the Border Patrol, 
the California Department of Forestry, and the Bureau of Land 
Management, all believe that recent changes to road access on 
Otay Mountain will allow them to fulfill their missions, and to 
fulfill them within the language of the Wilderness Act, without 
special management language that would dilute wilderness 
protection for this important area.
    If Congress intends to pass H.R. 3950 and designate the 
Otay Mountain Area as wilderness, section 6(b) of the bill 
should be deleted.
    Historically, Otay Mountain's rugged landscape, itself, 
deterred illegal border crossing, but almost 4 years ago, when 
Operation Gate Keeper beefed up border controls near San Diego 
and began to slow illegal immigration along the border between 
the coast and Otay Mountain, traffic of illegal immigrants and 
related wildfire dramatically increased on the mountain.
    In the summer of 1996, San Diego County declared a state of 
emergency because of threats to human life from the intensity 
of illegal immigrant traffic and wildfires on Otay Mountain. At 
that point, the BLM developed a plan to provide the Border 
Patrol and the State Forestry Department the vehicle access 
they needed across the mountain range and down to the actual 
border while protecting most of the mountain's biological 
resources. The new road access along the east and west 
boundaries of the area essentially move the interdiction effort 
down to the border itself, and by all accounts, that's been 
successful.
    In early May, several of our staff members visited Otay 
Mountain on a BLM-sponsored tour, and met later with the Border 
Patrol and State Forestry officials to see how the new system 
of roads and access points is working. The agencies assured us, 
Congressman's Bilbray's staff, and the BLM, that the BLM's 
actions on Otay Mountain had given them what they need to do 
their jobs. Officials of both agencies indicated that fires and 
attempts to cross the border have decreased significantly 
because of the new system of roads and access points. We asked 
whether the agencies need any additional access or other 
facilities on the Otay Mountain; both said no.
    With your permission, Mr. Chairman, I'd like to submit for 
the record, a May 20, 1998, letter from BLM California State 
Director Ed Hasty to Congressman Bilbray that captures the 
essence of that meeting and confirms the details which I 
mentioned.
    [The information referred to may be found at end of 
hearing.]
    Mr. Knuffke. In sum, the Border Patrol, the California 
Department of Forestry, the BLM, and we, all believe that given 
recent changes in road access on Otay Mountain, the agencies 
have what they need to protect the border and to control fire, 
and to do so within the language of the Wilderness Act of 1964.
    Our organization does strongly support wilderness 
protection of Otay Mountain and its many and diverse natural 
values. If section 6(b) is deleted from H.R. 3950, we can 
support that legislation as well.
    Thank you very much.
    [The prepared statement of Mr. Knuffke may be found at end 
of hearing.]
    Mr. Hansen. [presiding] Thank you.
    Mr. Fischer.

   STATEMENT OF JERRY FISCHER, PRESIDENT/CEO, YOSEMITE MOTELS

    Mr. Fischer. Mr. Chairman, and members of the Subcommittee, 
my name is Gerald Fischer; 21 years ago my family and I 
purchased a 12-unit motel in El Portal, California. Since that 
time, we have purchased existing motels and developed new ones. 
We now operate 7 properties with over 800 rooms in the Gateway 
communities surrounding Yosemite National Park. Last year, we 
had over 310,000 guests who enjoyed visiting the park and used 
our properties as a base.
    Approximately 5 years ago, former superintendent of 
Yosemite National Park, Michael Finley, and I met to discuss 
the park's acquisition of a parcel of land my family owned in 
El Portal that directly adjourns the park boundary. We had just 
cleared some antiquated buildings from this parcel, and it was 
apparent to the park that the current Arch Rock station was not 
adequate for the increased usage of that 140 entrance to 
Yosemite. Due to the historic nature and the limited site 
conditions of the Arch Rock Area, Mr. Finley felt that our 
location held potential for future expansion and convenience to 
visitors at the entrance station.
    At that time, I made a commitment to Mr. Finley that our 
family would not replace the recently demolished buildings on 
this parcel of land until the Park Service had fully explored 
the above option. The land exchange discussion before this 
Subcommittee at this time is a result of my commitment to Mr. 
Finley.
    Several years later, Yosemite National Park's successor 
superintendent, B.J. Griffin, continued that dialogue and 
defined the terms of this exchange. At our company's expense, 
we had the parcel surveyed and legal descriptions drafted. The 
January 2, 1997, flood added additional pressure to relocate 
the entrance station to the El Portal site. Major roadway 
reconstruction within the park was funded as a part of the 
flood relief measure authored by Congressman Radanovich. With 
this work soon to be underway, the park's need for traffic 
control and public safety led them to proceed now with the land 
exchange to allow for both the temporary and then a permanent 
entrance station on the El Portal site.
    Because the El Portal Administrative Site boundary requires 
an amendment that includes the parcels noted, this land 
exchange will require congressional approval.
    My family and I have given the current superintendent, 
Stanley Albright, our full cooperation in assisting with the 
land exchange before you today. As noted in the NPS testimony 
earlier, we understand that the exchange must be of equal value 
and concur with the language that allows for additional 
improvements if necessary to cause a full equalization. 
Further, we understand that full compliance with the provision 
of the NEPA is a condition within the exchange.
    I appreciate the opportunity to come before you today and 
express our support for the proposal before you, and in the 
mission of the National Park Service at Yosemite National Park. 
We are committed to working with them to provide a quality 
experience for all park visitors.
    [The prepared statement of Mr. Fischer may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Mr. Fischer.
    Questions for this panel?
    Mr. Faleomavaega. Mr. Chairman, in the interest of time, I 
will like to submit questions in writing to the members of the 
panel.
    Mr. Hill. I'm assuming that if we sent you some questions 
in writing that you would respond to them? Would that be 
correct?
    [All witnesses nod heads affirmatively.]
    [The information referred to may be found at end of 
hearing.]
    Mr. Hill. We would really appreciate that. Since we're a 
little under the gun today, we would appreciate it very much if 
you'd do that.
    And thank the panel very much for coming, and taking the 
opportunity to give us this excellent testimony. And we'll 
dismiss you, if that's OK, and we'll now turn to the third 
panel.
    Our last panel is Benjamin F. Payton, Office of the 
President, Tuskegee University; Greg Paxton, president and CEO 
of Georgia Trust for Historic Preservation; Don Barger, 
southeast regional director of National Parks and Conservation 
Association; and Jane Morton Galetto, president of the Citizens 
United to Protect the Maurice River and its Tributaries.
    Now, if we've got you all coming up, we'd appreciate it.
    Dr. Payton will be referring to H.R. 4211, regarding the 
Tuskegee Airmen. Mr. President, we're grateful you could be 
with us; we'll turn the time to you, sir.

STATEMENT OF BENJAMIN PAYTON, OFFICE OF THE PRESIDENT, TUSKEGEE 
                           UNIVERSITY

    Dr. Payton. Thank you, Mr. Chairman. I want to begin by 
saying a special word of thanks to Congressman Riley for the 
outstanding job which he and his staff have done in helping us 
to bring forward this bill, H.R. 4211, in the interest of 
establishing as a unit of the National Park Service, the 
Tuskegee Airmen National Historic Site.
    I want to thank you, Mr. Chairman, for the personal 
interest you have, the knowledge you've exhibited as a result 
of your own military experience, in the exploits of the 
Tuskegee Airmen. Not many Americans can say that; not many 
Americans have a grasp of that strand, that very important 
strand of American history such as you have. It is, therefore, 
very important that for the sake of future generations of this 
society, all members of this society of all races and colors, 
that our youth and our adults understand the roles which we've 
all played in preserving this great democracy and in expanding 
it to all people. And that really is what the Tuskegee Airmen 
and Tuskegee University have been about.
    We very much, at the university--at Tuskegee University, 
where I am privileged to serve as president--we very much 
support H.R. 4211, as this has been presented to the Committee. 
We support it with enthusiasm.
    It would require a number of continuing efforts on the part 
of the university, with respect to its handling of the 
resources, which it would be willing to make available and to 
assist the National Park Service in other ways as we can.
    Tuskegee University is a place that many people know about. 
It was founded 117 years ago. It is a place that has a lot of 
interest in strength in the engineering and technical fields, 
in business, in the biomedical profession, in the liberal arts, 
as well. We are the institution that created the first African-
American Four-Star General in this country, General Daniel 
Chappejane, also an Airman.
    And I'm pleased, Mr. Chairman, that I have with me today 
the president of the Tuskegee Airmen, one of the original 
Airmen, Mr. Charles Magee, from Washington, DC. And may I ask 
him to just stand so that you may recognize him if that's all 
right?
    Magee.
    Mr. Hansen. Thank you, sir. Can we have your name for the 
record that you're here?
    Mr. Magee. Charles E. Magee.
    Mr. Hansen. Well, thank you. Thank you; we appreciate you 
being with us.
    Dr. Payton. I appreciate that, Mr. Chairman. Not many of 
the Tuskegee Airmen remain, and we're delighted that he could 
be here this morning with us.
    I also want to thank the Park Service for the really 
outstanding work it has done in cooperating with us in bringing 
this bill forward. We do have a few things yet to be tweaked in 
order to move it from concept to reality. But I think that we 
should be able to do that, and I want you, Mr. Chairman, and 
the Committee to know that Tuskegee University would be very 
pleased to work with you, as we continue to cooperate with the 
Park Service, in doing what is necessary in order to bring this 
bill to complete fruition.
    What this bill would do would be to establish the Tuskegee 
Airmen National Historic Site as a component of the National 
Parks Service System in association with Tuskegee University.
    The story of the Tuskegee Airmen is one which, without a 
doubt, is of national significance, and that is not just my own 
conclusion, that is the conclusion of a special study that was 
done by the National Park Service at the request of Congressman 
Riley and myself, as president of Tuskegee University. 
Overcoming many difficulties in order to become the heroes they 
did, the Tuskegee Airmen present us with a role model that our 
society badly needs today. Our young people need to know about 
these men who gave their lives and who did it with such heroism 
and with such courage under enormous difficulty, including the 
difficulty of being rejected by their own Nation and placed 
under special discriminatory penalties by their own military 
services that they tried so hard to serve.
    As Congressman Riley has already said, they served 
gallantly. And he's given you some of these details; I won't go 
over them again. I do want to say that I will append to my 
testimony a list of all of the actions that the Tuskegee Airmen 
were in, because I think that it's important that the Committee 
and others know.
    Telling the story of the Tuskegee Airmen is one that needs 
to be done in a kind of living history format. That is to say, 
we need to build upon the lives of these men, and women by the 
way, there were over 10,000 people involved in the formation 
and development of the Tuskegee Airmen. Many of these were 
maintenance workers; many of them were cooks; many of them were 
technical field people, maintenance engineers, power frame 
mechanics, all kinds of people. But it is important to note 
that a large proportion of these were African-American women 
working along with African-American men and with white 
Americans who made this possible. And, thus, made it possible 
those heros whom we have heard so much about today, like 
General Benjamin O. Davis, the astronaut, Guion Bluford. And I 
would say, that were it not for the Tuskegee Airmen, there 
would not be a General Colin Powell, the first African-American 
to serve as Chairman of the Joint Chief of Staff, and to do it 
in such an enormously competent way.
    We feel that there is a great role that the university can 
play with the Park Service as a partner in this venture. The 
Tuskegee Airmen didn't emerge full-blown from the head of the 
United States military. They grew out of the vision of Tuskegee 
University. They grew out of the hopes and aspirations and 
dreams of the civil rights groups in this country who were 
determined that at long last African-Americans would be 
permitted to participate fully in the defense of our country.
    And so, Tuskegee University went out and raised the money 
to acquire and build an airfield that was constructed by its 
students and its faculty. We went to foundations and other 
private sources and got the money. As the result, Tuskegee was 
able to develop such an extensive civilian pilot training 
program that when the ears of the military finally were open to 
this enormous potential there waiting to join the American 
forces, Tuskegee was far out in front of the competition. And 
so it was everybody's choice that the Tuskegee Airmen be 
created at Tuskegee University.
    What this would do would be to create a national historic 
center, a National Historic Site. It was also develop the 
potential for young people today to learn, not only from that 
experience, but to build tools for a successful career for 
themselves. So many of our young African-American men, 
particularly, have been turned off by science, by math; these 
are the basic tools of success in a modern economy. We propose 
at the university, that we will work along with the National 
Park Service, create a division of the Department of Aviation 
Science that would work with both pre-college as well as 
college youth in order to continue the tradition of the 
Tuskegee Airmen.
    We also face a tremendous challenge in this society as we 
seek to move people from welfare to work. There are many adults 
who have great talent but in whom not enough people have 
sufficient confidence. The Tuskegee Airmen are people in whom 
these folk have placed great trust. The tradition that they 
have built is one that we can utilize in developing power 
mechanics, airport maintenance people, that are now required in 
today's airports.
    Mr. Chairman, we will work with the National Park Service; 
we are willing to work with the Committee to do whatever is 
necessary that is fully consistent with this bill in order to 
bring it to pass.
    I want to thank you for holding this hearing, for inviting 
me to testify, and I want to say that Tuskegee University is 
willing to move forward, along with this Committee, given your 
personal appreciation of the impact of the Tuskegee Airmen and 
given the quality of that impact on encouraging equality in the 
military and helping to develop outstanding leaders from every 
branch of military service, Mr. Chairman. I thank you and your 
colleagues for providing your full support of this legislation.
    I would like to ask that the full text of my testimony be 
permitted to enter the record, since I did have to summarize it 
rather quickly in order to try and meet your time constraints, 
which I understand that and appreciate it very, very much.
    Thank you so very much.
    [The prepared statement of Mr. Payton may be found at end 
of hearing.]
    Mr. Hansen. Dr. Payton, without objection, your entire 
testimony will be included in the record, as will all members 
of the panel. Thank you for your very interesting testimony. 
And I have to say, I did look at the film which my colleague, 
Mr. Riley, gave me, which I thought was very, very interesting. 
As an old pilot, I really enjoyed that. That was very good. 
These gentlemen and ladies should be commended for the great 
work that they did.
    Mr. Paxton.

 STATEMENT OF GREGORY PAXTON, PRESIDENT/CEO, GEORGIA TRUST FOR 
                     HISTORIC PRESERVATION

    Mr. Paxton. Chairman Hansen, Ranking Member Faleomavaega, 
and members of the Committee, thank you for the opportunity to 
testify today.
    I'm Gregory B. Paxton, president and CEO, of the Georgia 
Trust for Historic Preservation, a 10,000-member group and one 
of the two largest statewide, non-profit preservation 
organizations in the country. I've served on the Board of the 
Cumberland Island His-

toric Foundation since it was formed in 1982, created at the 
suggestion of Regional Director of the National Park Service, 
Robert Baker.
    Cumberland Island contains an indelible 5,000-year history 
of human habitation written on the island's landscape, and the 
evidence is everywhere--from the Native American burial grounds 
and shell middens to slave cabin chimneys and tabby ruins, from 
the 1870 freed slave settlement to the large estates with 
numerous outbuildings. These tangible traces of America's and 
Georgia's history warrant protection, along with the areas that 
have regrown wild around them. Historic resources and natural 
resources are both important elements of Cumberland Island's 
present, past, and future.
    The original legislation establishing Cumberland's 
wilderness set up a conflict between protecting the Island's 
historic resources and its natural resources. The Wilderness 
Act prohibits any use of historic buildings within a wilderness 
area. Before Congress passed the original legislation, the then 
Under Secretary of Interior, Donald Hodel, wrote to Congress to 
urge this conflict be rectified stating, quote, ``We have 
serious reservations as to whether the Cumberland Island lands 
should be designated as wilderness meet the criteria set forth 
in the Wilderness Act. However, we support enactment of this 
bill, if it is amended to reflect the concerns noted below. The 
requirements of the National Historic Preservation Act may well 
conflict with the designation of these lands as wilderness, 
since the Wilderness Act defines wilderness as natural and 
undeveloped in character, and devoid of permanent improvements 
or human habitation. Maintaining the structures in perpetuity 
would seem to frustrate the intention of Congress that these 
lands eventually be designated as wilderness. At the same time, 
designating this acreage as wilderness would seem to frustrate 
Congress' intent that historic structures be preserved. We 
believe this apparent internal conflict should be resolved 
before the bill is enacted into law.'' unquote.
    Secretary Hodel's serious reservations about whether the 
land met wilderness criteria, is due to the fact that most of 
Cumberland Island has been heavily farmed throughout the last 
two centuries. So it is not untrammeled by man and is far from 
a typical wilderness. The wilderness designation was initially 
intended to help protect the island, but as the Secretary 
noted, the fact that the island contains hundreds of 
significant historic and prehistoric sites is not adequately 
addressed in the legislation.
    With the conflict unresolved, three important historic 
structures listed on the National Register of Historic Places 
have recently fallen to the ground from neglect--and you have 
photos of those in your materials. Strict limitations on 
driving on the historic road through the wilderness area to the 
historic sites make it nearly impossible to maintain historic 
buildings that need substantial and consistent upkeep on a 
subtropical sea island.
    The Cumberland Island Preservation Act provides a blueprint 
for a management plan that balances the need to protect 
historic and cultural resources, as well as the island's 
wilderness areas. It's key provisions include preservation of 
the National Register listed Plum Orchard, an outstanding 35-
room late 19th century, neoclas-

sical house donated with 12 acres and $50,000 to the National 
Park Service in 1971 by the Johnston branch of the Carnegie 
family. In 1977, the house was assessed by the Park Service to 
be in good to excellent condition. Today, it is threatened.
    The bill also urges prompt preparation of a preservation 
plan for all archeological and historic sites on the island 
which has still not been prepared after 25 years of Park 
Service ownership.
    The bill proposes that the 200-year-old historic road also 
listed on the National Register be itself removed from the 
wilderness in order to allow limited public access to the north 
end of the island where Plum Orchard and other important 
historic sites are located. It would also allow the historic 
road, itself, to be preserved. Running along the western and 
northern edge of the island, the road would enable Park 
visitors to see more of the island's history, while leaving 
eight miles of eastern shoreline and nearly all the width of 
the wilderness undisturbed. The addition of about 200 acres on 
the south tip of the island as wilderness is also proposed in 
this bill.
    The bill authorizes a proposed exchange of land between the 
National Park Service and the Candler family that includes the 
1875 High Point Hotel and numerous other historic buildings on 
the National Register currently maintained by the family under 
their retained rights. This provision authorizes the Candlers 
to buy a large tract of land on the south end of the potential 
wilderness and swap it for ownership of a small tract of the 
Candlers historic land on the north end of the island. The 
National Park Service will put in place measures to limit this 
area to family use only. And this small parcel would then be 
removed from the potential wilderness, allowing for the 
buildings to be preserved. If the swap does not occur after the 
life estate ends, the buildings cannot be used by anyone, and 
would inevitably also be demolished by neglect.
    When Cumberland was all privately owned, the owners hired 
lobbyists to defeat a proposed causeway, and led the effort to 
have it first declared a national seashore and then a 
wilderness to protect it from development. Many private owners 
donated or sold land to the government at bargain prices. Those 
owners and former owners who retain life estates on the island 
are not interlopers in the wilderness; they are its creators, 
yet they are very frustrated. Private owners have preserved and 
continue to preserve the historic structures of Cumberland 
Island, sadly, substantially better than the National Park 
Service.
    The Georgia Trust believes that the legislation can be 
improved by also removing from the wilderness designation, 
three other small areas on the north end of the island for the 
purposes of maintenance and limited visitation. These are the 
Cumberland Wharf, the island's cemeteries, and the village at 
Half Moon Bluff, dating from its settlement in 1870 by freed 
slaves.
    The Committee report should make clear that all these 
changes to the wilderness designation are not to set a national 
precedent concerning the designation of wilderness, but to 
recognize an unresolved conflict that has existed on Cumberland 
since the wilderness designation was first considered.
    The vision for Cumberland that emerges from this Act is one 
in which the historic resources along the western and northern 
edges of the island become more accessible from the historic 
road for maintenance and limited visitation. The 90 percent of 
the visitors who never leave the southern end gain access to an 
additional wilderness area. Limited and restricted use and 
visitation of historic sites allows accessibility to the 
elderly, young, and handicapped, and others to experience the 
edge of the wilderness, while allowing the current wilderness 
areas and additional new areas in the central and eastern side 
of the island to further advance to a wild state.
    The Park Service would have a clear path for a management 
plan for both the cultural and historic resources and for the 
wilderness. And, of course, the Wilderness Plan has not been 
developed, despite the fact the Park Service has owned it for 
15 years because of the timeframe.
    Finally, Congressman Kingston's legislation serves as a 
wake-up call for the entire country. The problems on Cumberland 
Island reflect more serious problems in our national parks 
nationwide. While during the past two decades the private 
sector has funded more than $17 billion in preservation 
projects, meeting the Secretary of Interior standards, the 
Secretary's National Park Service has fallen behind on the 
maintenance of historic buildings and objects under the Federal 
Government's care by an amount conservatively estimated at $1.7 
billion.
    Many of the United States' most important historic 
resources are threatened and national historic sites and 
artifacts throughout the country are seriously deteriorating 
from neglect due to insufficient funds. This condition 
undermines our national self-esteem and the esteem for our 
country in the eyes of the world. As we approach the 
millennium, a renewed national commitment of the monetary 
resources to preserve our most valuable national and cultural 
historic resources is desperately needed to help the National 
Park Service.
    The Cumberland Island Preservation Act takes steps in the 
direction of preserving our national historic treasures and 
proposes a more balanced approach to protecting all of the 
Cumberland Island's natural and historic resources.
    Thank you very much.
    [The prepared statement of Mr. Paxton may be found at end 
of hearing.]
    Mr. Hill. [presiding] Thank you, Mr. Paxton.
    I would urge all the witnesses to try to stay within the 5-
minute timeframe, and our next panelist is Mr. Barger.

STATEMENT OF DON BARGER, SOUTHEAST REGIONAL DIRECTOR, NATIONAL 
               PARKS AND CONSERVATION ASSOCIATION

    Mr. Barger. Mr. Chairman, members of the Subcommittee, I'm 
Don Barger, southeast regional director of the National Parks 
and Conservation Association. Since 1919, NPCA has been 
committed to the protection of all of the resources of the 
National Park System, both natural and cultural. We appreciate 
the opportunity to present our views.
    NPCA opposes H.R. 4144 because we believe that it would 
radically alter the vision for Cumberland Island National 
Seashore and undermine the ongoing process of this developing 
crown jewel. We oppose this bill because it essentially 
dismantles the wilderness on Cumberland Island to solve a 
problem that is not caused by wilderness.
    This bill is based on the notion that the presence of a 
wilderness area within the national seashore is responsible for 
the collapse of these historic structures. It is not. 
Wilderness is not the problem, and slicing it into fragments is 
not the solution.
    In 1982, Congress fully recognized the potential conflicts 
inherent with the creation of a wilderness area on the north 
end of Cumberland Island. The record is replete with statements 
that demonstrate that the current situation on the island was 
anticipated, and that a system of--for lack of a better term--
``evolving wilderness'' was put into place to accommodate valid 
existing rights of residency and vehicular access while those 
uses diminish over time.
    There's a lot of misinformation that has been put forward 
by proponents of this bill that others have assumed to be fact. 
I appreciate the very thoughtful article that was written by 
Mr. Paxton, which appeared in yesterday's Atlanta Constitution 
Journal, that Delegate Christian-Green referred to earlier, as 
it raises many of the central issues underlying this bill and 
provides the opportunity to clarify the record on some of these 
matters. I'd like to touch on just two of those.
    Central to the justification of this legislation is the 
belief that the buildings on Cumberland that have collapsed 
have done so because of the presence of wilderness. That is not 
the case. In fact, one of the principal examples used in the 
article to make that connection, the Dungeness-Pool House, is, 
in fact, many miles outside the wilderness area. More than 
anything else, the collapse of this building demonstrates that 
other forces than wilderness designation are obviously at play. 
A harsh marine environment and a lack of adequate funding are 
the culprits.
    Of the total special project funding received by Cumberland 
Island National Seashore since 1991, 80 percent has been spent 
on cultural resource projects. I do not believe that that 
constitutes neglect.
    The second misconception that is brought out by the article 
is the belief that, and I would quote, ``the maintenance 
problem is compounded by the fact that the National Park 
Service can't use its service vehicles on the Cumberland Island 
road to the historic sites.'' end quote. This is simply not so. 
Congress specifically authorized the Park Service to use 
vehicles for necessary maintenance, and they do so regularly. 
In fact, Mr. Paxton and I are two of a group of people 
comprised of island residents and others who have worked 
together to come up with an agreement in principle for 
vehicular access to Plum Orchard mansion so that it could be 
occupied and cared for in a public/private partnership. We were 
trying to move that concept forward when this bill was 
introduced and everybody went to their corners.
    H.R. 4144 would permanently remove from wilderness the 
Candler compound within the wilderness area as part of the 
proposed land exchange. The National Park Service has been 
looking at the possibilities of this exchange for the last 
several months. However, far from assisting that process, this 
legislation would make such a land exchange untenable by 
linking it to the removal of the road from wilderness 
designation and making the long-term impacts on the remaining 
wilderness unacceptable.
    NPCA supports the restoration of Plum Orchard, but the 
authority already exists to do that. We also support the lofty 
goal to inventory, identify, document, and preserve every 
archeological and historic site on the island. However, without 
the necessary funds to do the job, this provision, as written, 
constitutes an enormous unfunded mandate on the National Park 
Service and should probably be examined for its fiscal impact.
    Finally, NPCA cannot support the inclusion of the south end 
of the island in the wilderness system. In order to provide the 
visitor with a wilderness experience, wilderness should be as 
large as possible, contiguous, and unfragmented. While there 
are certainly natural and cultural resources on the south end 
of the island worthy of preservation, this can be accomplished 
under existing authority.
    In addition, while the legislation is being justified based 
on the inherent conflicts that were supposedly created by 
designing or designating wilderness with nonconforming uses in 
it, the proposal for the south wilderness area creates exactly 
the same situation that the remainder of the bill is allegedly 
designed to correct. Given this provision, we would question 
the effectiveness of a wilderness designation for the area.
    H.R. 4144 raises many important issues that do need to be 
dealt with at Cumberland Island, however, as currently written, 
this bill constitutes an attack on wilderness, and wilderness 
is not the problem.
    I appreciate your precious time this morning.
    [The prepared statement of Mr. Barger may be found at end 
of hearing.]
    Mr. Hill. Thank you, Mr. Barger.
    And our last panelist is Ms. Galetto, Galetto?

STATEMENT OF JANE MORTON GALETTO, PRESIDENT, CITIZENS UNITED TO 
      PROTECT THE MAURICE RIVER AND ITS TRIBUTARIES, INC.

    Ms. Galetto. My name is Galetto.
    Mr. Hill. Galetto; I apologize.
    Ms. Galetto. Oh, you're fine.
    Mr. Hill. Ms. Galetto.
    Ms. Galetto. Well, I hate to have to say this, but good 
afternoon.
    [Laughter.]
    I would like to thank the chairman and the members of the 
Subcommittee for allowing me this opportunity to speak to you 
today about a great proposal, H.R. 2125, a bill to reauthorize 
the New Jersey Coastal Heritage Trail. And I hope to beat that 
orange light to give you more time to vote in the affirmative 
for H.R. 2125.
    I'm the president of a watershed association in South 
Jersey, and I belong to a bunch of other boards and councils 
and you can read that in my written testimony.
    I would like to say that our group has been helped very 
much by the technical assistance which has been given to us by 
the National Park Service. As a matter of fact, our 
organization has been responsible for the designation of the 
wild and scenic rivers in the Maurice River Watershed, with the 
help of the U.S. Congress, of course.
    We have recently completed a film with the New Jersey 
Public Television, and that's called New Jersey Network. And we 
did that film with the technical assistance of the Park 
Service. The film was a montage of the images that make our 
area, the Delaware Bay Shore, so special--the natural history, 
the maritime history, agriculture, and architectural history. 
The staff's expertise kept this film grounded in fact and 
focused on the elements that they concluded to be of the 
greatest significance. This film received excellent support 
from media ranging from the Philadelphia Enquirer to the New 
York Times. The overwhelmingly positive response to ``Down 
Jersey'' demonstrates an interest by the general public in the 
cultural and natural arts and the coastal heritage of New 
Jersey.
    The National Park Service New Jersey Coastal Heritage Trail 
office served as a technical advisor on the film. It's going to 
be used in the Trail welcome centers.
    The kind of expertise that the National Park Service offers 
lends substance, depth, and immediacy to projects such as this 
one. Our organization can claim that something is special, but 
the Park Service's seal of approval shows the national 
significance of these types of projects.
    Other partnerships have also been productive with the 
Coastal Heritage Trail. Their offices lent their expertise to 
statewide eco-tourism workshops which we coordinated, and they 
have provided information on economic implications of visitors.
    Currently, we are joining with the State Historic 
Preservation office in the Trail to document the maritime 
heritage of the Bay Shore region. Most importantly, Trail 
office staff make themselves available to a wide array of 
private/public entities increasing each one's effectiveness 
individually while supporting the overall Heritage Trail route 
goals.
    The New Jersey Coastal Heritage Trail has played a major 
role in the interpretation and preservation of the wide range 
of significant cultural and natural resources in New Jersey 
while bringing national and regional attention to the State's 
important coastal resources. The Trail office coordinates 
interpretive projects, designs, produces wayside exhibits, 
provides technical assistance and training, and they're 
responsible for designating trail sites. They have assisted the 
New Jersey State Park System, the New Jersey Division of Fish, 
Game, and Wildlife, as well as several county park systems and 
numerous non-profits like ourselves.
    This site in New Jersey gives their support to the New 
Jersey Coastal Heritage Trail, as does a group called the 
Stockton Alliance, which is a group of corporate and 
conservation and environmental CEO's from all over the State. 
Some names that may be familiar to you at the national level 
would be New Jersey Audubon, DuPont, Mobil Oil, Jersey 
Conservation Foundation, Mannington Mills, and many others that 
are listed in the written testimony. So it's not just us 
butterfly netters that like the New Jersey Coastal Heritage 
Trail, it's everybody in New Jersey.
    Since 1994, they've multiplied their dollars that have been 
given to them using grants and in-kind contributions to carry 
out their mission. There is still a lot of work to be done and 
there are two more theme trails to complete.
    We hope your endorsement will propel this legislation forth 
to a speedy adoption. The reauthorization and funding of the 
New Jersey Coastal Heritage Trail established by H.R. 2125 are 
imperative if the National Parks Service is to maintain the 
momentum of the projects established to date.
    When it comes to telling the story, no one does it better 
than our National Park Service. The Coastal Heritage Trail 
route thoroughly and accurately interprets each destination, 
giving it meaning and establishing pride of place. By 
identifying the uniqueness of the New Jersey coastal line, they 
have truly helped to define our heritage. The Parks Service's 
Trail office has been of invaluable assistance to our 
organization and many others in heightening awareness about 
natural and cultural resources of New Jersey's coast.
    While Citizens United can state that our resources are 
nationally significant, it takes an agency like the National 
Park Service to substantiate these claims and make them part of 
the Federal record. Through the Park Service's validations 
citizens can more fully recognize and appreciate the role of 
their own special place in the overall fabric of America.
    [Laughter.]
    [The prepared statement of Ms. Galetto may be found at end 
of hearing.]
    Mr. Hill. Thank you, Ms. Galetto. Close.
    [Laughter.]
    Are there any questions from the members for these 
panelists?
    Mr. Faleomavaega. Yes.
    Mr. Hill. The gentleman is recognized.
    Mr. Faleomavaega. Mr. Chairman, I want to thank Dr. Payton 
for his statement and remarks this morning. I am sure and 
certain that Mr. Riley and the members of the staff will work 
very closely with our Committee staff to make sure that we iron 
out some of the provisions of the proposed bill concerning the 
Tuskegee historical landmark as you have eloquently stated 
earlier.
    Not wanting to take away from the subject, but to Dr. 
Payton, I also have another hero that probably many Americans 
may not realize that one of the greatest scientists ever to 
come out of Tuskegee University was none other than George 
Washington Carver--self-educated, never went to Harvard or any 
of the fancy universities, but from the peanut, as I recall, 
developed some very excellent by-products just from this plant 
or this peanut. George Washington Carver--and if you'll correct 
me, Dr. Payton--how many by-products or materials was he able 
to have gotten from this? And which really, in many instances, 
saved a lot of the economic hardships of the south because of 
what George Washington Carver did.
    Dr. Payton. Thank you very much. Please feel free to 
mention any other examples out of----
    [Laughter.]
    [continuing] Tuskegee you would like to. But you are 
absolutely right.
    George Washington Carver discovered over 300 products out 
of the peanut alone. He was truly a great man; he was, himself, 
born in slavery. He did, however, manage to find his way, 
through the assistance of sympathetic whites in the Midwest, to 
college. And he did graduate from Iowa State, and then went on 
to graduate school at Iowa State, became the first African-
American faculty member at Iowa State University. And I'm 
pleased to say that that university--which is a great one, 
too--also, along with Tuskegee, we are now developing for next 
year for a special centennial, a special celebration of the 
life of George Washington Carver.
    So I very much appreciate that reference.
    Mr. Faleomavaega. Dr. Payton, I sure hope that we might do 
something at the National Park Service of some kind of historic 
preservation of the life of this great American.
    Dr. Payton. I'd neglected to say that as a part of the--
Tuskegee is not only a great education institution, but it also 
is a treasure house of national gems. And one of those is the 
George Washington Carver Museum which, by the way, is run by 
the National Park Service.
    This will not be the first initiative on the part of the 
university and the Park Service. Tuskegee happens to be the 
only university campus in the country that's been designated by 
Congress as a National Historic Site with a unit of the Park 
Service actually administering it. So, the George Washington 
Carver Museum, along with the home that was built for the first 
president, Booker T. Washington, those were resources that the 
university gave to the government. The government renovates 
them; they maintain them.
    And one of the most interesting things is that last year, 
according to the Alabama Bureau of Tourism, the site that had 
the largest number of visitors in the State of Alabama was the 
Tuskegee Institute National Historic District and, 
particularly, the George Washington Carver Museum.
    Mr. Faleomavaega. Thank you, Dr. Payton. And, please, I 
don't want to make our other panelists feel that----
    Dr. Payton. Oh, please, you're doing fine.
    [Laughter.]
    Mr. Faleomavaega. [continuing] their testimony was any less 
important, but I just wanted to note that and certainly not 
taking anything away from the proposed legislation.
    And, Mr. Chairman, I really want to thank the members of 
the panel for their testimony, and hopefully we might be able 
to help some of the problems that we're faced with in the 
proposed bills.
    Thank you very much.
    Mr. Hill. Thank you.
    Ms. Christian-Green, do you have any questions for the 
panelists?
    Ms. Christian-Green. Just a comment, Mr. Chairman. Thank 
you for recognizing me. And I want to thank all the panelists 
for coming, and for Mr. Paxton and Mr. Barger, who spoke on 
behalf of H.R. 4144.
    As I said earlier, if we could resolve some of the issues 
that we've had before this Committee before, I'm sure that, at 
some point, we'll be able to resolve some of the issues with 
your bill as well.
    I want to, also, take this opportunity to welcome Dr. 
Payton and Mr. Magee, and I think this bill is an important one 
that represents a great history and a great legacy to this 
country. We've just celebrated the integration of the Armed 
Forces in this country. And the Tuskegee Airmen, as you've said 
in your remarks, had a great deal to do with that. And, 
additionally, it's a great way for us to continue to support 
one of our historically black colleges and universities which 
continue to educate and inspire our young people, many of whom 
come from my district, the United States Virgin Islands.
    Dr. Payton. Yes.
    Ms. Christian-Green. And I particularly want to point out, 
with great pride, that we have one of the Tuskegee Airmen was 
from the Virgin Islands, Henry Wilson, and our airport is named 
after him.
    Dr. Payton. Yes.
    Ms. Christian-Green. It has been recently renamed in his 
honor in St. Croix, which is the island on which I reside. So I 
want to thank you all for being here, and also thank the other 
panelists.
    Thank you, Mr. Chair.
    Mr. Hill. Thank you.
    If there are no other questions for this panel, then this 
panel will be excused.
    Dr. Payton. Thank you, Mr. Chairman.
    Mr. Hill. I would like to ask three members of panel two to 
return if they would. I apologize for not being here to ask 
questions of Mr. Budewitz and Mr. Robinson and Mr. Binkley.
    I want to thank the three of you for traveling all the way 
from Montana to get here. I thought it was a little unfair that 
you travel 18 hours, 9 hours each way, and then not have an 
opportunity to answer some questions.
    I just want to put on the record two points, and I asked 
Mr. Martinez about these, and I have since got the numbers. 
There are 76 miles of shoreline. The cabin sites face 6.37 of 
those miles, and there are 9,100 acres under management by the 
BOR there, and 150 of those acres comprise of the cabin sites. 
So, it's an incidental amount of land.
    Mr. Budewitz, one of the points that was raised by the 
Bureau of Reclamation in their testimony had to do with their 
effort to update the management plan for Canyon Ferry. And in 
your testimony you made reference to kind of a litany of 
history with regard to management plan. My question--and you 
might want to just comment on where we are with that management 
plan now--but has Broadwater County been consulted with regard 
to this management plan? Are you engaged in any active 
discussion with them about this management plan at this point 
in time?
    Mr. Budewitz. Not to my knowledge, Mr. Chairman.
    Mr. Hill. And in your testimony and earlier discussions 
we've had, you've indicated an interest on the part of 
Broadwater County to enter into some sort of a cooperative 
agreement with regard to the management of the White Cliffs 
Area and the Silos Area. Is that correct?
    Mr. Budewitz. Yes. The Broadwater County commissioners have 
historically been interested in doing that. They've made a 
number of inquires of the involved government agencies. At one 
time, fairly recently, within the last 2 years, the Broadwater 
County commissioners initiated an inquiry in cooperation with 
the Lewis and Clark County commissioners to take over 
management of the entire lake.
    They'll do almost anything within reason to accomplish what 
they've set out to accomplish, which is some economic 
development and some positive economic impact in Broadwater 
County, to the extent that they would be willing to take over 
at least portions of the management of the facility.
    Mr. Hill. So, in the testimony from BOR, they say they're 
actively looking for a non-Federal partner to manage resources 
at the lake. Broadwater County, evidently, doesn't fit the 
category of non-Federal partner, at least in terms of their 
engagement of you at this point.
    Mr. Budewitz. Apparently not. Mr. Chairman, my 
understanding of what has happened--and I've been involved in 
some of these discussion, not all of them--is that all of the 
inquires regarding management partnerships were initiated, at 
least within the last few years, by Broadwater County. A number 
of contacts have been made with both BOR and BLM, and while the 
local representatives of those agencies have indicated that 
they would be willing to discuss the matter further, the 
discussions always seem to end at some point because government 
agencies have no authority to make any commitments. And it gets 
to a certain level and simply stops.
    Mr. Hill. And Broadwater County is prepared and interested 
in actually putting some resources to this effort? I mean it's 
offered to make equipment available and those sorts of things 
to deal with some of the goals and objectives that you have?
    Mr. Budewitz. Yes, they are.
    Mr. Hill. The BOR justifiably criticized certain elements 
of my bill because I didn't designate how property would be 
sold, or rather what the proceeds might go for and that sort of 
thing.
    I have since made recommendations that 10 percent of the 
proceeds of the sale will go to pay down the Pick-Sloan debt; 
45 percent of the proceeds held in a trust fund for acquisition 
of lands in Montana, and also 45 percent to be retained for the 
purposes of investing in the fishery and the shoreline, 
investment in conservation upstream from the reservoir, as well 
as to provide access, with one-third of that 45 percent or 15 
percent being designated to deal with the objectives of 
Broadwater County here with respect to access.
    Would that distribution of funds be consistent with what 
the goals and objectives of Broadwater County are?
    Mr. Budewitz. I've only had a brief opportunity to review 
that proposal in your draft, but it appears to come very close 
to what the Broadwater County commissioners have been talking 
about in the past. And I suspect that this sort of a proposal 
would probably be satisfactory.
    Mr. Hill. With respect to this management plan, am I 
correct that BOR has been fiddling with this since 1993 when 
they regained responsibility to manage the reservoir?
    Mr. Budewitz. At least that far back. I don't know the 
history prior to 1993; that's when I first became involved in 
it. But I recall in early 1993, attending a number of hearings 
on a study that had been commissioned by BOR, BLM, and the 
State of Montana Department of Fish, Wildlife, and Parks at 
some time prior to that.
    The study was completed in early 1993. It was a draft 
management and environmental assessment. There were about $10 
million worth of improvements that were proposed in that plan 
over a 10-year period of time. The plan itself wasn't 
necessarily the--it wasn't exactly what the Broadwater County 
representatives were looking at, but it was close, and 
certainly it was enough to begin to form a good discussion 
starting point.
    Nothing ever happened, and that plan--which was about an 
inch and a half thick, as I recall, and I have a copy of it--is 
undoubtedly gathering dust somewhere. And that's what we fear 
when we hear about additional studies. These agencies are 
famous for studying things, but they're not very famous for 
getting things done. And that's the difficulty that we see when 
we look at this sort of proposal. I'm sure that Commissioner 
Martinez is sincere in saying that they would make sure that 
the study is completed by 1999, but we've heard that before. 
And even the completion of the study, itself, does not 
guarantee any results.
    Mr. Hill. Thank you, Mr. Budewitz.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I have just a 
couple of questions.
    Does the Canyon Ferry Recreation Association represent all 
the existing lessees at the reservoir area?
    Mr. Robinson. Mr. Chairman, do you want me to answer that?
    Mr. Faleomavaega. Well, whoever can respond.
    Mr. Robinson. As a representative of the Canyon Ferry 
Recreation Association----
    Mr. Faleomavaega. Mr. Robinson, for the record?
    Mr. Robinson. Yes.
    Mr. Faleomavaega. OK.
    Mr. Robinson. We represent probably 96 percent; they are a 
handful of people who do not, or are unable to pay their dues. 
But of the 265 lessees, approximately 260 to 261 are active, so 
that's, you know, nearly 99 percent.
    Mr. Faleomavaega. You indicated earlier, also, Mr. 
Robinson, about the 265 lessees come from all different walks 
of life?
    Mr. Robinson. Absolutely.
    Mr. Faleomavaega. The make-up of the 265 lessees--can you 
elaborate a little more on that?
    Mr. Robinson. I sure can. In terms of where they come 
from----
    Mr. Faleomavaega. I mean they're not all wealthy 
landowners?
    [Laughter.]
    Mr. Robinson. Absolutely not, in fact, if it wasn't for my 
brothers and I, my mother couldn't afford to keep the lease.
    If you look around the lake, these are people who are 
Helena, Montana residents, Butte, Anaconda, Bozeman, Deer 
Lodge, some from Havre, some from Billings. These are literally 
a cross-section of the people of Montana that they're not 
wealthy. They're not bankers; they're not all doctors, and I 
have personal perspective for that in that my wife's family has 
some property on Flat Head Lake, up in the northwest corner of 
the State, and we've seen an influx of people from California, 
Arizona, Canada, have come in. Price is absolutely no object up 
there, and the types of houses that are built up there are 
astronomical, where down at Canyon Ferry, we're talking about 
weekend retreats, weekend cabins that are family holdings that 
are not fancy at all.
    Mr. Faleomavaega. Among the 265 lessees, what is the price 
value of these cabins or these homes that are built?
    Mr. Robinson. I would say that probably on the low end, 
there's a few cabins out there that might be valued at $15,000, 
$20,000. I think at the upper end, there are a few people that 
might have a house that--and I think there's very darn few of 
them--that might be in the $80,000's to $90,000's. Maybe 
something might get up around $100,000, but I bet you there's 
less than a half a dozen of those. Most of them are probably 
$35,000 to $50,000.
    Mr. Faleomavaega. One of the concerns that was mentioned in 
Mr. Martinez' statement with the Bureau of--BOR, was the 
restrictive nature of the ability--let's say, for example, if I 
was from California and I want to buy into one of the leases. 
My understanding is that you have to have the agreement of the 
association before that individual or party can purchase that 
lease?
    Mr. Robinson. In terms of the bill, and also in terms of 
the Senate bill, what we tried to do originally was to ensure 
that the current cabin owners have the opportunity to purchase 
these cabins at fair market value, to make sure that the U.S. 
Government got their market value, and there was no sweetheart 
deal here.
    This was proposed in the Senate that there had to be a bid 
process, and in that process, as it got manipulated in the 
various bills, it was a bid process for the entire parcel. And 
we were proposing that, if that's the case, Canyon Ferry 
Recreation Association would bid on the entire parcel; 
individuals would then, subsequently, purchase from the Canyon 
Ferry Recreation Association.
    Mr. Faleomavaega. If the association were to bid, do you 
mean, then, the lease is going to be owned by the association?
    Mr. Robinson. The lease would be--the provision of the bill 
indicates that if the individual, the lessee, does not want to 
purchase, the Recreation Association, or the trust--the 
property would go to the trust, and that the individual would 
continue leasing from the trust for the duration of the current 
lease.
    Mr. Faleomavaega. So, it's strictly an economic--I mean 
whoever can afford it can go there and make an offer, but then 
the association also matches the offer for whatever reasons. It 
just strikes me that it's somewhat very restrictive.
    Mr. Robinson. Well, we originally proposed the bill with 
the idea that the people who are currently on the land wouldn't 
be forced off the land.
    Mr. Faleomavaega. Sure.
    Mr. Robinson. And that they had the right of first refusal 
so that they could--if they could afford it--stay on the land.
    Mr. Faleomavaega. I see. And how many people, 
approximately, are involved in this whole lease arrangement? 
The 265 homes tells me families, but how many people are 
involved in this?
    Mr. Robinson. Well, I suspect that if you----
    Mr. Faleomavaega. Men, women, and children.
    [Laughter.]
    Mr. Robinson. Men, women, and children--I'll bet you could 
fairly multiply the 265 by maybe an average of 20 to 25 per 
cabin site; 265 times 25, that's how many people have direct 
interest in these cabins.
    But then you can start talking about cousins----
    [Laughter.]
    [continuing] uncles, aunts, and that number starts 
expanding geometrically.
    But in the Helena community, the Canyon Ferry cabins are, 
in fact, a resource in and of themselves. I worked for State 
government all over the place; we had office parties there. My 
brother worked at Carroll College; Carroll College would have 
their annual picnic out there.
    Mr. Faleomavaega. Well, let me--I know you mentioned that 
earlier, Mr. Robinson, but I was curious, also--the Canyon 
Ferry--I call it ``reservoir,'' you call it ``recreation 
area.''
    Mr. Robinson. It's a reservoir.
    Mr. Faleomavaega. The reservoir is owned by the Federal 
Government?
    Mr. Robinson. Absolutely.
    Mr. Faleomavaega. And it's on a lease basis by these 265 
families?
    Mr. Robinson. We're currently leasing those----
    Mr. Faleomavaega. Lessees; OK. Is it possible that these 
number of lessees could expand beyond the 265?
    Mr. Robinson. Not with this bill. But if the Bureau of 
Reclamation or Congress directed that it could----
    Mr. Faleomavaega. Can the BOR allow more--other families to 
buy leases and be part of the area?
    Mr. Robinson. Open up more lease land?
    Mr. Faleomavaega. Yes.
    Mr. Robinson. I think so. If I'd refer you to the map, 
Congressman, if you look at that dark shaded area, then, on the 
north end----
    Mr. Faleomavaega. Yes.
    Mr. Robinson. That is the only land that we're talking 
about. The Bureau of Reclamation owns the entire shoreline. The 
rest of the 76 miles around that lake, and all of the rest of 
that lake, is just like the part that has the cabins on it. So 
if the Bureau of Reclamation decided they wanted to do that, 
they certainly could.
    Can I have Mark--can you show you the other map? I think 
this is a----
    Mr. Faleomavaega. So, you're only talking about maybe, 
what, one-fifth of the entire lake, reservoir?
    Mr. Robinson. We're talking about 154 acres versus 9,000 
acres of----
    Mr. Faleomavaega. This is a very large reservoir. What's 
the total acreage of the reservoir, if I may ask?
    Mr. Robinson. Oh, boy. I can't tell you the total acreage. 
It's 26 miles long.
    Mr. Faleomavaega. Oh, OK.
    Mr. Robinson. Then at the wide spot down on the other end, 
it's about five miles across. At this end, it's about a mile 
across.
    Mr. Faleomavaega. What's the deepest portion of the----
    Mr. Robinson. Right down by the dam, approximately 230 
feet.
    Mr. Faleomavaega. Deep?
    Mr. Robinson. Deep.
    Mr. Faleomavaega. My, gosh.
    Mr. Robinson. Yes. If you'd look at this map, the purple--
one of the points I wanted to make--there was earlier testimony 
that these are scattered parcels. That earlier picture showed 
that they were pretty much bunched up in one area. OK. The 
first three miles from the dam is public--I mean there aren't 
cabin sites there; those are loaded with public recreation 
opportunities there. And then the cabin sites pick up, and this 
larger maps shows the cabin sites. And if you notice, the 
purple is the cabin site area, and the green is the shoreline, 
and the rest of the Bureau of Reclamation land in that area. 
You notice, none of these cabin sites are lakeshore cabin 
sites. They're all lake access sites. And as part of the lease, 
it's guaranteed that the public has access to the lakeshore.
    Mr. Faleomavaega. How long has the BOR been making this 
study that's supposed to be completed by next year?
    [Laughter.]
    Mr. Robinson. I think it's been--in fact, in exhibit E of 
our packet, I've got a copy of the 1993 management plan. And 
they were working on it back in the 1980's sometimes. Here 
you've got 1993, and it's not done yet.
    Mr. Faleomavaega. So, this is almost a what? A 10-year 
study of----
    Mr. Robinson. At least.
    Mr. Faleomavaega. Or was it the State was managing it 
before that?
    Mr. Robinson. The State managed the property, I think, from 
about the mid-1960's through 1993 when----
    Mr. Faleomavaega. Oh, 1993?
    Mr. Robinson. [continuing] when they couldn't----
    Mr. Faleomavaega. So, just now the Federal Government has 
gotten into the management aspects?
    Mr. Robinson. Again.
    Mr. Faleomavaega. Since 1993?
    Mr. Robinson. Yes. They have----
    Mr. Faleomavaega. But before that the State has been 
managing it for some 20 years before that?
    Mr. Robinson. That's correct.
    Mr. Faleomavaega. Oh, OK.
    Mr. Robinson. And one of the reasons why we're here today 
is problems have magnified since the re-takeover and Inspector 
General's report and some of the positions that Bureau of 
Reclamation has taken.
    Mr. Faleomavaega. Can you bring out that other map again? 
Again, real quickly, Mr. Chairman?
    You have stated that, Mr. Robinson, that you're talking 
only about that portion which is darkened? Yes, that's what 
we're discussing.
    Mr. Robinson. That's all the----
    Mr. Faleomavaega. The 265 lessees are in that darkened 
portion?
    Mr. Robinson. That's correct.
    Mr. Faleomavaega. OK. And there's been no plans whatsoever 
to say that, say, other lessees or leases could also be worked 
up along the banks of the reservoir?
    Mr. Robinson. No; we haven't proposed that, and that's 
really a prerogative of the Bureau of the Reclamation and 
Parks.
    Mr. Faleomavaega. Will there be any objection on the part 
of your association if--and I'm only speculating--if the BOR 
decided that maybe they want to add more leases along the 
reservoir?
    Mr. Robinson. I don't think Canyon Ferry Recreation 
Association would have any problem with that.
    Mr. Faleomavaega. I'm just being hypothetical. I don't know 
what they'll do.
    Mr. Chairman, thank you very much.
    Mr. Hill. Thank you. Good set of questions.
    Let me just respond. I think there would be great 
controversy among some recreation users and some conservation 
groups if BOR decided to expand the number of leaseholders----
    [Laughter.]
    [continuing] on the land. And I want to make clear, it's 
not our intention to do that.
    I would also draw the gentleman's attention--you know, this 
map doesn't actually show how the lake is distributed. The dark 
area is the north end of the lake, and the large area at the 
bottom is the south end of the lake. But 80 percent of that 
lake is in Broadwater County. And Townsend rests--which would 
be to the right over here off the map--Townsend, which is the 
county seat of Broadwater County rests there, and the residents 
of that community have to drive 30 miles or more to moor a 
boat. And yet they can see the lake from the community. And 
that's part of what this is about.
    That south end of the lake--or on the right down there--is 
very, very exposed to wind. And you can get three, four-foot 
waves down there, and they come up instantly----
    Mr. Faleomavaega. You could even surf on three-foot----
    [Laughter.]
    Mr. Hill. There's a lot of wind surfing there. I can tell 
you, it's a very popular area for that.
    Mr. Faleomavaega. Where is that--and I'm sorry, Mr. 
Chairman. I didn't mean to--but where is the Sloans Dam, the 
Sloans-Pick Dam? Is it anywhere near?
    Mr. Hill. Yes, right down--right in that section there at 
the left end.
    Mr. Faleomavaega. And what have we done with the poor 
Indian tribes that were promised, also, a lot of things after 
the construction of that Sloan Dam? What are we, in the 
situation with Native American tribes, along that reservoir? Is 
there any problem? Is their reservation quite a distance from 
the reservoir?
    Mr. Hill. Yes. There are no reservation boundaries close to 
this dam at all.
    Mr. Faleomavaega. But the only thing remaining is the fact 
that what was promised to the Native tribes in that Sloan Dam 
has never been--they've been restitutioned, if that's a proper 
way to----
    Mr. Hill. If the gentleman would yield--I have two other 
bills to deal with, reservoirs on the Missouri River that will 
deal with water rights, compacts, and distribution of water. 
And I certainly welcome the support of the gentleman on that 
legislation.
    There is no problem here with regard to water rights or 
conflict with regard to water rights with respect to any of our 
Montana Native American groups.
    Mr. Faleomavaega. I appreciate the gentleman's statement. I 
was just concerned. I was up there some time some couple of 
years ago, and the only thing that was very sharp in my mind 
was the fact that the Federal Government, it was not the State, 
the Federal Government built this Sloan Dam with the promise 
that these Indian tribes would give up some of the most 
precious agricultural lands for the sake of the Federal 
Government building the dam. We built the dam, and the poor 
Indians really got stuck with nothing.
    Mr. Hill. Well, substantially that's what happened to 
Broadwater County in this instance. They gave up 36 
extraordinarily valuable ranches and farms. The area that's 
below this reservoir was some of the most productive farmland 
in that county. And those families, of course, were displaced, 
but also that tax base was displaced, and income was displaced. 
And over all these years, there's never been an opportunity for 
the people on that end of the lake to get any economic benefit 
from this. As a matter of fact, the water goes to the city of 
Helena. In Lewis and Clark County, it is part of the source of 
the water supply. And there has been some benefit on the Lewis 
and Clark side. And interestingly, when these lots are sold, 
Lewis and Clark will put these lots back onto the tax base of 
Lewis and Clark County--which is incidentally my home county. 
But Broadwater County, again, will not be beneficiary.
    That's why I am with the bill that I've proposed; I've 
suggested that about 15 percent of the proceeds here be set 
aside for fulfilling the promise that was made to Broadwater 
county that will give them some access down there--usable 
access. And Broadwater County is prepared to enter into a 
cooperative agreement with the government to manage it. It just 
seems like that's a win-win proposition for all.
    Mr. Faleomavaega. Well, I would say, Mr. Chairman, I would 
be the last person to second-guess the integrity and the 
character of my good friend from Montana, since he certainly is 
a lot more of the expert than I or any of the other members of 
the Committee would have, especially specifically on the 
proposed bill that the gentleman now has before the 
Subcommittee. But I sincerely hope that his staff and our 
Committee staff will be able to go through some of the problems 
that we're faced with. And like I say, there's a problem and 
we've got to find the solution, and that's always the way I 
feel. And I sincerely hope that we should be able to work this 
thing out.
    Mr. Hill. I thank the gentleman.
    Mr. Faleomavaega. Thank you. I thank the gentleman, and I 
want to thank our good friends who have traveled all the way 
from Montana to come and testify this afternoon.
    Mr. Hill. And I, too, want to thank the panelists whose 
excellent testimony will be very valuable to the Committee. And 
thank you for making this trip. And I apologize, again, for the 
inconvenience of having to sit twice----
    [Laughter.]
    [continuing] before the Committee. I thank my Ranking 
Member, and the panel is excused.
    [Whereupon, at 12:33 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Eluid L. Martinez, Commissioner, Bureau of Reclamation, 
                       Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for 
the opportunity to provide the Administration's views on H.R. 
3963, legislation to establish terms and conditions under which 
the Secretary of the Interior shall convey leaseholds in 
certain properties around the Canyon Ferry Reservoir in 
Montana. The Bureau of Reclamation supports efforts to improve 
public access to rivers and lakes throughout the west. However, 
H.R. 3963 would grant exclusive private use of lake front 
property at Canyon Ferry Reservoir to a few beneficiaries, 
would foreclose future use of the land for project or other 
purposes, and could lead to a loss in future Federal receipts. 
The bill also would make management of the land at Canyon Ferry 
more difficult, without reducing the need for future Federal 
expenditures. In addition, H.R. 3963 is unclear on several 
critical questions of intent and procedure. Moreover, we do not 
believe there is a need for this legislation given that 
Reclamation and the Canyon Ferry Recreation Association (CFRA) 
recently agreed on a key issue concerning rental fees. For 
these reasons, the Administration strongly opposes H.R. 3963.
    H.R. 3963 would direct the Secretary of the Interior to 
sell at fair market value all right, title and interest of the 
United States to leaseholds for the 265 cabin sites at Canyon 
Ferry Reservoir in Montana, along with easements for vehicular 
access to the leaseholds, docks, and boathouses. The leaseholds 
and easements would be sold by auction, with the minimum bid 
established by the Secretary and based on a fair market 
appraisal, excluding the value of improvements made to a site. 
As drafted, it is unclear whether H.R. 3963 contemplates 
individual auctions for each leasehold or intends that all 265 
be sold to a single purchaser.
    Under H.R. 3963, the Canyon Ferry Recreation Association, a 
Montana corporation, would have the right to match any bid 
received and purchase the leaseholds. Any purchaser would be 
required to offer to sell to existing leaseholders the 
leasehold for fair market value. It is important for the 
Committee to understand that CFRA is a relatively small group 
of beneficiaries of this project that does not represent all 
taxpayers, all beneficiaries of the project, or even all 
existing lessees at Canyon Ferry Reservoir.
    Mr. Chairman, the Canyon Ferry Unit was authorized and 
constructed by the Bureau of Reclamation as a part of the Pick-
Sloan Missouri Basin Program as a multiple purpose project for 
irrigation, recreation, and hydroelectric power and it is 
Reclamation's role to balance these competing demands for the 
resources. Canyon Ferry Reservoir was formed when the Canyon 
Ferry Dam was completed in 1954. Reclamation and the State of 
Montana were land managing partners for 37 years until 1994, 
when the State terminated its role. Most of the cabin site 
permits were originally issued in the late 1950's, and lessees 
were given the option to renew the leases every 10 years.
    Reclamation and the Bureau of Land Management now share the 
land management responsibility, except for the task of 
administering the cabin site leasing program which is 
exclusively Reclamation's responsibility. The 265 cabin sites 
occupy scenic lakeshore areas around the northern end of the 
reservoir. The lot sizes vary from .2 acre to 1.4 acres, with 
the average size about \1/2\ acre. These sites are 
unconsolidated scattered tracts within the reservoir lands. 
There is no large block of consolidated sites.
    In the last few years, there has been controversy 
surrounding the rental fees at Canyon Ferry. The controversy 
centers on attempts to determine and charge fair market value 
for rental fees. Under 43 CFR Part 429.6(f), Reclamation is 
required to collect fair market value for the right to use 
Reclamation project lands. In 1986, the State raised the rental 
fees to approximately 1/3 of the then fair market value. The 
fees remained unchanged until 1995 when Reclamation raised the 
fees based on an increase in the Consumer Price Index. 
Reclamation also initiated an independent appraisal in 1995 to 
determine a new fair market value. Presently the cabin lessees 
are paying an average of about $1,000 per site per year, 
significantly less than the fair market value of $2,701 
determined in the 1995 appraisal.
    Reclamation committed to phase in a rate increase over a 
five year period beginning in 1997. However, the CFRA 
challenged the 1995 appraisal through the Department of the 
Interior's Office of Hearing and Appeals. CFRA had conducted a 
second appraisal which showed the value of the leases to be 
about 60 percent of that indicated in Reclamation's appraisal. 
That appraisal amount is still about 1.5 times the amount which 
had been collected prior to 1997. While Reclamation believes 
that the 1995 appraisal was properly conducted and accurately 
reflected the current market price, Reclamation, for the sake 
of goodwill and improving relations, recently agreed to a 
settlement with CFRA whereby Reclamation and CFRA would 
collabo-

rate and conduct a third appraisal. It was agreed that the 
findings in the third appraisal will be the new basis for the 
fee increase. With this settlement, Reclamation and the cabin 
site lessees are working together to set fair and acceptable 
rental fees. As such, no current controversy exists that 
requires legislation.
    Not only is the legislation unnecessary, it is not clearly 
drafted. As mentioned above, the bill is ambiguous as to 
whether the sites will be sold individually or in one bundle. 
In addition, H.R. 3963 is very unclear as to exactly what the 
Secretary is directed to sell and what, if anything, might 
remain in the hands of Reclamation. H.R. 3963 provides for the 
sale of the ``leasehold'' for these sites. While the bill fails 
to provide a definition of leasehold, it appears to be 
something less than fee simple title.
    Canyon Ferry Reservoir, one of the most scenic and popular 
flat water recreation areas in Montana, is located within two 
hours of the four largest cities in Montana. The area is 
already overcrowded during peak visitation periods at several 
campgrounds and day-use areas. This legislation could 
exacerbate this situation by reducing the public access to 
additional areas of this reservoir in the future.
    We are concerned that if the intent of H.R. 3963 is to sell 
the leaseholds only, Reclamation's role would shift from that 
of a public agency managing public land, to that of a public 
agency managing private leaseholdings. If it is the intent of 
H.R. 3963 to sell the cabin sites on a fee simple basis, then 
Reclamation's role changes to that of a public agency managing 
private inholdings in public lands.
    Further, actual or effective private fee simple ownership 
of these lands would complicate administration and management 
of the Canyon Ferry Project. The legislation would likely 
exacerbate existing difficulties around such issues as lake 
fluctuations, land use, and water quality concerns related to 
septic systems. In the past, lessees of cabin sites have 
complained about degradation of scenic qualities when the lake 
level declined due to operational constraints. Given that 
Canyon Ferry is a multipurpose project, we are concerned that 
this legislation could lead to an increase in disputes and 
hamper Reclamation's ability to balance operations at Canyon 
Ferry reservoir for all the authorized project purposes, 
especially in dry years.
    The bidding process proposed in H.R. 3963 is inequitable 
and is unlikely to result in a bid that is higher than the 
minimum required. Section 4(c)(3) would give to the Canyon 
Ferry Recreation Association a preference over anyone else. If 
someone other than the CFRA is the highest bidder, CFRA would 
have the right to match the highest bidder and purchase the 
leasehold, thereby providing little incentive for anyone but 
CFRA to submit a bid.
    In addition, Section 4(d)(1)(A) would reduce any incentive 
to bid up the price above the minimum appraised price by 
requiring the successful bidder if it is other than CFRA to 
offer each of the existing lessees an option to purchase their 
leaseholds at the fair market value, which is the minimum bid 
required under this Section. Any bidder offering more than the 
minimum would lose money if the individual lessees take the 
option to purchase the leasehold.
    Furthermore, Section 4(c)(2) provides that a minimum bid 
will be set ``in consultation with interested bidders.'' It is 
unclear why interested parties should be invited into the 
process of making an objective determination of fair market 
value by a third party appraiser. This appears designed to skew 
the process.
    Reclamation plans to seek a non-Federal managing partner to 
manage the recreation opportunities and lands at Canyon Ferry. 
Reclamation law provides for such managing partners to be able 
to utilize user fees and other receipts from the use of the 
public lands that they manage to operate and maintain existing 
facilities, and to enhance public recreation or fish and 
wildlife benefits. Without the revenues generated by the cabin 
site leases, the ability to attract a managing partner would be 
significantly diminished. This will result in the need for 
continued Federal appropriations for recreational management.
    In addition to those issues raised above, Reclamation has a 
number of technical concerns I would like to briefly highlight:

    (1) The legislation fails to address who will pay for 
maintenance activities that Reclamation is currently paying for 
such as road maintenance and law enforcement once the 
leaseholds are granted or the fee simple titles to the lands 
are sold. The County should bear some responsibility for these 
costs, especially if the County is able to secure tax revenues 
as the result of the lands becoming subject to local taxes. It 
is unclear how local tax revenues would be generated from the 
leaseholds if the United States will continue to own the lands 
at Canyon Ferry.
    (2) Under the existing arrangement at Canyon Ferry, 
licenses for boat docks are currently issued to cabin site 
lessees, but not to private landholders on other areas of the 
lake. If the cabin sites were sold, the question of whether to 
issue licenses would have to be addressed. H.R.3963 is silent 
on the issue of boat dock licenses.
    (3) Section 1(1) presents as a finding that it is in the 
interest of the Secretary to reduce the Pick Sloan project debt 
for the Canyon Ferry Unit. Yet, the bill does not provide for 
any debt reduction.
    (4) Section 1(3) says the sale of leaseholds will reduce 
Federal payments in lieu of taxes. If fee simple title is not 
granted to the purchasers, payments in lieu of taxes (PILT) may 
continue to be required. If it is fee simple title that is to 
be auctioned, then the legislation should explicitly state that 
PILT payments will be discontinued. If it is only the leases 
that are to be sold, then absent legislative language, PILT 
payments would likely continue to be paid by the United States. 
In either case, it is not clear why PILT should continue.
    (5) Section 1(2) presents a finding that the legislation 
would ``provide a permanent source of funding for projects that 
develop and maintain public recreation and that conserve and 
enhance fish and wildlife opportunities in the State of 
Montana.'' As drafted, H.R. 3963 includes no such provisions.
    (6) Section 3(2) would extend the benefits of the 
legislation to parties who do not hold a current lease and may 
not have legal claim to the use of the cabins.
    (7) Section 3(4) exclude the CFRA from the provisions 
applying to the ``Purchaser.'' However H.R. 2963 otherwise 
considers the CFRA as the entity that is most likely to 
purchase the leaseholds. This creates significant ambiguities 
and needs clarification.
    (8) The issue of liability is not addressed. If H.R. 3963 
proposes that it is fee simple title that is to be auctioned, 
then all liability for this land should be conveyed to the 
purchasers. If only the lease is to be auctioned, as we believe 
the bill to currently read, then unless otherwise stated, the 
liability remains with the United States--thereby eroding 
whatever benefit is to be gained for the United States in this 
legislation.
    (9) Section 4(c)(2) requires an appraisal in order to 
establish the minimum bid. However, it does not state whether 
it would appraise the properties as a block or separately; nor 
whether it would include contiguous parcels.
    (10) Section 4(b)(1)(B) calls for small parcels contiguous 
to the leaseholds to be conveyed in order to eliminate 
inholdings and facilitate administration of surrounding land 
remaining in Federal ownership. The bill assumes that the 
Secretary and the purchasers will be able to agree on each of 
these parcels. A public process should be undertaken to 
determine the size and shape of these parcels. Also, the fair 
market value of these areas should be determined.
    (11) Section 4(d)(1)(B)(ii) says that the purchaser shall 
compensate the lessee for the ``full'' market value of the 
improvements. It is not apparent whether the term ``fair'' 
should be substituted for ``full'' as occurs throughout the 
bill.
    (12) H.R. 3963 should be clarified to ensure that it does 
not intend to convey the subsurface (mineral) rights.
    Again, Mr. Chairman, while we appreciate the interest of 
this Subcommittee and the Montana delegation, we strongly 
oppose H.R. 3963 and do not believe this legislation is 
necessary.
                                ------                                


   Statement of Tom Fry, Deputy Director, Bureau of Land Management 
                          concerning H.R. 3950

    Mr. Chairman and Members of the Subcommittee, I appreciate 
the opportunity to testify on H.R. 3950, the Otay Mountain 
Wilderness Act of 1998. First of all, I want to commend the 
bill's sponsor, Congressman Brian Bilbray (R-CA) for 
introducing this legislation and for recognizing the uniqueness 
of the area and its many outstanding natural resources. I also 
want to acknowledge his efforts and the efforts of the many 
organizations in San Diego who are jointly working to try to 
resolve the future land management of the Otay Mountains.
    The bill would designate 18,500 acres of the Otay Mountain 
area in eastern San Diego County, adjacent to the U.S.-Mexico 
International Border, as Bureau of Land Management (BLM) 
wilderness. The Otay Mountains are located in an extremely 
unique and diverse area of the country. The area is important 
to the San Diego area's ongoing habitat conservation 
initiatives which the Department strongly supports. BLM's 
current management role in this area, however, is a delicate 
balancing act and routinely faces unusual challenges. We are 
fully committed to appropriate, long-term protection for the 
magnificent lands currently in Wilderness Study Area (WSA) 
status in the Otay Mountains. We also, however, are confronted 
with the reality presented by the challenges of drug 
interdiction, border patrol enforcement, undocumented 
immigrants and wildland fire protection issues prevalent in the 
area.
    BLM currently manages the Otay WSAs to preserve and 
maintain their wilderness character. We support their continued 
protection and would support wilderness designation if the 
exemption for certain management activities within the 
wilderness in Section 6(b) is eliminated. As written, the 
current language in Section 6(b) of H.R. 3950 would allow all 
law enforcement and fire management actions to occur without 
regard to the wilderness designation or the 1964 Wilderness 
Act. Other non-conforming activities would also be permitted. 
We would strongly oppose any language which would in any way 
undermine the integrity of the 1964 Wilderness Act. 
Accordingly, we recommend revising Section 6(b) to recognize 
the ongoing drug interdiction, border operations and the need 
to allow these activities to continue as long as they are in 
accordance with the provisions of the 1964 Wilderness Act and 
subject to appropriate conditions as determined by the 
Secretary of the Interior. We believe this will allow the Drug 
Enforcement Agency and other law enforcement agencies working 
along the Southwest border to continue their efforts in the 
area. The area designated as wilderness by this bill does not 
include any of the roads or motorized access routes currently 
used by the Department of Justice (DOJ) in its current border 
operations. In addition, section 4(c) of the Wilderness Act 
allows us to manage wilderness areas so as to protect the 
health and safety of visitors. Certainly we view drug 
interdiction and law enforcement operations as falling under 
that authority. We are currently managing this area as a WSA, 
with management restrictions very similar to those required of 
a wilderness area. We have worked closely with DOJ to enable it 
to carry out its important mission while still protecting the 
natural resources of the area. We fully expect this inter-
agency cooperation to continue after wilderness designation. We 
would be pleased to work with the Committee to develop 
appropriate language in this regard.
    In order to better understand the vast array of public land 
management issues in this beautiful, yet arid area, a 
discussion of certain aspects of its history and resources is 
useful. The Otay Mountains has long been recognized by the 
public as a unique ecosystem. As early as 1962, the Secretary 
of the Interior created the Otay Mountain National Cooperative 
Land and Wildlife Management Area. Management direction for the 
area has focused on conservation of the area's flora, fauna, 
ecologic, geologic, cultural and scenic values as well as the 
protection of wilderness values. In the 1980's, BLM established 
the Western and Southern Otay Mountain WSAs and, with strong 
public support (including a 1982 resolution from the San Diego 
Board of Supervisors), ultimately recommended a large portion 
of the WSAs as wilderness.
    In addition to its natural attributes, the area has 
opportunities for solitude, open space and primitive 
recreation, and possesses nationally signifcant biological 
values. These include stands of rare Tecate Cypress and 15-20 
other sensitive vegetative species. The proposed wilderness 
contains an Area of Critical Environmental Concern which was 
established by BLM with strong public support for the 
protection of the only known population of the Mexican flannel 
bush, for pristine stands of riparian woodlands, and for the 
only known stand of Tecate Cypress in the U.S. In addition, the 
City of San Diego has identified the region as a ``core 
reserve'' in open-space planning and the California Department 
of Fish and Game, and local universities have had a long 
interest in studying and monitoring the Otay Mountains' flora 
and fauna. Wilderness designation would secure a unique 
ecosystem in the National Wilderness Preservation System.
    In the last few years, however, the area has experienced 
extensive resource damage as a result of undocumented 
immigrants attempting to cross through the region. In addition, 
an October 1996 wildfire inflicted considerable short-term 
damage. However, with close coordination and onsite work among 
the BLM, California Department of Forestry and Fire Protection, 
the Border Patrol, the City, County, and other interests, a 
dramatic reduction in illegal traffic has occurred and the area 
appears to be rehabilitating itself.
    Although I have noted the potential benefits of wilderness 
designation, I now want to discuss an alternative approach for 
the long-term future of the Otay Mountains. We suggest the 
Committee explore designating the area and certain other public 
lands located to the East and North as a National Conservation 
Area (NCA). This approach would need further review and 
development between the BLM and the public to identify those 
lands suitable for inclusion within the NCA. However, it may be 
the best long-term solution to address both the unique 
management challenges within the broader regional area and the 
need to protect its valuable resources. Such an NCA designation 
could provide management flexibility for a much broader expanse 
of public land than the narrowly focused wilderness 
designations addressed in H.R. 3950. Also, an NCA designation 
for a larger region could include specific management 
prescriptions including mineral and land withdrawals, which 
would be designed to protect significant resources, and 
specific management directives for drug interdiction, border 
operations, and fire management. Wilderness designations within 
the NCA boundary could still occur in conjunction with the NCA 
designation. As such, the NCA designation could prove a more 
viable long-term approach to management of the Otay Mountains 
as it would address a broader region than the current bill 
while also providing a more comprehensive array of tools for 
dealing with the area's unique resources and management 
challenges.
    This concludes my statement and I would be glad to answer 
any questions.

   Statement of Tom Fry, Deputy Director, Bureau of Land Management 
                          concerning H.R. 4287

    Mr. Chairman and Members of the Subcommittee, I appreciate 
the opportunity to testify on H.R. 4287, the Grand Staircase-
Escalante National Monument Boundary Adjustments Act. 
Representative Cannon's bill would make relatively minor 
boundary adjustments in the vicinity of four Utah communities 
which are adjacent to the Grand Staircase-Escalante National 
Monument. The bill also would convey Bureau of Land Management 
(BLM) lands outside the Monument to the State of Utah for the 
purposes of enlarging the Kodachrome Basin State Park and 
designate a utility corridor along U.S. Route 89 in Kane 
County, inside the Monument.
    Attached to our testimony is a set of maps illustrating 
what we believe reflects the boundary adjustments depicted by 
the larger detailed map referenced in this bill. It was our 
mistaken impression that the utility corridor designation in 
Section 4 of the bill only applied to BLM-managed public lands 
and/or lands within the Monument. Upon further, more 
comprehensive review, it is clear that the language as written 
would affect lands within the Glen Canyon National Recreation 
Area and Forest Service lands. The utility corridor designation 
language should be modified to specify that it applies only to 
BLM-managed public lands. Assuming that the attached maps do 
reflect the boundary adjustments and conveyances proposed in 
H.R. 4287, and the modification to the language designating the 
utility corridor is made, we support enactment of the 
legislation.
    While the Administration does not believe a boundary 
adjustment is necessary, Secretary Babbitt, during a recent 
hearing on the State of Utah Land Exchange bill, agreed to 
consider technical boundary adjustments to the Monument. I 
would like to commend the Subcommittee staff for their 
cooperative spirit in working with the Department to revise 
H.R. 4287 in a manner which is acceptable to the 
Administration. The benefits of working together, which we saw 
beginning in May with the signing of the Utah Land Exchange 
Agreement by the Secretary and the Governor of Utah, continues 
today and is embodied in this bill. The bill would modify the 
boundary of the Monument in a good faith attempt to resolve a 
number of issues of concern to local citizens and their 
representatives. The bill takes a common sense approach to 
making boundary adjustments and conveying public lands for 
worthy public purposes consistent with the Recreation and 
Public Purposes Act.
    The parcel known as Henrieville Town Exclusion in Garfield 
County, Utah, would provide additional public land to the town 
for growth and development purposes and excludes utility lines 
and a highway from the Monument. Removal of the parcel known as 
Cannonville Town Exclusion, in Garfield County, Utah, would 
exclude the town's water supply system and water lines from the 
boundaries of the Monument. The parcel known as Tropic Town 
Exclusion provides some additional land for the Tropic Valley 
School. The parcel known as Boulder Town Exclusion removes a 
minor trespass from the Monument. The conveyance of public land 
to the Kodachrome Basin State Park, Utah, would expand the park 
by 875 acres and would be done in accordance with the 
Recreation and Public Purposes Act. The bill would also modify 
the boundary to add BLM land to the south of the Monument in 
the Big Water area.
    I commend the Subcommittee for its willingness to work with 
the Department and BLM to address these minor changes to the 
Grand Staircase-Escalante National Monument boundary. We are 
pleased, for example, that the bill has been revised to allow 
the parcel known as the Upper Valley Oil Field to remain in the 
Monument. The BLM remains committed to the mandate of the 
Presidential Proclamation which recognizes valid existing 
rights within the Monument. The operation of these oil wells 
can be successfully managed by BLM on public lands in the 
Monument and we look forward to demonstrating that as we plan 
for the future management of this valuable national treasure.
    Thank you for allowing me to testify regarding this 
legislation and I would be happy to answer any questions you 
may have.

[GRAPHIC] [TIFF OMITTED] T0836.034

[GRAPHIC] [TIFF OMITTED] T0836.035

[GRAPHIC] [TIFF OMITTED] T0836.036

[GRAPHIC] [TIFF OMITTED] T0836.037

[GRAPHIC] [TIFF OMITTED] T0836.038

[GRAPHIC] [TIFF OMITTED] T0836.039

[GRAPHIC] [TIFF OMITTED] T0836.040

    Statement of Katherine Stevenson, Associate Director, Cultural 
    Resources Stewardship and Partnerships, National Park Service, 
            Department of the Interior concerning H.R. 2125

    Mr. Chairman I appreciate the opportunity to provide your 
Subcommittee with the views of the Department of the Interior 
on H.R. 2125, to authorize appropriations for the New Jersey 
Coastal Heritage Trail Route.
    This bill would increase the appropriations authorized for 
the New Jersey Coastal Heritage Trail Route from $1,000,000 to 
$4,000,000, and extend the authority for National Park Service 
participation in the trail for five years, from May 1999 to May 
2004. We support enactment of this bill.
    The Act of October 20, 1988, as amended in 1994, authorized 
the Secretary of the Interior to designate a vehicular tour 
route and to prepare an inventory of sites along the route. In 
addition the Secretary was authorized to prepare a coordinated 
interpretive program for the trail in order to provide for 
public appreciation, education, understanding and enjoyment of 
the nationally significant sites in coastal New Jersey.
    The National Park Service, in partnership with the State, 
local governments, and other public and private entities, has 
prepared and is implementing a comprehensive plan based on five 
interpretive themes that link natural and cultural resources 
spread over 300 miles of coastal New Jersey. The trail is 
demonstrating the potential of public/private partnerships, 
allowing the NPS to assist in resource preservation, 
interpretation and public education in a cost-efficient manner, 
primarily through the development of exhibits, audio-visual 
programs, and other technical assistance. Every Federal dollar 
spent is matched by contributions from the partners. No Federal 
funds are used for operation, maintenance, or repair of any 
road or related structure.
    The New Jersey Coastal Heritage Trail celebrated its 
opening on September 27th, 1993, with the introduction of the 
Maritime History theme trail. Other trail themes and sites 
relate to Coastal Habitats, Historic Settlements, Wildlife 
Migration, and Relaxation and Inspiration. It is projected 
that, when completed, the trail will include over 100 wayside 
exhibits, various local information centers, and five regional 
welcome centers all owned and operated by someone other than 
the National Park Service.
    This legislation would enable the National Park Service to 
continue implementation of the trail plan, as supported by the 
public and our partners in the Implementation Guide, a 
blueprint for overall trail development. Without additional 
time and funding, the New Jersey Coastal Heritage Trail Route 
will be left incomplete. The National Park Service supports 
this legislation, its passage would allow us to finish 
implementing the trail's plan.
    This concludes my prepared remarks. I would be happy to 
answer any questions you may have.

    Statement of Katherine Stevenson, Associate Director, Cultural 
    Resources Stewardship and Partnerships, National Park Service, 
             Department of the Interior concerning H.R 4230

    I appreciate the opportunity to appear before you to 
present the position of the Department of the Interior on H.R. 
4230, a bill to provide for a land exchange involving the El 
Portal Administrative Site for Yosemite National Park. The 
Department of the Interior supports this bill if amended in 
conformance with this testimony.
    H.R. 4230 would authorize the Secretary of the Interior to 
transfer to a private individual approximately 8 acres of land 
within the El Portal Administrative Site, in exchange for land 
that is adjacent to the El Portal Administrative Site. The 
transfer would enable the National Park Service to establish an 
entrance station for Yosemite National Park on the land 
received through this transfer, and to close the present Arch 
Rock entrance station.
    This land exchange would enable the National Park Service 
to more effectively protect park resources and serve park 
visitors. Nearly 1.5 million visitors enter Yosemite each year 
through the Arch Rock Entrance station. During peak visitation 
periods these visitors often experience traffic gridlock of up 
to a half mile in length, due to the winding and narrow nature 
of the road leading to the Arch Rock Station. This gridlock 
often leads to vehicles overheating, minor accidents, and 
frustrated visitors.
    These problems would be solved by this bill, as it would 
allow the National Park Service to construct an entrance 
station on the land received through this transfer. The new 
entrance station would be located in El Portal, on a portion of 
State Highway 140 that can accommodate traffic coming into the 
park fairly easily.
    We cannot, however, support Section 2(c) of H.R. 4230, 
which would statutorily deem the land exchange to be of equal 
value. We could only support an exchange in which the 
government received equal value for the land it transfers. The 
land we are to transfer in this exchange may be appraised at a 
value that is greater than the value of the land we are to 
receive. However, we understand that the owner of this land is 
willing to work with the Park Service to assure an equal value 
exchange. We would be happy to work with the Committee in 
developing language to guarantee an exchange of equal value, 
and to develop language that would adjust the boundary of the 
El Portal Administrative Site to reflect this land exchange.
    This concludes my statement. I would be happy to answer any 
of your questions.
                                ------                                


   Statement of Thomas A. Budewitz, Attorney for the Board of County 
               Commissioners, Broadwater County, Montana

    Mr. Chairman and Members of the Subcommittee, my name is 
Tom Budetwitz. I am an attorney representing the Board of 
Commissioners of Broadwater County, Montana.
    The commissioners support the concept of making the cabin 
sites available for purchase. Our interest is in the allocation 
of the proceeds of the cabin site sales and the make-up of any 
entity formed to control the expenditure of those funds.
    The creation of Canyon Ferry Reservoir in the early 1950's 
resulted in the loss of 36 family farms covered with as much as 
75 feet of water. The loss of those farms displaced 36 
productive families, destroyed thousands of acres of the 
richest soil in the county and permanently removed all of those 
acres from the county tax rolls. For many years the creation of 
the reservoir resulted in a literal dust bowl near the south 
entrance to the lake and made the City of Townsend the dustiest 
city in the state until the problem was mitigated by a dust 
abatement project in the late 1970's which created a large 
wildlife management area. That area is now inhabited by 
literally hundreds of different species of wildlife within a 
mile of the Townsend city limits.
    Despite repeated promises beginning even before 
construction was completed that Broadwater County would be 
provided financial and other economic assistance to replace its 
losses, there has been virtually no help from the Federal 
Government to mitigate the adverse economic impacts resulting 
from the loss of that acreage.
    A quick glance at a map of the area is instructive. While 
nearly 80 percent of the lake lies within Broadwater County, 
less than 20 percent of the camping, boating and other 
recreational areas at the lake are in Broadwater County. The 
other 80 percent are at the north end in Lewis and Clark 
County. A Townsend resident who lives within site of the lake 
has to drive over 30 miles to the nearest marina to tie up his 
boat.
    All 262 of these cabin sites are on the north end in Lewis 
and Clark County. If they are sold they will return to the 
Lewis and Clark County tax base and reduce the PILT funds 
expended annually by the Federal Government. There will be no 
such impact in Broadwater County. There will be no increased 
tax revenue and the PILT money intended to replace property tax 
revenues for Federal land pays only approximately 55 percent of 
the revenue that would be generated by taxes where the land is 
privately owned.
    The Wildlife Federation insists that all of the proceeds 
from the cabin site sales be used to acquire access to other 
public lands and to the Missouri River and to replace riparian 
wildlife areas lost when the cabin sites became privately 
owned. The cabin sites occupy a total of less than 150 acres. 
They are not actually water front property. The sale of those 
sites would still leave 100 percent of the shoreline in public 
ownership and available for public use. The money generated by 
these sales will be far more than necessary to replace these 
150 acres with other public land. Furthermore, the creation of 
the wildlife management area at the south end of the lake 
through the dust abatement program contains far more wildlife 
habitat than presently exists on the cabin sites.
    The federation has indicated no willingness to compromise 
and believes that its goals are the only properly recognizable 
public goals. They are wrong. The public has a legitimate and 
recognizable interest in more than the acquisition of 
additional public land and access. In truth, the government, 
all governments--Federal, state and local, have enough trouble 
managing the lands they have. The problem has al-

ways been that the government agencies don't have enough money 
or are unwilling to spend enough money to properly maintain, 
improve or operate existing facilities much less to construct 
new facilities.
    As Commissioner Martinez' statement reflects, the Canyon 
Ferry area is at times overcrowded during peak visitations at 
several campgrounds in day use areas. His concern about a 
potential reduction in public access is, we believe, misplaced. 
He ought instead be interested in expanding and improving 
access at the lake by supporting this sale and advocating the 
use of the proceeds for improving and expanding existing 
facilities. Alternatively, the Bureau of Reclamation ought to 
be willing to allocate additional money from its budget for 
those purposes. Since the Bureau has been unwilling to do so in 
the past we presume that it will be likewise unwilling to do so 
in the future. For that reason, we in Broadwater County have 
been exploring ways to do just that for many years and without 
any meaningful help from the Bureau.
    The Commissioner states that the Bureau of Reclamation 
plans to seek a non-Federal managing partner to manage the 
recreation opportunities and land at Canyon Ferry. Previous 
efforts to do that have been unsuccessful largely because the 
Bureau has not been willing to increase its expenditures at the 
lake.
    The Bureau of Reclamation opposed Congressman Williams' 
attempt in 1993 through H.R. 1477 to provide for cooperative 
agreements with both Federal and non-Federal partners primarily 
because the bill provided for the expenditure of all income 
derived from the facility for use at the facility.
    The State of Montana Department of Fish, Wildlife and Parks 
withdrew its support for a cooperative agreement with the 
Bureau of Reclamation and Bureau of Land Management out of 
frustration over the lack of future planning and the Department 
of Interior's unwillingness to increase the money to be spent 
at Canyon Ferry.
    A draft management plan and environmental assessment 
commissioned by the Bureau of Reclamation, BLM and FW&P earlier 
in 1993 which called for $10 million of improvements over a 
ten-year period died as so many government plans do from lack 
of interest in seeking the necessary funds.
    There has been large scale acquisition and creation of 
riparian wildlife habitat at the south end of the lake but all 
economic development has been at the north end. The dust 
abatement project created a large and wonderful habitat for 
wildlife at a cost of over $14 million. That project was not, 
however, an economic development project but was rather in 
mitigation of the dust problem resulting from the creation of 
the lake.
    Recently, the state Department of Fish, Wildlife & Parks 
acquired additional riparian ground along the southwest side of 
the lake, less than four miles from Townsend through a land 
exchange with a local rancher. We applaud those acquisitions 
but repeat that there has been one broken promise after another 
that funds would be found to finance improvements to the 
recreational assets on the south end.
    Specifically, we would use the money to improve facilities 
at the Silos recreation area located approximately one mile off 
of U.S. Hwy 12, approximately seven miles north of Townsend. 
There are no deep bays located at the Silos and consequently no 
boat docks even though the area serves thousands of Montanans 
and non-Montanans every summer. Broadwater Bay located at the 
Silos can be deepened to make it suitable as a protected harbor 
for boats. Additional roads, picnic, camping and sanitary 
facilities should be constructed. A road should be built across 
Bureau of Reclamation land providing access to the lake at the 
north end of the Silos area. A road should be built connecting 
the Silos with the White Earth recreational area approximately 
six miles to the north.
    The expansion and improvement of these facilities would 
have a direct and immediate impact on county businesses--the 
grocery stores, gas stations, boat dealers, hardware stores 
that make up the retail economy in the county and a resulting 
positive impact on taxpayers. These improvements would cater to 
both resident and non-resident without creating adverse impacts 
on existing infrastructures such as local schools. These 
improvements would do what has not previously been done--they 
would help to mitigate the adverse economic impact caused by 
the loss of those 36 family farms.
    This legislation is a one time opportunity to do positive 
things for a community adversely impacted by government action.
    Unlike the Wildlife Federation, we are willing to 
compromise. We are willing to commit community resources to 
matching government funds. We are willing to share the proceeds 
of the cabin site sales with the federation and help accomplish

both their goal and ours. We are not willing to watch this 
opportunity to slip away as have so many opportunities in the 
past.
    We propose that a substantial portion of the proceeds from 
the sale of these cabin sites be committed to the construction 
and expansion of improvements to the recreational facilities 
located in the Broadwater County portion of Canyon Ferry and 
that any board or entity created to oversee the expenditure of 
that money include representation by local government 
representatives or designees.
[GRAPHIC] [TIFF OMITTED] T0836.041

Statement of Virgil Binkley, Acting Chair Person, Canyon Berry Fishing 
           Association, Broadwater County, Townsend, Montana

    The Canyon Ferry Fishing Association was started a year ago 
and now has 485 members in Broadwater County and surrounding 
areas.
    Our Membership is aware of the legislation that will allow 
the sale of public land, home sites, on the North end of Canyon 
Ferry Lake.
    The Canyon Ferry Fishing Association membership is 
supporting the enabling legislation to allow the sale of this 
public property.
    We also believe that a portion of these funds should be 
used to provide safe moorages on the South end of Canyon Ferry 
lake and other development work to provide a place for safe 
water sports.
    The objectives of The Canyon Ferry Fishing Association is 
to promote fishing and related water sports on Canyon Ferry 
Lake. The Association also is active working with the local 
Montana Fish Wild Life and Parks in promoting habitat for both 
fish and related wildlife.
    During summer months boat fishing is the major recreation 
activity on Canyon Ferry Lake. Safe moorage space is limited 
and at low pool there are no safe moorages to run for in the 
event of a sudden severe weather. Violent thunder storms with 
winds up to 60 miles per hour resulting in waves up three or 
four feet are not uncommon.
    We urge the committee when preparing legislation to allow 
the sale of home site lots that a major portion of these fund 
be allocated to improving safe moorage space for water craft 
and needed work to enhance habitat for fish and other creatures 
that use lake.
    Our membership is pleased that we have been invited to 
testify at this hearing.
                                ------                                


  Statement of Jack Sautter, Chairperson, Broadwater Lake and Stream 
                      Committee, Townsend, Montana

    The Broadwater Lake and Stream Committee is a group of 
citizens who work with the Montana Fish Wildlife and Parks to 
improve trout spawning habitat in streams that feed into the 
Canyon Ferry Lake complex. During the past 8 years various 
projects have been partial funded by the Committee through fund 
raising banquets. These funds are then matched by the Montana 
Fish Wildlife and Parks. These projects are now providing 
natural spawning habitat for all trout species in Canyon Ferry 
Lake.
    Our membership is aware of the bill to allow the sale 
public property for sale as home sites. We are supportive of 
this legislation. We, however, feel that some of these funds be 
identified for the enhancement of trout spawning habitat on 
streams feeding into the lake.
    Currently the Committee is working on developing a youth 
and handicap fishing area near the Indian Creek camping area. 
Funds from the Committee, Montana Fish Wildlife and Parks will 
be used for the development. However, additional funds will 
move this project forward with a much shorter completion 
period.
    The Committee believes that a portion of the funds from the 
sale of public land on the North end of Canyon Ferry should 
remain on the lake to provide a safe boating environment and 
enhance the natural spawning in streams feeding Canyon Ferry 
Lake.
                                ------                                


  Statement of Virgil Binkley, President, Broadwater Rod & Gun Club, 
                           Townsend, Montana

    Our membership is pleased that we have been invited to 
testify at this hearing.
    The Broadwater Rod and Gun Club was started in 1902 and has 
been an advocate of wise use of the Natural Resources in 
Broadwater County.
    The Club has ninety active members. The membership has been 
active in developing safe shooting ranges and works with the 
Montana Fish Wildlife and Parks department on various habitat 
enhancement for both fish and wildlife. The club also provides 
the instructor and facilities for hunter education courses.
    The membership of the Broadwater Rod and Gun Club is aware 
bill that will allow the sale of public land in the North end 
of Canyon Ferry Lake. Our membership is supporting this 
legislation.
    We believe that a portion of these funds be allocated for 
the development of facilities on Canyon Ferry Lake.
    Currently there are no safe haven moorage places on Canyon 
Ferry Lake South of Goose Bay. During the summer boating season 
sudden and sever storms move across the lake with winds up to 
60 miles per hour and waves up to three feet or more. When 
these storms occur fishermen and other pleasure boaters are at 
the mercy of the weather on the South end of the lake. At low 
water there no sheltered mooring places.
    There is a desperate need for four moorages on the West 
side of the lake and three on the East side of the South end of 
Canyon Ferry Lake.
    The moorage development work could be accomplished in 
several phases.
    We urge the committee to include in the writing of this 
bill that a major portion of these funds be used to improve 
water an other recreation areas on Canyon Ferry Lake with a 
significant amount to the South end to improve boat moorage.
                                ------                                


     Statement of Bob Robinson, Canyon Ferry Recreation Association

    Mr. Chairman, my name is Bob Robinson. I am appearing here 
today on behalf of the Canyon Ferry Recreation Association 
(CFRA), a membership organization of cabin site permitees at 
Canyon Ferry Reservoir near Helena, Montana. I am the volunteer 
chair of CFRA's Cabin Site Acquisition Subcommittee. I am 
accompanied today by Mark Etchart.
    I would like to begin my testimony by thanking Congressman 
Hill for his diligent efforts on H.R. 3963. Almost one year ago 
today, I met with Congressman Hill in his Helena office for two 
purposes: first, to outline the problems that the cabin site 
lessees were experiencing at Canyon Ferry, and second, to offer 
a proposed solution to our problems--a solution that would 
create some significant opportunities for the public. While I 
plan to devote most of my testimony to the what might be called 
the ``cabin site purchase solution,'' suffice it to say 
Congressman Hill listened patiently to our initial 
presentation, and when we finished, his response was 
reassuring. He told us that he was committed to working with us 
to solve our problems. He also reassured us that Montana's 
Congressional Delegation would put their collective minds 
together to fashion a common solution to meet public needs.
    Congressman Hill has worked hard since our initial meeting 
to master the facts at Canyon Ferry. Two months ago, he 
introduced H.R. 3963. In this bill, Congressman Hill seeks to 
address the cabin owners' problems by allowing us to purchase 
our cabin sites. Congressman Hill believes that he has only 
half a bill with H.R. 3963 in its current form. He chose, 
initially, not to include in his introduced bill a detailed 
procedure for distributing the public benefits that would be 
generated by the private funds from the sale of the cabin 
sites. Rather, he has used these past two months to collect 
additional public comment on how those benefits might best be 
distributed. Thus, we are participating today in a hearing to 
examine, among other things, whether Congressman Hill's bill, 
H.R. 3963, might be expanded to meet the test of the common 
solution he talked with us about last year. Congressman Hill 
has told us that it is the responsibility of Congress to make 
sure that proposed legislative solutions meet the test of the 
public good; that is, to determine whether his proposal 
provides to the public the greatest good to the greatest 
number. In that regard, CFRA has chosen not to play a 
leadership role in suggesting how the proposed sale proceeds be 
spent. Later in this testimony, I will say more about these 
public benefits that can be purchased with the sale proceeds. 
However, I believe we can be of far greater assistance to this 
deliberative process by telling you why we believe it is a good 
idea to enact legislation authorizing sale of the cabin sites. 
This matter is addressed in part in the ``findings'' provisions 
of H.R. 3963 (Section 1).
    S. 1913 is a companion measure to H.R. 3963 that is pending 
in the Senate. S. 1913 is cosponsored by the other two members 
of the Montana congressional delegation. S. 1913 is a somewhat 
longer bill than H.R. 3963, because the Senate bill proposes, 
in a detailed way, how to distribute the private funds raised 
by the exchange of Federal land. I am submitting for the 
Subcommittee's hearing record a side-by-side comparison of the 
two bills. As noted earlier, I am concentrating my testimony 
today on the threshold policy question of why Congress should 
enact legislation authorizing the sale of the Canyon Ferry 
cabin sites. The procedure for the sale, which appears in 
Section 4 of both bills, is drafted quite similarly, and either 
would be acceptable to CFRA, although we prefer the language of 
H.R. 3963 on this particular matter. In either case, they both 
propose rigorous procedures to govern the sale of the cabin 
sites at Canyon Ferry Reservoir.
    I would also emphasize to the Subcommittee that when 
Congressman Hill submitted his own testimony on S. 1913 last 
month, he observed that:

        The Montana Congressional Delegation has agreed on the value of 
        selling 265 leases on Canyon Ferry. This sale would allow 
        current householders the oppor-

        tunity for permanent ownership, while paying fair market value 
        to the benefit of the taxpayer.
    (Emphasis added.) It is true that there is common agreement on the 
value of selling the land. And CFRA contends that this common agreement 
is far broader than that which exists today within the Montana 
Congressional Delegation. Wide support exists within Montana for this 
common agreement from a broad range of public opinion, including 
positive editorial comment, as well as favorable comments from top 
public officials, including Montana's Governor, who I believe may be 
submitting his own testimony in support of the value of selling Canyon 
Ferry's 265 leaseholds.
    My testimony today is pretty straightforward. I have tried to be 
factual and balanced. My remarks are based in large measure upon the 
experience of a family that has held a permit at Canyon Ferry for 
nearly four decades. The Robinsons are part of a recreational community 
at Canyon Ferry lake. We are a community of 265 lessees, who all have 
kids and grandkids and great grandkids, and who all know each other. 
Many of us go to a church we built near the lake, and all of us shop at 
the same little stores. Nearly all of us engage regularly in common 
recreational activities at the lake. In short, we really are a 
community.
    I want to comment briefly about the cabin site lessees. We are not 
a group of wealthy individuals or out-of-state owners, like you see at 
Flathead Lake or Seeley Lake or at Whitefish Lake. Cabin owners at 
Canyon Ferry are people who hale primarily from neighboring towns: 
Helena, Butte, Boulder, Bozeman, White Sulphur Springs, some of us even 
come from as far away as Billings and Missoula, but primarily from 
southwestern Montana. We are teachers, smelter workers, craftsmen, 
dentists, telephone company employees, lawyers, government workers and 
social security retirees. We are people who are not considered wealthy, 
even here in Montana. We are people who have raised their kids here, 
and we are people who pay taxes out there, in addition to paying taxes 
to our wintertime communities, as well.
    The permitees are not just 265 individuals. Let me use my family as 
a brief example. My mother and father had seven kids. We all use that 
cabin. We're all married, we've all got a bunch more kids. And this 
summer, we'll have had the fourth generation of Robinsons at our cabin. 
Those kind of congregations are happening today all the way up and down 
the Northern end of Canyon Ferry Reservoir. Those are not just 
happening on Cabin Site 8, which is where we live. You can go up and 
down the shoreline and find dozens and dozens of families whose 
grandparents and parents and brothers and sisters and kids are now 
using those sites.
    The other thing that happens at Canyon Ferry is that those sites 
become a magnet for a whole bunch of other people in the community who 
aren't lessees: friends, office picnics, retirement parties, graduation 
celebrations, weddings, christenings, etc. Our cabins are a recreation 
resource in and of themselves.
    We are facing a serious problem, which I will describe more fully 
in a moment. But we think we have a solution, and we believe that some 
extraordinary benefits could be generated with the adoption of our 
proposed solution. There can be winners and no losers with this 
legislation. For thirty years, CFRA has been working to resolve the 
problems addressed by H.R. 3963. In the past, every time we proposed a 
solution, we learn about some ``loss'' that might result from our 
proposal. In those cases, the process was stymied and stopped. However, 
that's history. Now, with H.R. 3963 and S. 1913, we believe that there 
aren't losers; only gainers on all sides.
    I want to really make it clear that this bill is desperately needed 
by these 265 permitees and their families, and equally important, this 
legislation is needed by many, many other people in southwestern 
Montana who rely on the natural resources around Canyon Ferry Lake. 
Some of these people have been dealing with this issue since 1968. The 
first record that we were able to discover is that CFRA was in touch 
with Senator Mansfield, trying to address this issue in 1968.
    The real driving issue behind this bill is that the Bureau of 
Reclamation (BOR) has a policy to eliminate the leased cabin sites at 
Canyon Ferry. One manifestation of that policy in the last 10 to 15 
years, is that we have experienced a continuous upward spiral in our 
lease rates. These increases are pushing people, literally, off their 
leased land.

Exhibits

    In preparing this testimony, CFRA's Cabin Site Acquisition 
Committee drew upon numerous historical documents that we are now 
providing to the Committee for the public record. Listed below are the 
following documents that have been supplied to the Committee staff for 
inclusion in the hearing the record:

        Exhibit A: A masters thesis entitled ``Private Use of Public 
        Lands: Canyon Ferry Lake Cabin Lease Sites,'' by Steven Ray 
        Clark professional paper in partial fulfillment of the 
        requirements for the degree of Masters of Public Administration 
        at Montana State University in Bozeman, Montana, August 1987.
        Exhibit B: ``Canyon Ferry Lake--Recreation and Conservation 
        Management Reserve,'' a proposal presented to United States 
        Bureau of Reclamation and Montana Department of Fish, Wildlife 
        & Parks. The proposal was prepared by American Public Land 
        Exchange Company Inc. of Missoula, MT and was presented in May 
        1985. Attached to the report is a document entitled ``Helena 
        Valley Canyon Ferry Land Exchange Background Information,'' 
        prepared at the request of Canyon Ferry Recreation Users 
        Association by American Public Land Exchange Company Inc., 
        dated September 12, 1984.
        Exhibit C: Canyon Ferry State Park ``Proposed'' Management Plan 
        by the Canyon Ferry Master Advisory Committee, the Montana 
        Department of Fish, Wildlife & Parks, and the U.S. Bureau of 
        Reclamation. 1993.
        Exhibit D: United States Department of the Interior Office of 
        Inspector General Final Audit Report on Reclamation Management 
        Activities at selected sites, May 17, 1995.
        Exhibit E: List of cabin site owners at Canyon Ferry Reservoir.
        Exhibit F: Rock Creek Trust Fund Agreement and related 
        documents.
        Exhibit G: Missouri-Madison Rivers Comprehensive Recreation 
        Management Plan and related Revolving Trust Fund documents.
        Exhibit H: A side-by-side analysis of H.R. 3963 and S. 1913
        Exhibit I: Opportunity Spectrum at Canyon Ferry: Funding, 
        Management, Recreation, Wildlife, Research, produced by CFRA, 
        1995

Background Facts Regarding Canyon Ferry Legislation

    Here is some background information about the Canyon Ferry 
Reservoir and the 265 cabin sites that are the subject of this 
legislation. The reservoir is 26 miles long with a shoreline of 76 
miles. (Mr. Etchart is pointing to the relatively small portion of the 
lake devoted to the cabins.) Please note that none of the 265 cabin 
site lots contain shoreline, but all are near the shoreline. The 265 
cabin site lots, with a total area of less than 150 acres, sit on land 
that is adjacent to less than 8.2 percent of the reservoir shoreline or 
6.37 miles. All of the cabin lots, which average about one half acre 
per site, are located at the north end of the reservoir, and all are 
situated in Lewis and Clark County. The sites start about three miles 
from the dam and extend about three miles on each side, with numerous 
public facilities developed at the appropriate sites best suited for 
public use.
    Here are a few facts about Broadwater County as they relate to 
Canyon Ferry. Roughly 80 percent of the shoreline of Canyon Ferry is in 
Broadwater County, but as noted earlier, no cabin site lots are in 
Broadwater County. The reservoir is shallower at the south end of the 
lake, which is near Townsend. This fact will be discussed later in my 
testimony when we get to the subject of environmental impacts. However, 
I do want to note at this point that the high water level of the 
reservoir is 3,800 feet, which is the height of the dam's spillway. All 
cabin sites are above 3,810 feet, and, for comparison, the Broadwater 
County courthouse steps are reported to be 3,820 feet. Raising the 
level of the dam would create quite a problem for Townsend, the county 
seat of Broadwater County.
    When the land at the North end of Canyon Ferry was leased to 
private permit holders (a process that began more than forty years 
ago), the current 265 lots that are now developed were raw and 
completely undeveloped land. When BOR began leasing these lots, permit 
holders legally obligated themselves to build cabins on their lots as a 
written condition of BOR's permit. Tents or trailers did not satisfy 
BOR's condition. Instead, the minimum BOR requirement was for the 
permit holders to build a permanent foundation for a structure of at 
least 600 square feet.
    Many permit holders, who met the conditions of their lease 
requirements, have continued to improve their properties at their own 
expense, including drilling wells, installing septic systems, 
constructing access roads and the like. Further, it is not uncommon to 
see dozens of trees planted by the permit holders, along with other 
valuable landscaping and erosion control activities all at their own 
expense.

History of Canyon Ferry Reservoir

    I would like to present to the Committee a brief history of the 
Canyon Ferry Reservoir. In preparing this history, CFRA relied 
extensively upon the 1987 thesis of Steven Ray Clark, a BOR employee at 
the Canyon Ferry project. Mr. Clark prepared this thesis for a Masters 
Degree in Public Administration from Montana State University. He is 
still working for the BOR.
    Canyon Ferry Lake was formed when Canyon Ferry Dam was completed in 
1954 as a part of the Pick-Sloan Missouri Basin Program. Recreation 
homesite leases at Canyon Ferry were first issued in 1958 as a result 
of a direct promotion by BOR. The BOR supplied to the Montana Highway 
Commission drafts of recommended lease agreements, boat permits and 
licenses for docks. The State of Montana issued these permits pursuant 
to a state-Federal management agreement. Newspaper articles at the time 
noted that, prior to the identification of potential cabin sites, BOR 
first reserved the preferred public recreation sites around the 
Reservoir's shoreline. According to Mr. Clark's thesis, an important 
reason for leasing summer home sites was the ``multi-purpose 
authorization of the Canyon Ferry project and other BOR projects built 
at that time.'' Clark then observed:

        What better way to demonstrate the multi-purpose implementation 
        and development than to lease 265 cabin or summer home sites 
        and rapidly develop their recreational aspects of the multi-
        purpose authorization?
    The first of what would become 265 leased sites were authorized by 
lottery. And they were not all leased at once. My recollection is that, 
initially, there were two or three lottery cycles. And the requirement 
in the Federal lease, was that if somebody received a cabin site by 
lottery, they had two years in which to build a permanent structure on 
that site. The policy was established so that it could be reported to 
Congress that BOR had established the multipurpose use of the 
reservoir.
    Initial leases for the cabin sites were for a period of ten years 
with an option to extend for an additional ten years. A practice began 
to occur where the ten year renewals were provided on a virtually 
automatic basis. Additionally, improvements were allowed to be sold by 
lessees to different persons, and new leases were drawn up to begin a 
new ten year lease term for cabin owners.
    According to Mr. Clark's thesis, the following changes have evolved 
in BOR's leasing policy:

        The leasing policy in the Department of the Interior for 
        private use of recreational lands has vacillated during the 
        past thirty years. The policy has gone from one of open 
        encouragement, to open discouragement, to status-quo, to 
        support of a phase-out.
These precipitous changes in policy by the Federal Government, which 
continue to this day, have prompted CFRA members to seek ownership of 
their leased properties. According to Mr. Clark, the Canyon Ferry 
Recreation Association first asked the Montana Congressional Delegation 
more than thirty years ago for authorization to purchase the land upon 
which their cabins are located.
    What has happened since the mid-1960's, then, is that the Federal 
cabin site policy has vacillated. It's gone from one of overt and open 
promotion of cabin sites, to discouragement of cabin sites, to kind of 
leaving the cabin sites alone for a while, when it was managed by the 
Department of Fish, Wildlife and Parks, and now, to a proposed phase-
out. I would refer the Subcommittee to the Inspector General (IG) 
Report dated May of 1995--which we submitted for the record--on pages 
10 and 11, where the IG refers specifically to why hasn't BOR activated 
its plan to phase out cabin sites. The IG concluded that BOR staff 
didn't activate their plan, because they could not prove that the sites 
were needed for public use.
    None of the cabin sites at Canyon Ferry have lakeshore. (Mr. 
Etchart is pointing to a BOR map of the North end of Canyon Ferry Lake. 
The cabin sites are in purple. The shoreline and related public open 
space is in green.) To repeat, while all of the cabin site permitees 
have lakeshore access, we don't have lakeshore. Most of the lessees 
property lines are at least ten vertical feet above high water level at 
the lake, which pushes us back quite a bit from the shoreline. Thus, if 
our cabin sites are purchased, the lakeshore and the related 
recreational opportunities from the lakeshore will not be lost to the 
public. Indeed, with the sale, not only will there be no loss of the 
current recreation opportunities, likely there will be new recreation 
opportunities generated from the sale proceeds.
    We have referred to this legislation as a proposed land exchange. 
Actually, it's not quite that, since the permitees don't have land to 
transfer. In reality, it will be an exchange of money, as much as $20 
million, that would be available for public benefit. In times of tight 
Federal money, this legislation creates new public use dollars that can 
provide significant opportunities for recreation and habitat 
enhancement in the area. In short, we believe that the purchase of the 
sites will eliminate contentiousness with BOR, and give the public a 
whole lot of other benefits.
    It is also important to recognize that the first three miles from 
the dam back to the first cabin sites is public land, and lots of 
public recreational opportunities occur there. Interspersed within the 
cabin sites, as you can see on both sides of the lake, prime land was 
earmarked for public recreation sites. And those parks do exist, and 
they are used by the public. There are much fewer developed recreation 
areas on the south end of the lake. The bottom line for this 
legislation is that the sale of the lots will not reduce the current 
recreation opportunities for the public. To the contrary, depending 
upon how the sale proceeds are used, CFRA believes that there will be 
many new recreation opportunities that will result from the sale.
    It should also be noted that most of the adverse impact from the 
dam occurred to the original landowners, to the riparian habitat, and 
to the county governments in terms of lost tax base. Now, if the sale 
is permitted, Lewis and Clark County would receive increased tax base. 
East Helena schools and the Helena high schools benefit from such 
increased valuation. For Broadwater County, the benefits are less 
clear, but I expect that matter will be covered in detail by the 
testimony of the witness from Broadwater County.
    In addition to the problems faced by the cabin owners, there have 
been a variety of other problems confronted by the public at Canyon 
Ferry. From the 1950's to the early 1980's, considerable dust was 
generated at the south end of the reservoir particularly, when the lake 
reached low levels. This dust caused considerable problems for Townsend 
area residents. In response, BOR spent roughly $14 million to abate the 
dust by retaining more water at the southern end of the lake and 
providing more habitat for wildlife.
    The dust abatement project is noteworthy, because the original 
design of the dam and the resulting reservoir ignored the negative 
impacts on wildlife and the environment. This was so, because Federal 
environmental laws did not then require any assessment of the 
environmental impact of federally financed projects, such as Canyon 
Ferry Dam. Further, the primary purpose of the Canyon Ferry project was 
to generate electricity, improve irrigation and provide flood control. 
While recreation was later described by BOR as one of the multiple 
purposes of the project, it was then a relatively minor purpose.
    Beginning in May 1958, once permits were issued to private parties, 
who agreed to build cabins on BOR lands, certain additional 
requirements were established. First, it was required that a permit fee 
be paid each year for the lease. Further, the cabin owners were 
required to provide unobstructed public access to the lake. Over the 
years, because of changes in BOR policy, there have been numerous 
modifications in the lease documents. Cabin site leases have become 
increasingly restrictive and for shorter terms. Initially, these leases 
were for ten year periods with ten year renewal periods. In 1994, new 
leases were issued for ten years with the potential for two, five-year 
renewals. The associated rent payments charged for the leases increased 
on an accelerated basis due to a combination of factors, including a 
change in BOR policy, and the recognition of increased values of the 
underlying land where the lease holders had built their cabins. The 
current leases for the cabin site properties expire in 2004, but they 
may be renewed for up to two consecutive five-year terms, or until the 
year 2014.
    It should also be noted that, while the lease holders do not pay 
property tax on the land (since that land is owned by BOR), they do pay 
state and local property taxes for the value of all their improvements. 
Additionally, BOR pays to Lewis and Clark and Broadwater Counties 
payments in lieu of taxes.
    ZMost of the cabins on the leased sites can only be used in the 
summer, as they lack heat and insulation needed to protect against 
colder weather. Most lessees are not inclined to make substantial 
improvements due to the potential termination of their leases, 
including the requirement that the lessee must remove all improvements 
upon termination. However, private land ownership should generate 
substantial capital improvements, thereby increasing associated 
property tax revenue, which is yet another public benefit.
    Further, it should be noted that CFRA and its members have been 
working with Lewis and Clark County in recent years to insure that 
waste water disposal systems (i.e. septic tanks and/or holding tanks) 
are in place and in conformance with applicable environmental 
requirements.

CFRA and BOR

    CFRA's dealings with BOR over the years have generally been 
amicable and productive. While disputes have arisen in a few instances, 
much of that controversy has been associated with the increased annual 
lease payments for the permits for the 265 leased properties. Some of 
the cabin owners have experienced as much as eight-fold increases in 
their annual lease payments over the past ten years. Such increases 
have caused CFRA to dispute BOR on the valuation of the underlying 
properties. Fortunately, the most recent dispute on the BOR's appraisal 
procedure was recently settled by CFRA and BOR. The new settlement 
procedure comes at a propitious time for several reasons. First, it may 
provide a basis for determining the fair market value of the cabin site 
lots to be transferred under this legislation. Second, the settlement 
minimizes the uncertainty that might otherwise constrain the transfer 
of lands associated with disputed property values. The phasing-out of 
leased land has greatly concerned the leaseholders and threatens their 
investment, work, time and memories that have been built up over almost 
four generations for many leaseholders.

A Brief Analysis of H.R. 3963

    In its simplest form, H.R. 3963 authorizes the Department of the 
Interior to sell all of the cabin sites, as a group, to the highest 
bidder under a sealed bid process. The legislation also requires the 
successful bid to equal or exceed the appraised fair market value of 
the 265 lots combined. In the event that CFRA bids on the sites, and 
its bid is exceeded by another bidder, CFRA has the right to match the 
highest bid. Whoever the high bidder is, it must sell the specific site 
at market value to the then permitter, assuming the permitter elects to 
purchase its lot. If the permittee does not want to buy the land on 
which their cabin sits, the permitter can continue to lease the cabin 
site for a period not to exceed the current terms allowed under it's 
permit with BOR. In the event that the cabin owner chooses not to buy 
their lot, and doesn't want to keep leasing, the high bidder must buy 
the cabin improvements at a market value price set by appraisal.
    CFRA is generally pleased with the current form of this bill. Our 
association has carefully avoided taking positions on exactly how the 
proceeds of the transfer are to be used, except we believe that much of 
the public benefits to be generated by the exchange should stay within 
the Canyon Ferry/Missouri River area. Further, we are seeking to avoid 
any appearance that these monies would be used in any way to benefit 
the cabin owners directly.
    CFRA has worked closely with the county commissioners of the two 
counties encompassing the Reservoir, as well as the local and statewide 
wildlife organizations. Broadwater County contains approximately 80 
percent of the shoreline of Canyon Ferry Reservoir, and Lewis and Clark 
County contains the balance. While all the cabins are located in Lewis 
and Clark County, CFRA is concerned that the proceeds of the sale 
generated by the transfer of the cabin-site lots should in some way 
provide benefit to the residents of Broadwater County who have arguably 
not received from BOR as many financial and recreational benefits from 
the lake as have Lewis and Clark County residents. Likewise, we also 
think that a substantial share of the proceeds should be allocated to 
enhance recreational opportunities and habitat protection and access in 
the Canyon Ferry/Missouri River drainage.
    There are scheduled to be witnesses at this hearing representing 
various wildlife, hunting and fishing organizations. No doubt those 
witnesses will provide a full and compelling explanation of the various 
benefits that will occur to wildlife and fish habitat and associated 
recreational access and activities.
    The experience of CFRA over the past four decades in working on the 
problems associated with leased lands at Canyon Ferry suggest to us 
that perceptions of public benefit are as varied as the members of the 
public who express their views about public needs and benefits. More 
than three years ago, CFRA produced a concept paper, entitled 
``Opportunity Spectrum,'' which was submitted to this Subcommittee as 
Exhibit H. Our paper identified a wide range of public opportunities 
that could be created with funds generated from the sale of the 265 
cabin sites. Nearly twenty types of possible public benefits were 
identified.
    As I reflected on those opportunities while preparing this 
testimony, I was reminded of a statement recently communicated to CFRA 
by the President of the Montana Wildlife Federation (MWF), who said:

        Canyon Ferry public lands have lost historic public wildlife 
        value as a result of habitat alterations and destruction. . . . 
        If those lands are to be permanently taken out of the public 
        domain, then we believe that they must be replaced by lands 
        that aim to provide the public with wildlife and recreational 
        opportunities that once existed.
    We generally agree with the theme of the MWF statement, but we 
would also observe that the distribution of public benefits is best 
accomplished by representative legislative bodies, such as Congress. 
These bodies follow proven procedures for involving the public at all 
levels. Further, if experience is any guide, additional changes will 
likely be made to this legislation, as it advances through the 
legislative process. We hope that all parties now supporting this 
important legislation will continue to be able to support it.
    In times of limited public budgets, it is a welcome sight to see 
another important source of funding that will allow greater public 
benefits to be bestowed. We at CFRA hope that we are given the 
opportunity to provide that funding through legislation.
    Thank you, Mr. Chairman, for giving us the opportunity to present 
this testimony and we look forward to answering any questions you might 
have about the proposal from the standpoint of the 265 site owners at 
Canyon Ferry.
                                 ______
                                 
 Statement of Darrell Knuffke, Vice President, Regional Conservation, 
  The Wilderness Society on behalf of The Wilderness Society, Natural 
  Resources Defense Council, the Endangered Habitats League, and the 
                              Sierra Club

    Mr. Chairman and Members of the Subcommittee, I am Darrell 
Knuffke, Vice President of Regional Conservation for The 
Wilderness Society. My prepared remarks today represent the 
views of the Natural Resources Defense Council, the Endangered 
Habitats League, and the Sierra Club, as well as The Wilderness 
Society. We appreciate the opportunity to provide this 
Committee with our views on the need for protecting Otay 
Mountain and on H.R. 3950, The Otay Mountains Wilderness Act of 
1998.
    Otay Mountain, rising three thousand feet above the 
surrounding mesa, is a unique range in southwestern California 
only minutes away from downtown San Diego. Not only does it 
provide the people of the region exceptional vistas, it also 
provides essential habitat for an incredible array of plant 
species.
    Otay Mountain deserves and needs the strong protection for 
its many and diverse natural and scenic values that 
Congressional designation as wilderness under the terms of The 
Wilderness Act of 1964 would provide. Because we support true 
wilderness protection for Otay Mountain, we oppose H.R. 3950 
and specifically its section 6(b). Section 6(b) essentially 
removes the assurances of wilderness protection suggested by 
the legislation's title by exempting Federal, state, and local 
agencies from the requirements of the Wilderness Act while they 
are conducting activities related to border and fire control. 
Control of the border and wildfires in this area is essential 
and we support providing the responsible agencies with what 
they need to do their jobs. However, it is our understanding 
that the Border Patrol, the California Department of Forestry 
(CDF), and the Bureau of Land Management (BLM) all believe that 
recent changes to road access on Otay Mountain will allow them 
to fulfill their missions within the confines of the Wilderness 
Act.
    Based on our conversations with the Border Patrol and 
others, it is our position that no special wilderness 
management language is necessary or appropriate to address 
border related issues on the Otay Mountain. If Congress intends 
to pass H.R. 3950 and designate the Otay Mountain area as 
wilderness, Section 6(b) of this bill must be deleted.
    In addition to being inconsistent with the difficult and 
successful changes made in road access in the Otay Mountain 
area over the last two years, Section 6(b) also ignores the 
recent effort undertaken by a number of parties, including 
those represented by this testimony, Congressman Bilbray's 
staff, and the San Diego Association of Governments to work 
cooperatively to develop legislation that would reflect the 
success of the earlier management actions to protect this 
unique area while providing for the needs of the Border Patrol 
and CDF.
    If Congress determines that the Otay Mountain area cannot 
receive additional Congressionally mandated protection without 
the inclusion of ``special management language'' to address 
border and related issues, then we must encourage you to 
consider other protective--non-wilderness--options for this 
unique area.

BACKGROUND

    Otay Mountain possesses an extraordinary diversity of plant 
species, many unique to this mountain range. Deeply dissected 
by numerous ephemeral streams, the range is dominated by narrow 
canyons, making it extremely rugged terrain. Due to the unique 
intermixture of desert and coastal influences, this area is an 
outstanding botanical site, and is internationally renowned for 
its diversity of unique plant species. It is listed in the 
Directory of Federal Natural Areas as supporting at least 15 
plant species which are candidates for Federal listing, 
including the world's largest stand of Tecate cypress, a 
species found only in small, isolated populations in California 
and Mexico. The area also contains several unusual vegetative 
associations, including true chaparral, coastal sage scrub, and 
oak woodlands.
    Because of the area's special values, it was designated as 
the Otay National Cooperative Land and Wildlife Management Area 
in 1962. In 1980, with the strong support of the public, 
including the San Diego County Board of Supervisors, BLM 
recognized this unusual habitat and its outstanding miles-long 
vistas of Mexico along the Tijuana River and into the 
mountainous spine of northern Baja by designating two 
Wilderness Study Areas in the area. A portion of the mountain 
was designated an Area of Critical Environmental Concern to 
protect the only known population of the Mexican flannel bush, 
pristine stands of riparian woodlands, and the Tecate Cypress 
stands. More recently, local governments in the San Diego area 
and state and Federal agencies have identified Otay Mountain as 
an essential part of the Multiple Species Conservation Program, 
a comprehensive plan to protect sensitive plant and animal 
species in an interconnected habitat preserve in a manner that 
reduces constraints to the region's development.
    We fully recognize the important and dangerous job that the 
Border Patrol and CDF are doing on the Otay Mountain to protect 
our country's border and to fight wildfires, respectively. We 
respect the needs of the Border Patrol to have the tools and 
resources to carry out the immigration and drug interdiction 
activities the agency has been assigned. The same is true of 
CDF and its job. However, based on meetings and discussions 
with the Border Patrol and CDF agents working on Otay Mountain, 
and numerous discussions with the BLM, we believe these 
agencies can fulfill their obligations in a manner that is 
consistent with management of Otay Mountain as wilderness. To 
understand this, we must review what has happened over the past 
several years in the Otay area.
    Historically, Otay Mountain's rugged landscape served as a 
significant deterrent to illegal border crossing. Almost four 
years ago, when Operation Gatekeeper beefed up border 
operations near San Diego and began to stifle illegal 
immigration along the border between the coast and Otay 
Mountain, traffic of illegal immigrants dramatically increased 
over the mountain. As thousands of aliens attempted to use Otay 
Mountain as passage into the United States, hundred of 
wildfires, most due to campfires, were started. At the peak, 
350 wildfires burnt over some 23,000 acres in one year. 
Additionally the steep and rugged terrain of Otay made the 
crossing exceptionally dangerous for the individuals who were 
attempting the crossing. In the summer of 1996, San Diego 
County declared a state of emergency because of the threats to 
human life from the intensity of illegal immigrant traffic and 
wildfires on Otay Mountain. At that point, the BLM developed a 
plan to provide the Border Patrol and CDF the vehicle access 
they needed across the mountain range and down to the actual 
border while protecting most of the mountain's biological 
resources.
    Two jeep roads have crisscrossed the center of the mountain 
range for decades, but their degraded condition and the lack of 
road access to the border itself made interdiction and fire 
fighting activities very difficult, at best. By upgrading the 
two existing routes and constructing new roads along the 
eastern and western edges of Otay Mountain, the BLM provided 
the Border Patrol and CDF the access they needed to accomplish 
their missions.
    Although the new road segments were created within the 
existing wilderness study areas, our organizations participated 
in the planning for and did not object to their construction, 
given the significant health and safety issues at the time, the 
need to protect the border, and the importance of decreasing 
the frequency of wildfire for protection of the area's rare 
plants.
    The new road access along the east and west boundaries of 
the area essentially moved the interdiction effort down to the 
border itself. This solution was developed by the BLM in 
consultation with the Border Patrol and CDF to control the 
border, prevent destructive fires, and protect the botanical 
values of the Otay Mountains Wilderness Study Area. The action 
plan provided for these needs in a context of wilderness 
management. By all accounts the plan was a success.
    As a follow-up to this effort, several staff members from 
the organizations I am representing today recently visited Otay 
Mountain on a BLM-sponsored tour and met with the Border Patrol 
and CDF to see how the new system of roads and access points 
was working.
    The success of this project and the comfort of both Border 
Patrol and CDF field managers with the existing situation was 
relayed to our organizations, Congressman Bilbray's staff and 
the BLM at a May 9th meeting at the Border Patrol's Brown's 
Field offices. At that meeting, the Border Patrol and CDF 
assured us that the actions taken by the BLM on Otay Mountain 
had allowed their staffs to effectively accomplish their 
missions. Officials of both agencies indicated that fires and 
attempts to cross the border had decreased significantly as the 
result of the new system of roads and access points. When asked 
if any additional access or other facilities would be needed in 
the Otay Mountains, the reply from both agencies was that they 
had everything they needed.
    A May 20, 1998 letter from BLM State Director Hastey to 
Congressman Bilbray confirmed this. In his letter, Mr. Hastey 
detailed the position of both the Border Patrol and CDF:

        (1) Since the Border Patrol states it has adequate existing 
        access outside the recommended Wilderness Area boundaries to 
        protect this area and enforce Federal law, the only question 
        regarding wilderness designation that we can foresee would be 
        the placement of new and maintenance of existing electronic 
        sensors used to detect presence of illegal immigrants entering 
        the area. According to our BLM Manual, additional sensors 
        (considered to be ``other agency facilities'') can be 
        authorized if they ``are essential for meeting the minimum 
        requirements for administration of the area as wilderness.'' 
        Therefore, if the Border Patrol and BLM determine additional 
        sensors beyond those already in place are necessary, we could 
        authorize placement of such sensors after an environmental 
        analysis is completed. As for existing sensors, the Border 
        Patrol currently maintains those as necessary without motorized 
        vehicle access and the same procedure would apply under 
        wilderness management.
        (2) Obviously, fire danger is a significant management issue on 
        Otay Mountain. Again, CDF has stated that the existing access 
        on Otay Mountain is adequate for its fire protection needs and 
        as long as those cherrystemmed access routes are maintained, 
        they do not see further need for construction of any additional 
        fire roads within the area to be designated wilderness. BLM's 
        Wilderness Manual states that ``all fires must be controlled to 
        prevent loss of human life or property within Wilderness Areas, 
        or to prevent the spread of fire to areas outside the 
        wilderness where life, resources or property may be 
        threatened.'' Therefore, while no one can predict the extent of 
        a fire emergency on Otay Mountain, we believe the legislative 
        authority and Manual guidance give BLM and CDF the ability to 
        make on-the-ground fire decisions during emergencies to protect 
        life and property, as well the wilderness resources. (emphasis 
        added).
    In sum, the Border Patrol, CDF, the BLM and we all believe that, 
given the recent changes in road access on Otay Mountain, each of these 
agencies can fulfill their respective missions within the confines of 
the Wilderness Act.

CONCLUSIONS:

    Our organizations strongly support permanent protection of Otay 
Mountain and its many and diverse natural values. If Section 6(b) is 
deleted from H.R. 3950, we could support this legislation and its 
designation of Otay as wilderness. If, however, Congress determines 
that the Otay Mountain area cannot be granted additional 
Congressionally mandated protection without the inclusion of ``special 
management language'' to address border and related issues, then we 
must encourage you to consider other protective--non-wilderness--
options for this unique area. Thank you for the opportunity to testify 
today.

[GRAPHIC] [TIFF OMITTED] T0836.042

[GRAPHIC] [TIFF OMITTED] T0836.043

[GRAPHIC] [TIFF OMITTED] T0836.044

  Statement of Dr. Benjamin F. Payton, President, Tuskegee University
    Good morning. Chairman Hansen and Members of the Subcommittee, my 
name is Benjamin F. Payton. I have the privilege of serving as 
President of Tuskegee University, an independent state related 
institution of higher education that focuses on engineering and 
technical education the agricultural and life sciences, selected 
biomedical professions, business, and on research and community 
development. These special program emphases are presented in a 
framework which highlights the insights and information from the 
humanities and behavioral sciences as fundamental to life. In addition, 
Tuskegee University stresses lifelong learning, broad and deep moral 
and spiritual values, love of country, and concern for the global 
community. Tuskegee University was founded 117 years ago by Booker T. 
Washington and is located in southeast Alabama.
    In addition to its role as an educational institution, Tuskegee 
University is also guardian of an important National treasure, the 
Tuskegee Institute National Historic Site. Tuskegee is the only 
university campus in the United States designated by Congress as a 
National Historic Site where the site is administered by the National 
Park Service. In addition, Tuskegee University is the only historically 
black college or university (HBCU) to have ever owned, designed, 
developed, and operated a U.S. Military training facility. It is that 
facility--Moton Field--and the heroism of the men and women trained 
there during World War II which are the subject of this testimony and 
of this legislation.
    May I take a moment to thank Congressman Riley, my Congressman, for 
his leadership in sponsoring this bill and for the immense efforts 
which he and his staff devoted to bring H.R. 4211 to this stage. 
Congressman Riley and I requested that the National Park Service 
prepare a special resource study of how best to interpret and celebrate 
the role of the Tuskegee Airmen in World War II and their primary 
flight training at Moton Field. Throughout this process he has been 
tremendously supportive and a friend to the University. We are indebted 
to him and we greatly appreciate his efforts. I also thank Congressman 
Earl Hilliard, who is a co-sponsor of this bill, for being a source of 
wise counsel, and a champion of interests affecting the broader 
historically black college and university community.
    Additionally, I must acknowledge and profusely thank the staff of 
the National Park Service of the Department of Interior for their 
exceptional work in behalf of this legislation. The National Park 
Service (NPS) evaluated the potential of adding Moton Field to its 
system and one of its researchers discovered a captivating video 
documenting the Tuskegee Airmen's accomplishments. At your convenience, 
I invite you to review, pause and reflect on portions of this stirring 
historically accurate video that was narrated by former President 
Ronald Reagan.
    Mr. Chairman, a bill to recognize the contributions of the Tuskegee 
Airmen by establishing the Tuskegee Airmen National Historic Site at 
Moton Field where this history began, is long overdue. I want to thank 
you for this opportunity to present this testimony in support of H.R. 
4211, a bill to establish the Tuskegee Airmen National Historic Site as 
a component of the National Park Service System, in association with 
Tuskegee University. I want you to know that Tuskegee University and 
all of its constituents enthusiastically support this legislation.
    The story of the Tuskegee Airmen and their exemplary record is 
virtually unknown to the average American. (Of course, Mr. Chairman, I 
know because of your experience of being a military pilot you are 
familiar with the Airmen and their combat exploits.) Very few scholarly 
works are available for the general public to examine the historical 
impact made by these Airmen. While this story deals with their primary 
flight training at Moton Field, and their courage in battle during 
World War II, it also embraces the struggle to end racial 
discrimination against African Americans in the U.S. military and in 
the larger American society. Additionally, the story also encompasses 
the development of Tuskegee Institute (now Tuskegee University) and its 
persistent efforts to encourage the U.S. Army Air Corps to establish a 
military pilot training program for African Americans.
    The accomplishments and impact of the Tuskegee Airmen are, without 
a doubt, of significance to this nation. The Tuskegee Airmen are 
deserving of a unit of the National Park System to provide for their 
commemoration and to relate their story to present and future 
generations. This story is well detailed in the 16-page summary of the 
special resource study and for this reason my remarks will focus 
primarily on other issues.
    Tuskegee Institute (now Tuskegee University) played a strategic 
role in the training of the Tuskegee Airmen. In the 1940s the pervasive 
perception within the military and throughout the nation was that white 
people, simply by virtue of the color of their skin, constituted a 
superior race and that African Americans were inherently inferior 
beings who did not possess the intellectual capacity to become success-

ful fighter pilots. These beliefs led to the use of quotas, exclusion, 
and other more blatant forms of racial discrimination in the military. 
These beliefs also served as the rationale to deny African Americans 
positions of leadership and skill in the military and they operated to 
prevent the training of African Americans as military pilots. The 
struggle of African Americans to join the Army Air Corps and become 
combat pilots during World War II played out against this background of 
officially sanctioned white racism.
    After much pressure from civil rights groups and from the African 
American press, Tuskegee Institute (now Tuskegee University) was 
selected by the U.S. Military to sponsor the first Military Pilot 
Training Program in U.S. History for African Americans. Moton Field, 
which was named for the University's second President, Robert Russa 
Moton, was selected as the specific primary training site. This field 
has particular significance in Tuskegee's history because the 
University's students and faculty assisted an African American 
contractor in designing and constructing it, and because of its ideal 
year-round flight conditions. But Moton Field's very existence was the 
outgrowth of the vision of Tuskegee Institute (Tuskegee University) and 
the University's willingness to invest financial and human resources in 
the development of the Field. This made possible an extensive civilian 
pilot training program (CPT) at Moton Field which moved the Institute 
(University) to the forefront of such training efforts. Combined with 
the strong performance of students from Tuskegee's CPT Program, who had 
better test scores than other candidates in competing training 
facilities, Tuskegee became the clear choice in competition to host a 
military pilot training for African Americans.
    Consequently, in spite of the prevailing racist beliefs about 
whether African Americans could become military leaders and pilots, 
instructors at Moton Field trained nearly 1,000 aviators as America's 
first African American military pilots. Over the years this operation 
at Moton Field would include over 10,000 military and civilian African 
American men and women who served as air traffic controllers, flight 
instructors, officers, bombardiers, navigators, electrical and 
communication specialists, medical professionals, cooks, musicians and 
other personnel. On July 19, 1941, twelve aviation cadets and one 
student officer, Captain Benjamin O. Davis, Jr., a graduate of the 
Unites States Military Academy, reported to Tuskegee Institute to begin 
flight training as the first class of African American candidates in 
the U.S. Military. In March, 1942, the first class of African American 
aviation cadets graduated from Tuskegee Army Air Field and became the 
nation's first black military pilots. The significance of this event 
should not be underestimated: after years of struggle, African 
Americans were finally accepted and commissioned as pilots and officers 
in the United States Army. Captain Davis received his wings and took 
over the command of the 99th Squadron.
    From 1942 to 1943 Army Air Force officials and military leaders, 
would scrutinize and question the performance and aggressiveness of the 
Airmen. By 1943 Lt. Col. Benjamin O. Davis, Jr. was called upon by a 
United States Senate Advisory Committee to respond to questions about 
the military performance of the 99th Fighter Squadron. However, after 
scoring a series of victories and the news of their courageous and 
heroic performance reached the military leaders, the Airmen earned 
increased combat action and respect. White American bomber crews 
referred to them as the ``Red-tail Angels'' because of the identifying 
paint on their tail assemblies and because of their record of never 
losing a bomber to enemy fighters while escorting the 15th Air Force on 
bombing missions over strategic targets. These gallant men flew 15,553 
sorties and completed 1,578 missions, destroyed over 260 enemy 
aircraft, sank one enemy destroyer, and demolished numerous enemy 
installations. After a distinguished and meritorious military career, 
Lt. Col. Davis rose to the rank of Lt. General and he resides here in 
Washington, DC. Mr. Chairman, I would like to submit for the record a 
list of the Tuskegee Airmen's victories and their numerous awards.
    These veterans are not only to be remembered for their heroic 
actions, but for using non-violent legal demonstration tactics to 
desegregate an officer's club in Indiana via the efforts of members of 
the 447th Bombardment Group. Such nonviolent actions later became the 
hallmark of the civil rights movement.
    Telling the story of the Tuskegee Airmen's accomplishments and 
commemorating the impact these Americans had on demonstrating the 
capabilities of African Americans and attacking military segregation 
warrants being expressed through a form of ``living history'' as 
outlined in a study entitled ``Moton Field: Tuskegee Airmen Special 
Resource Study,'' dated June, 1998. There remains a need not only to 
tell the history, but to perpetuate the legacy of the Tuskegee Airmen 
so that our great nation can continue to produce leaders of achievement 
with the stature of General Benjamin O. Davis, Jr., Admiral Samuel L. 
Gravely, former Secretary of the Army Clifford Alexander, Astronauts 
Guion Blubord, Ronald McNair, and Frederick Greg-

ory, Rear Admiral Mack Gaston (U.S. Navy, Ret., a Tuskegee graduate), 
General Charles Williams (U.S. Army, Ret., also a Tuskegee graduate.) 
The attainments of these African American leaders to hold so many 
significant positions and ranks within every branch of service can be 
linked to the paths paved by the Tuskegee Airmen. Commemorating the 
accomplishments of the Tuskegee Airmen through the establishment of a 
national Historic Site will provide educators in our nation with a tool 
they can use to inspire future generations to accept that people of 
every race can make significant contributions to our nation when 
provided opportunities.
    The historic remains and historic character of the Moton Field 
Complex are substantially intact and are the only significant cultural 
resources left that represent the Tuskegee Airmen Experience. All 
structures and most other visible remnants of the Tuskegee Army Air 
Field, an advanced flight training facility built by the Army just a 
few miles from Moton Field, have been removed.
    We feel that the historic role of Tuskegee University should be 
extended to a contemporary partnership role in assisting the National 
Park Service (NPS) in commemorating the Tuskegee Airmen at Moton Field. 
There are several ways that Tuskegee University can serve as a 
principal partner with NPS in the development and use of the historic 
site. Tuskegee University is prepared to donate land needed to 
establish the new park unit. We plan to initially donate approximately 
35 acres which contains the key historic resources at Moton Field and 
is sufficient to allow for management use.
    The role of Tuskegee University will also involve the establishment 
of a Department of Aviation Science under the auspices of the 
University at Moton Field. Precollege and college level curriculum will 
emphasize math and science and provide a historical continuum of flight 
training in the tradition of the Tuskegee Airmen. In addition, Tuskegee 
University will develop training programs for adults in the region to 
become skilled power mechanics, airport maintenance crews and other 
high demand vocations that are airport--aviation science--related. 
Tuskegee University will do this in partnership with private and public 
entities.
    The proposed Tuskegee Airmen National Center (the Center) will 
house the Department of Aviation Science as well as a full-scale 
military museum to extend the ability to relate more fully the story of 
the Tuskegee Airmen. Tuskegee University intends to work closely with 
NPS in preparing a report outlining the public/private partnership 
needed to develop and operate the Center. Once an agreement has been 
reached on the development and management of the Center, the balance of 
the acreage for the historic site will be donated by Tuskegee 
University to NPS.
    The Center will require a national fundraising campaign involving 
the Tuskegee Airmen, Tuskegee University, retired and active military 
personnel, private corporations (especially the aircraft industry), 
private foundations and others will be needed. Private contributions 
are anticipated to provide some of the funds needed for construction 
and, possibly, an endowment for operation of the facility. However, 
since the Tuskegee Airmen have broad national significance to this 
nation and to ensure a high quality facility is provided, substantial 
Federal funds will be required as well, and a Federal partner(s) should 
be involved as lead agency(ies) in the operation of the facility. Key 
Federal partners could include the U.S Department of Defense (U.S. Air 
Force), U.S. Department of Education, Federal Aviation Administration, 
Smithsonian Institution, National Aeronautics and Space Administration 
and National Park Service.
    The location of Tuskegee University's Department of Aviation 
Science at Moton Field will also provide the opportunity for the 
school's students and teachers to participate in the park's 
interpretive programs, particularly those dealing with living history. 
Potentially, such visitor-student interface opportunities will benefit 
the visitor experience.
    The above activities are indicative of the ways that Tuskegee 
University plans to serve as a principal partner of NPS in the 
management, use and development of the historic site. For this reason, 
such a role has been outlined for Tuskegee University in the bill. 
Tuskegee University intends to play an important role in many aspects 
of the historic site.
    The Tuskegee Airmen include thousands of civilian and military men 
and women who overcame discriminatory conditions to become one of the 
most highly respected and honored fighter groups. They were the first 
African American soldiers to successfully complete their training and 
enter the Army Air Corps. They deserve and the entire American public 
needs this National Historic Site to help correct the many false and 
distorted images of African Americans which lie so deeply in the 
American culture.
    Mr. Chairman, again, thank you for holding this legislative hearing 
and inviting me to testify on a bill that would establish and preserve 
a lasting and permanent legacy that reflects the bravery, heroic feats 
and accomplishments of the dedicated men who trained at Tuskegee 
Institute and fought the battles of racism in the military and of World 
War II as well as integrated the United States Armed Forces. As I said 
in the beginning of my testimony, since Tuskegee University is the 
guardian of the Tuskegee Institute National Historic Site, our 
stewardship in association with the National Park Services' leadership 
of this proposed Tuskegee Airmen National Historic Site is appropriate 
and fitting. Mr. Chairman, the history of these patriots and their 
fight for the right to join the Army Air Corps and prove their work to 
their country, as well as their struggle for equal rights in both the 
military and society, must be preserved for the American public. They 
represent an important part of this nation's history. Tuskegee 
University fully supports the establishment of the Tuskegee Airmen 
National Historic Site in association with the National Park Service.
    Given your appreciation of the impact the Tuskegee Airmen had on 
encouraging equality in the military and helping to develop outstanding 
leaders from every branch of military service, Mr. Chairman, I thank 
you and your colleagues for providing your full support to this 
legislation.

[GRAPHIC] [TIFF OMITTED] T0836.045

[GRAPHIC] [TIFF OMITTED] T0836.046

[GRAPHIC] [TIFF OMITTED] T0836.047

[GRAPHIC] [TIFF OMITTED] T0836.048

[GRAPHIC] [TIFF OMITTED] T0836.049

[GRAPHIC] [TIFF OMITTED] T0836.050

[GRAPHIC] [TIFF OMITTED] T0836.051

[GRAPHIC] [TIFF OMITTED] T0836.052

[GRAPHIC] [TIFF OMITTED] T0836.053

[GRAPHIC] [TIFF OMITTED] T0836.054

[GRAPHIC] [TIFF OMITTED] T0836.055

[GRAPHIC] [TIFF OMITTED] T0836.056

[GRAPHIC] [TIFF OMITTED] T0836.057

[GRAPHIC] [TIFF OMITTED] T0836.058

[GRAPHIC] [TIFF OMITTED] T0836.059

[GRAPHIC] [TIFF OMITTED] T0836.060

[GRAPHIC] [TIFF OMITTED] T0836.061

[GRAPHIC] [TIFF OMITTED] T0836.062

[GRAPHIC] [TIFF OMITTED] T0836.063

[GRAPHIC] [TIFF OMITTED] T0836.064

[GRAPHIC] [TIFF OMITTED] T0836.065

[GRAPHIC] [TIFF OMITTED] T0836.066

[GRAPHIC] [TIFF OMITTED] T0836.067

[GRAPHIC] [TIFF OMITTED] T0836.068

[GRAPHIC] [TIFF OMITTED] T0836.069

[GRAPHIC] [TIFF OMITTED] T0836.070

[GRAPHIC] [TIFF OMITTED] T0836.071

[GRAPHIC] [TIFF OMITTED] T0836.072

[GRAPHIC] [TIFF OMITTED] T0836.073

[GRAPHIC] [TIFF OMITTED] T0836.074

[GRAPHIC] [TIFF OMITTED] T0836.075

[GRAPHIC] [TIFF OMITTED] T0836.076

[GRAPHIC] [TIFF OMITTED] T0836.077

[GRAPHIC] [TIFF OMITTED] T0836.078

[GRAPHIC] [TIFF OMITTED] T0836.079

[GRAPHIC] [TIFF OMITTED] T0836.080

[GRAPHIC] [TIFF OMITTED] T0836.081

[GRAPHIC] [TIFF OMITTED] T0836.082

[GRAPHIC] [TIFF OMITTED] T0836.083

[GRAPHIC] [TIFF OMITTED] T0836.084

[GRAPHIC] [TIFF OMITTED] T0836.085

[GRAPHIC] [TIFF OMITTED] T0836.086

[GRAPHIC] [TIFF OMITTED] T0836.087

[GRAPHIC] [TIFF OMITTED] T0836.088

[GRAPHIC] [TIFF OMITTED] T0836.089

[GRAPHIC] [TIFF OMITTED] T0836.090

[GRAPHIC] [TIFF OMITTED] T0836.091

[GRAPHIC] [TIFF OMITTED] T0836.092

[GRAPHIC] [TIFF OMITTED] T0836.093

[GRAPHIC] [TIFF OMITTED] T0836.094

[GRAPHIC] [TIFF OMITTED] T0836.095

[GRAPHIC] [TIFF OMITTED] T0836.096

[GRAPHIC] [TIFF OMITTED] T0836.097

[GRAPHIC] [TIFF OMITTED] T0836.098

[GRAPHIC] [TIFF OMITTED] T0836.099

[GRAPHIC] [TIFF OMITTED] T0836.100

[GRAPHIC] [TIFF OMITTED] T0836.101

[GRAPHIC] [TIFF OMITTED] T0836.102

[GRAPHIC] [TIFF OMITTED] T0836.103

[GRAPHIC] [TIFF OMITTED] T0836.104

[GRAPHIC] [TIFF OMITTED] T0836.105

[GRAPHIC] [TIFF OMITTED] T0836.106

[GRAPHIC] [TIFF OMITTED] T0836.107

[GRAPHIC] [TIFF OMITTED] T0836.108

[GRAPHIC] [TIFF OMITTED] T0836.109

[GRAPHIC] [TIFF OMITTED] T0836.110

[GRAPHIC] [TIFF OMITTED] T0836.111

[GRAPHIC] [TIFF OMITTED] T0836.112

[GRAPHIC] [TIFF OMITTED] T0836.113

[GRAPHIC] [TIFF OMITTED] T0836.114

[GRAPHIC] [TIFF OMITTED] T0836.115

[GRAPHIC] [TIFF OMITTED] T0836.116

[GRAPHIC] [TIFF OMITTED] T0836.117

[GRAPHIC] [TIFF OMITTED] T0836.118

[GRAPHIC] [TIFF OMITTED] T0836.119

[GRAPHIC] [TIFF OMITTED] T0836.120

[GRAPHIC] [TIFF OMITTED] T0836.121

[GRAPHIC] [TIFF OMITTED] T0836.122

[GRAPHIC] [TIFF OMITTED] T0836.123

[GRAPHIC] [TIFF OMITTED] T0836.124

[GRAPHIC] [TIFF OMITTED] T0836.125

[GRAPHIC] [TIFF OMITTED] T0836.126

[GRAPHIC] [TIFF OMITTED] T0836.127

[GRAPHIC] [TIFF OMITTED] T0836.128

[GRAPHIC] [TIFF OMITTED] T0836.129

[GRAPHIC] [TIFF OMITTED] T0836.130

[GRAPHIC] [TIFF OMITTED] T0836.131

[GRAPHIC] [TIFF OMITTED] T0836.132

[GRAPHIC] [TIFF OMITTED] T0836.133


</pre></body></html>
